Office of Inspector General
Semiannual Report to Congress


October 1, 1999 – March 31, 2000
                                                FOREWORD



I am pleased to submit the semiannual report on the activities of the Office of Inspector
General (OIG) for the period ended March 31, 2000. This semiannual report is issued in
accordance with the provisions of the Inspector General Act of 1978, as amended.

OIG oversight of major Department of Veterans Affairs' (VA) programs resulted in systemic
improvements and increased efficiencies in areas of medical care, benefits administration,
procurement, financial management, and facilities management. OIG audits,
investigations, and other reviews identified over $272 million in monetary benefits, for an
OIG return on investment of $13 for every dollar expended. A particular noteworthy
accomplishment was an audit of prosthetic supply inventories which identified
opportunities to reduce inventories by $31 million. Additional OIG accomplishments
during the period included 164 arrests, 124 indictments, 125 criminal convictions, and 301
administrative actions, foremost of which were cases involving health care and benefits
fraud and employee misconduct.

VA, the second largest Department in the Federal Government, operates the largest
health care system in the United States. The OIG Office of Healthcare Inspections
continues to focus on quality of care issues to include a proactive review of the Veterans
Health Administration’s (VHA’s) coordination and management of the hepatitis C virus
initiative. Healthcare inspectors also conducted reviews of essential aspects of VHA
clinical operations and patient treatment processes and made recommendations for
improvement.

OIG has continued its Combined Assessment Program (CAP) to evaluate the quality,
efficiency, and effectiveness of VA medical services. CAP combines the skills of OIG’s
major components to provide collaborative assessments of key operations and programs
at VA medical centers on a cyclical basis. The CAP reports highlighted numerous
opportunities for improvement.

I look forward to continued partnership with the Secretary and the Congress in improving
service to our Nation's veterans.


(original signed by:)
RICHARD J. GRIFFIN
Inspector General
                                                  TABLE OF CONTENTS
                                                                                                                                                             Page

HIGHLIGHTS OF OIG OPERATIONS ..........................................................................................................                        i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES .................................................................                                              1
COMBINED ASSESSMENT PROGRAM .....................................................................................................                              7
OFFICE OF INVESTIGATIONS
     Mission Statement ..............................................................................................................................         11
     Resources ...........................................................................................................................................    11
     Criminal Investigations .......................................................................................................................          11
              Veterans Health Administration.............................................................................................                     12
              Veterans Benefits Administration..........................................................................................                      24
              Board of Veterans Appeals ...................................................................................................                   33
              Office of Human Resources and Administration...................................................................                                 34
              National Cemetery Administration ........................................................................................                       34
              OIG Forensic Documents Laboratory ...................................................................................                           35
     Administrative Investigations .............................................................................................................              36
              Veterans Health Administration.............................................................................................                     36
              Veterans Benefits Administration..........................................................................................                      38
OFFICE OF AUDIT
     Mission Statement ..............................................................................................................................         39
     Resources ...........................................................................................................................................    39
     Overall Performance ...........................................................................................................................          39
              Veterans Health Administration.............................................................................................                     40
              Veterans Benefits Administration..........................................................................................                      42
              Office of Financial Management ...........................................................................................                      42
              Office of Congressional Affairs..............................................................................................                   46
              Office of the Secretary...........................................................................................................              47
              Multiple Office Action.............................................................................................................             48
              Implementation of GPRA in VA.............................................................................................                       49
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ..............................................................................................................................         51
     Resources ...........................................................................................................................................    51
     Overall Performance ...........................................................................................................................          51
            Veterans Health Administration ..............................................................................................                     51
OFFICE OF MANAGEMENT AND ADMINISTRATION
     Mission Statement .............................................................................................................................          55
     Resources ...........................................................................................................................................    55
     Hotline and Data Analysis Division.....................................................................................................                  56
     Hotline Section ....................................................................................................................................     57
              Veterans Health Administration.............................................................................................                     57
              Veterans Benefits Administration..........................................................................................                      61
              Office of Human Resources and Administration...................................................................                                 62
     Data Analysis Section .........................................................................................................................          62
     Operational Support Division ..............................................................................................................              64
     Status of OIG Reports Unimplemented for Over 3-Years..................................................................                                   66
              Veterans Health Administration.............................................................................................                     66
              Veterans Benefits Administration..........................................................................................                      68
              Office of Human Resources and Administration...................................................................                                 70
              Office of Planning and Analysis ............................................................................................                    71
     Information Technology Division.........................................................................................................                 72
     Resources Management Division.......................................................................................................                     75
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency...................................................................................                       77
     OIG Management Presentations ........................................................................................................                    77
     Congressional Testimony ...................................................................................................................              78
     Obtaining Required Information or Assistance...................................................................................                          78
                                                                                                                                         Page

APPENDIX A -   REVIEWS BY OIG STAFF ......................................................................................                79
APPENDIX B -   CONTRACT REVIEWS BY OTHER AGENCIES ...................................................                                     85
APPENDIX C -   CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
               OFFICER DECISION HAD NOT BEEN MADE FOR
               OVER 6 MONTHS AS OF MARCH 31, 2000 ..........................................................                              87
APPENDIX D -   FOLLOWUP ON OIG REPORTS.............................................................................                       91
APPENDIX E -   REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ......................                                                     95
APPENDIX F -   VA OIG OPERATIONS PHONE LIST......................................................................                         97
APPENDIX G -   GLOSSARY ..............................................................................................................    99
                                   HIGHLIGHTS OF OIG OPERATIONS


This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended March 31, 2000. The
following statistical data highlights OIG activities and accomplishments during the reporting period.

        DOLLAR IMPACT                                                                                                 Dollars in Millions

                  Funds Put to Better Use........................................................................              $260.5
                  Dollar Recoveries.................................................................................             $5.4
                  Fines, Penalties, Restitutions, and Civil Judgments.............................                               $6.6

        RETURN ON INVESTMENT
                  Dollar Impact ($272.5) / Cost of OIG Operations ($20.74).................                                     13 : 1

        OTHER IMPACT
                  Arrests ..................................................................................................    164
                  Indictments...........................................................................................        124
                  Convictions ..........................................................................................        125
                  Administrative Sanctions .....................................................................                301

        ACTIVITIES

            Reports Issued
               Combined Assessment Program...........................................................                             4
               Audits ...................................................................................................        16
               Contract Reviews .................................................................................                16
               Healthcare Inspections .........................................................................                   6
               Administrative Investigations ..............................................................                       8

            Investigative Cases
                Opened .................................................................................................        404
                Closed...................................................................................................       229

            Hotline Activities
               Contacts................................................................................................        7,452
               Cases Opened .......................................................................................              438
               Cases Closed ........................................................................................             256


OFFICE OF INVESTIGATIONS

During the semiannual period, the Office of Investigations, comprised of a Criminal Investigations
Division and an Administrative Investigations Division, focused its resources on investigations that have
the highest impact on the programs and operations of the Department. Criminal investigative priority
continues to target cases of public corruption and major thefts, instances where incapacitated veterans fall
victim to unscrupulous fiduciaries, and fraud involving programs for the delivery of benefits to veterans.
Emphasis has been placed on safety and security at VA medical centers (VAMC) and a strong working


                                                                          i
relationship has been developed with the VA Office of Security and Law Enforcement along with VA
police throughout the nation. Immediate response to allegations of fraud is absolutely essential and
demonstrates that the OIG will take decisive action against those who prey on veterans and will hold
accountable those VA employees who disregard their public trust responsibilities. During the period, the
Criminal Investigations Division concluded 229 investigations resulting in 249 judicial actions and over
$14 million recovered or saved. The Administrative Investigations Division concentrated its resources in
the investigation of allegations, generally against high-ranking VA officials, concerning misconduct and
other matters of interest to the Congress and the Department. The division completed 13 administrative
investigations this semiannual period and issued 8 reports. These investigations resulted in administrative
action taken against 10 high-ranking officials and other employees, and 20 corrective actions taken by
management to improve VA operations and activities.

Veterans Health Administration

The following are examples of investigations in which Veterans Health Administration (VHA) employees
and contractors have been charged with various illegal activities. (i) A VA psychologist was sentenced
after pleading guilty to scheming to defraud VA by submitting false invoices for computer equipment,
ostensibly ordered for veterans who were participants in a vocational rehabilitation program. The
psychologist, conspiring with the owner of a private computer company, approved false invoices for
payment but never delivered the computers to veterans. The psychologist received more than $50,000
from the conspirator for taking part in the scheme. (ii) A VA nurse pleaded guilty to making false
statements to obtain workers’ compensation benefits and was sentenced to imprisonment, home detention,
probation, and restitution. The nurse falsified Department of Labor (DOL) forms and received
approximately $223,000 in workers’ compensation benefits for a job-related injury while she was
working as a nurse in a company she owned and operated. (iii) Four individuals who were employed by
two companies that had contracted to perform a $7.8 million renovation project on a VAMC were
sentenced after being found guilty to charges of contract fraud. Over 3 years they collectively received
over $770,000 in Government payments to which they were not entitled. Three of them were sentenced
to serve terms in a Federal penitentiary and collective restitution of more than $1.5 million. The two
companies were each ordered to pay $500,000 in restitution. (iv) The director of operations of a nursing
care facility that contracted with VA to supply nursing-home care to veterans was sentenced to prison
after being convicted on charges of engaging in a scheme to defraud the Government, income tax fraud,
and money laundering after it was found that he billed VA for patient treatment dates on which no care
was provided. (v) An individual who posed as a VA fee-basis doctor was indicted on charges of
defrauding health care benefit programs and criminal forfeiture after an investigation disclosed that he
fraudulently obtained a state license to practice medicine and then continued practicing medicine for
almost 20 years. His scheme defrauded VA, Medicare, and Medicaid benefit programs of more than $3.5
million.

Veterans Benefits Administration

The following investigations are examples of fraud relating to some of the benefits programs
administrated by Veterans Benefits Administration (VBA). (i) An individual was arrested on charges of
loan guaranty fraud after investigation disclosed that he located buyers for VA properties, falsely
represented to them that he owned the properties, and then arranged phony sales to the buyers. When the
buyers took possession of the properties, they made mortgage payments directly to the individual, who
claimed he would pay the mortgages on the properties. Instead, he diverted the payments for his own use,
causing the VA properties to go into foreclosure, resulting in losses to VA of approximately $700,000. (ii)
An individual was indicted and charged with theft, false statements, and fraud to obtain Federal
employee’s compensation after investigation disclosed that he received VA compensation benefits based
on unemployability due to an injury, while also collecting workers’ compensation from the Postal Service


                                                     ii
for the same injury. At the time he was claiming benefits for an inability to work, he owned and operated
a vehicle restoration business. As a result, he received more than $400,000 in benefits to which he was
not entitled. (iii) A fiduciary for a disabled veteran pleaded guilty to charges of misappropriation by a
VA fiduciary and wire fraud after investigation disclosed that he embezzled funds from his ward, an
incompetent veteran. Investigation found that the individual electronically wired more than $100,000 in
funds from the veteran's account to numerous out-of-state accounts under his control. (iv) An individual
pleaded guilty to charges of embezzlement in connection with his actions while acting as fiduciary for
more than 100 VA and Social Security Administration (SSA) beneficiaries. Investigation disclosed that,
while acting as fiduciary, he embezzled over $227,000 in funds awarded to those benefits recipients
requiring his services.

National Cemetery Administration

Three employees of the National Cemetery Administration (NCA) and one outside contractor were
convicted on charges including theft of Government property, receiving stolen property, and providing
gratuities to Government officials. Investigation disclosed that two program assistants with NCA used
VA-issued Government credit cards to purchase computers, electronics, and other items and services,
which they kept or sold for profit to a third NCA employee. Information surfaced during the investigation
which disclosed that a sales representative for an office products company provided cash and gratuities to
the two program assistants who, in exchange, made office supply purchases from the company totaling
more than $100,000. All four were sentenced to a total of more than 11½ years’ probation and ordered to
pay a total of more than $170,000 restitution to VA.


OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $213.5 Million

Audits and evaluations were conducted which focused on determining how programs can work better,
while improving service to veterans. During this reporting period, 16 performance and financial audits
and evaluations and 16 contract reviews identified opportunities to save or make better use of $213.5
million in monetary benefits. The Office of Audit returned $25 for every dollar spent on performance and
financial audits. Contract reviews returned $19 in monetary benefits for every dollar spent.

Veterans Health Administration

The following are examples of major health care related audits. (i) A followup audit of VHA’s central
food production program and Advanced Food Processing and Delivery Systems (AFPDS) showed that
test facilities successfully implemented the central food production program. Facilities achieved expected
improvements in food service and realized or exceeded expected staff reductions. (ii) An audit of VA’s
Workers’ Compensation Program (WCP) found that VHA is vulnerable to abuse, fraud, and unnecessary
costs associated with claims in the three high-risk areas reviewed. We concluded that VHA’s
management of WCP cases involving these high-risk areas needs to be strengthened to assure the
appropriateness of some WCP claims.

Office of Financial Management

The audit of the Department’s Consolidated Financial Statements for Fiscal Years (FY) 1999 and 1998
provides an unqualified opinion. Our Report on Internal Control discusses three material weaknesses
concerning (i) VA-wide information system security controls, (ii) Housing Credit Assistance (HCA)



                                                    iii
program accounting, and (iii) fund balance with U.S. Treasury reconciliations. The Department made
significant improvement to address previously reported information system security controls and HCA
program accounting issues.

Contract Review and Evaluation

During the period, we completed 16 contract reviews – 9 postaward and 7 preaward reviews. Contract
reviews identified monetary benefits associated with preaward and postaward reviews of $23.8 million.

Multiple Office Action

Our audit of procurement initiatives for VA’s Integrated Data Communications Utility (IDCU)
telecommunications support involved both the Office of Information and Technology and the Office of
Financial Management. The audit found that approximately $142 million in contract modifications were
not supported with adequate documentation to explain why contract cost increases were fair and
reasonable. Our audit of VAMCs and the Denver Distribution Center (DDC) found that they maintain
large prosthetic supply inventories that far exceed requirements for current operating needs. We reported
that prosthetic supply inventories could be reduced by more than $31 million. This audit involved both
VHA and the Office of Financial Management.


OFFICE OF HEALTHCARE INSPECTIONS

Program Reviews

We conducted one health care program evaluation of the treatment of veterans who require hepatitis C
virus (HCV) care in VHA medical facilities. Concurrent with the program evaluation, we were asked to
inspect allegations of rationing of appropriate HCV treatment. Hepatitis refers to inflammation of the
liver, and may be acute and self-limited, or it may persist for a lifetime. In the latter instance, as well as
being persistent, the disease may also be active and progressive, and ultimately fatal. Finally, in cases of
viral-induced hepatitis, the patient infected with the virus may be a “carrier” and therefore be potentially
infectious to others. In this program evaluation, we focused on one particular type of viral hepatitis—
hepatitis C. Our evaluation revealed no evidence of rationing of HCV treatment. VHA has embarked on
a five-pronged strategic initiative on HCV. The initiative established two HCV education and research
centers. The centers will be leaders in VA’s initiative to respond to the HCV epidemic and will address
five areas of concentration. These areas, which do not include facility compliance or resource allocation,
are: (i) patient education, (ii) health care provider education, (iii) epidemiological assessment, (iv)
treatment, and (v) research. VHA headquarters officials have issued HCV treatment guidelines and
provided forums for ongoing clinical education and guidance. VHA issued a mandate that all veterans
seeking care in a VHA facility are to be evaluated for HCV risk. However, we found that this mandate is
not fully implemented because VAMCs are not uniformly screening all veterans who seek care and some
facilities did not have any risk factor screening procedures for new patients. While we recognize that
implementation of the initiative will take time, the issue of uniformity of risk evaluation or screening
mechanisms needs to be addressed soon. The impact of the HCV-related workload on the VHA health
care system is an increasing concern to managers in VHA facilities. Increasingly, VHA resources will
become more strained, and additional dedicated resources will be required at many VHA facilities to
avoid delayed access to HCV care and treatment in the future.




                                                      iv
OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline and Data Analysis

The Hotline program provides an opportunity for employees, veterans, and other concerned citizens to
report fraud, waste, abuse, and mismanagement. The identification and reporting of issues such as these
are integral to the goal of improving the efficiency and effectiveness of the Federal Government. During
the reporting period, the Hotline received 7,452 contacts. Of this number, staff opened 438 cases, and
closed 256 cases, of which 79 contained substantiated allegations. Hotline staff generated 136 letters
responding to inquiries received from members of the Senate and House of Representatives. Staff
recorded 39 administrative sanctions against employees and 40 corrective actions taken by management
to improve VA operations and activities. The Hotline reviews found that some employees improperly
used their Government credit cards, Government-leased vehicles, and Government equipment and
supplies. Reviews identified several instances of misconduct by professional staff in the care and
treatment of veteran patients. A Hotline review at one VA office found that funds had been diverted to an
internal budget rather being returned to VHA. Reviews concerning VBA operations identified problems
with a number of compensation and pension cases that warranted corrective action by management.

The Data Analysis section provides automated data processing technical assessments and support to all
elements of the OIG and other Governmental agencies needing information from VA files. During the
reporting period, the staff processed 386 requests for data and information. These requests are a part of
more comprehensive reviews by other OIG activities that result in solutions beneficial to the VA or lead
to the identification of fraud, waste, and abuse. The Data Analysis section also responds to requests from
other VA program offices and renders assistance to the investigative components of other agencies.
During the reporting period, this section also provided support and assistance to all OIG CAP reviews by
providing 26 statistical reports that team members used to assess the effectiveness and quality of service
provided to veterans.

Followup on OIG Reports

The Operational Support Division is responsible for obtaining implementation actions on previously
issued audits, inspections, and reviews with over $1.018 billion of actual or potential monetary benefits as
of March 31, 2000. Of this amount $860 million is resolved, but not yet realized as VA officials have
agreed to implement the recommendations, but have not yet done so. In addition, $158 million relates to
unresolved reviews awaiting contract resolution by VA contracting officers. After obtaining information
that showed VA officials had fully implemented corrective actions, the Division took action to close 56
internal reports and 231 recommendations with a monetary benefit of $248 million.

Status of OIG Reports Unimplemented for Over 3 Years

We have added a new section to this semiannual report on the status of unimplemented OIG report
recommendations issued in FY 97 and earlier. It is found on pages 66 through 71. VA management
officials are required to provide the OIG with documentation showing the completion of corrective
actions taken on OIG reports. In the majority of cases, program offices provide in a timely manner the
actions required to implement the reports. However, we are concerned that we have 13 OIG reports that
were issued in FY 97 and earlier that remain unimplemented. VBA has six reports (one report issued in
FY 96 and five in FY 97), VHA has four reports (one report issued in each of the FYs’ 94, 95, 96, and
97), and the Office of Planning and Analysis, Office of Human Resources and Administration, and the
Office of Financial Management each have one unimplemented report (with issue dates in FY 95, FY 97,
and FY 97 respectively).



                                                     v
vi
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES
The Department of
Veterans Affairs (VA)
Background
In one form or another, American governments
have provided veterans benefits since before the                      810 Vermont Avenue
Revolutionary War. VA’s historic predecessor                               side view
agencies demonstrate our Nation’s long
commitment to veterans.
                                                                [photo not available electronically]
The Veterans Administration had been in
existence since 1930, when Public Law 71-536
consolidated the Veterans’ Bureau, the Bureau
of Pensions, and the National Home for
Disabled Volunteer Soldiers.

The Department of Veterans Affairs was                           VA Central Office as seen from
established on March 15, 1989, by Public Law                           Lafayette Square
100-527, which elevated the Veterans
Administration, an independent agency, to                Organization
Cabinet-level status.
                                                         VA has three administrations that serve
Mission                                                  veterans:
                                                         • Veterans Health Administration (VHA)
VA's motto comes from Abraham Lincoln's
                                                         provides health care,
second inaugural address, given March 4, 1865,
                                                         • Veterans Benefits Administration (VBA)
"to care for him who shall have borne the battle
                                                         provides benefits, and
and for his widow and his orphan." These words
are inscribed on large plaques on the front of the       • National Cemetery Administration (NCA)
VA Central Office building on Vermont Avenue             provides burial and recognition.
in Washington, DC.
                                                         To support these services and benefits, there are
The Department’s mission is to serve America’s           six Assistant Secretaries:
veterans and their families with dignity and             • Financial Management (FIN) (Budget,
compassion and to be their principal advocate in         Finance, Acquisition and Materiel Management
ensuring that they receive the care, support, and        (A&MM)),
recognition earned in service to this Nation.            • Information and Technology (I&T),
                                                         • Planning and Analysis (P&A),




                                                     1
VA and OIG Mission, Organization and Resources

• Human Resources and Administration                       2.6 million veterans and their beneficiaries
(HRA) (Equal Opportunity, Human Resources                  receive compensation benefits valued at $19
Management, Administration, Security and Law               billion. Also, over $3 billion in pension benefits
Enforcement, and Resolution Management),                   are provided to veterans and survivors. VA life
• Public and Intergovernmental Affairs, and                insurance programs have 4.5 million policies in
• Congressional Affairs.                                   force with a face value of over $450 billion.
                                                           Almost 280,000 home loans will be guaranteed,
In addition to VA’s Office of Inspector General,           with a value of almost $32 billion.
other staff offices providing support to the
Secretary include the Board of Contract                    The National Cemetery Administration currently
Appeals, the Board of Veterans’ Appeals, the               operates and maintains 119 cemeteries and
Office of General Counsel, the Office of Small             estimates 1,406 employees in FY 2000.
and Disadvantaged Business, the Centers for                Operations of NCA and all of VA’s burial
Minority Veterans and for Women Veterans, and              benefits account for approximately $300 million
the Office of Employment Discrimination                    of VA’s $45.5 billion budget. Interments in VA
Complaint Adjudication.                                    cemeteries continue to increase each year, with
                                                           83,300 estimated for FY 2000. Approximately
Resources                                                  343,000 headstones and markers will be
                                                           provided for veterans and their eligible
                                                           dependents in VA cemeteries, state veterans’
While most Americans know that VA exists,                  cemeteries, and private cemeteries.
few have any idea of the size of this Department,
which is the Nation’s second largest in terms of
staffing. For FY 2000, VA estimates 204,115                VA Office of Inspector
employees and a $45.5 billion budget. There are            General (OIG)
an estimated 25.9 million living veterans. To
serve our Nation’s veterans, VA maintains
facilities in every state of the union, the District       Background
of Columbia, the Commonwealth of Puerto
Rico, Guam, and the Philippines.                           VA’s OIG was administratively established on
                                                           January 1, 1978, to consolidate audit,
Approximately 187,000 of VA’s employees                    investigation, and related operations into a
work in the health care system. Health care                cohesive, independent organization. In October
accounts for $19.3 billion (approximately 42               1978, the Inspector General Act (Public Law 95-
percent) of VA’s budget in FY 2000. VHA                    452) was enacted and established a statutory
provides care to an average of 58,100 inpatients           Inspector General (IG) in VA.
daily. During FY 2000, slightly more than 40
million episodes of care are estimated for                 Role and Authority
outpatients. There are 172 hospitals, 766
outpatient clinics, 132 nursing home units, and            The Inspector General Act of 1978 states that
40 domiciliaries.                                          the IG is responsible for: (i) conducting and
                                                           supervising audits and investigations; (ii)
Veterans benefits are funded at $25.5 billion              recommending policies designed to promote
(almost 56 percent) of VA’s budget in FY 2000.             economy and efficiency in the administration of,
The 11,537 employees of VBA provide benefits               and to prevent and detect fraud and abuse in, the
to veterans and their families. Approximately              programs and operations of VA; and (iii)




                                                       2
                                               VA and OIG Mission, Organization and Resources

keeping the Secretary and the Congress fully            salaries and benefits, 5 percent for official travel,
informed about problems and deficiencies in VA          and the remaining 10 percent for all other
programs and operations and the need for                operating expenses such as contractual services,
corrective action.                                      rent, supplies, and equipment.

The Inspector General Act Amendments of 1988            The percent of OIG resources, which have been
provided the IG with a separate appropriation           devoted during this semiannual reporting period
account and a revised and expanded procedure            in VA’s major organizational areas, are
for reporting semiannual workload to Congress.          indicated in the following chart.
The IG has authority to inquire into all VA
programs and activities as well as the related
activities of persons or parties performing under                                     		

grants, contracts, or other agreements. The                                          

                                                                                        
inquiries may be in the form of audits,
investigations, inspections, or other appropriate                                          	

                                                                                           
actions.                                                                                          




Organization                                                                
                                                                                        

                                                                                        
                                                                            


Allocated full time equivalent (FTE) for the FY
2000 staffing plan was as follows:

                                                        The following chart indicates percent of OIG
                                ALLOCATED               resources which have been devoted to mandated,
          OFFICE
                                   FTE                  reactive, and proactive work.
 Inspector General                      4
 Counselor                              5                                          	
 Investigations                      102                                               

 Audit                               167                         		
                                                                     
 Management and
 Administration                       51
                                                                                         	
 Healthcare Inspections               31                                                     

           TOTAL                     360

In addition, 24 FTE are reimbursed for a                Mandated work is required by law and the
Department contract review function.                    Office of Management and Budget (OMB);
                                                        examples are our audits of VA’s consolidated
FY 2000 funding for OIG operations is                   financial statements, followup activities, and
$45.7 million, with $43.2 million from                  Freedom of Information Act information
appropriations and $2.5 million through                 releases.
reimbursable agreements. Approximately
85 percent of the total funding is for personnel




                                                    3
VA and OIG Mission, Organization and Resources

Reactive work is generated in response to             OIG Mission Statement
requests for assistance received from external
sources concerning allegations of fraud, waste,         The OIG is dedicated to helping VA ensure
abuse, and mismanagement. Most of the work              that veterans and their families receive the
performed by the Offices of Investigations is           care, support, and recognition they have
reactive.                                               earned through service to their country.
                                                        The OIG strives to help VA achieve its
Proactive work is self-initiated and focuses in         vision of becoming the best managed
areas where the OIG staff determines there are          service delivery organization in
significant issues; some healthcare inspections         Government. The OIG continues to be
and most audits fall into this category.                responsive to the needs of its customers by
                                                        working with the VA management team to
                                                        identify and address issues that are
                                                        important to them and the veterans served.

                                                        In performing its mandated oversight
                                                        function, the OIG conducts investigations,
                                                        audits, and health care inspections to
                                                        promote economy, efficiency, and
                                                        effectiveness in VA activities, and to detect
                                                        and deter fraud, waste, abuse, and
                                                        mismanagement. The OIG’s oversight
                                                        efforts emphasize the goals of the National
                   TechWorld                            Performance Review and the Government
                                                        Performance and Results Act (GPRA) for
                                                        creating a Government that works better
       [photo not available electronically]             and costs less. Inherent in every OIG
                                                        effort are the principles of quality
                                                        management and a desire to improve the
                                                        way VA operates by helping it become more
                                                        customer driven and results oriented.

                                                        The OIG will keep the Secretary and the
                                                        Congress fully and currently informed
                                                        about issues affecting VA programs and
                                                        the opportunities for improvement. In
                                                        doing so, the staff of the OIG will strive to
                                                        be leaders and innovators, and perform
                                                        their duties fairly, honestly, and with the
                                                        highest professional integrity.

      TechWorld, home to VA Office of
           Inspector General




                                                  4
                                                                    DEPARTMENT OF VETERANS AFFAIRS
                                                                      OFFICE OF INSPECTOR GENERAL

                                                                                         Inspector General
                                          Executive Assistant                            ______________                             Counselor to Inspector General
                                                                                              Deputy



        Assistant Inspector General
                                                          Assistant Inspector General                        Assistant Inspector General                        Assistant Inspector General
             Management and
                                                                 Investigations                                        Auditing                                   Healthcare Inspections
              Administration
                                                            __________________                                  _________________                                  _________________
           _________________
                                                                    Deputy                                             Deputy                                             Deputy
                  Deputy


                                                                                                                                                      Medical Assessment            Patient Care
     Hotline and            Operational            Administrative               Criminal
                                                                                                       Contract Review                                        and                 Inspections and
    Data Analysis            Support               Investigations            Investigations
                                                                                                       and Evaluation                                    Consultation                Evaluation


                                                                                   Benefits
                                                                                    Fraud                                                                                         Health Systems
     Information            Resources               Analysis and                                                                                                                   Development




5
     Technology            Management                Oversight                                                Financial                Financial
                                                                                 Healthcare                   Statement               Management
                                                                                   Fraud

                                                                                                                                                                        Field Offices
                                                                                 Procurement                 Management,                                                   Atlanta
                                                                                                                                      Planning and
                                                                                    Fraud                     Policy and                                                  Chicago
                                                                                                                                       Operational
                                                                                                             Professional                                               Los Angeles
                                                                                                                                         Support
                                                                                                             Development
                                                                                  Forensic
                                                                                 Documents
                                                                                 Laboratory
                                                                                                                      Operations Divisions
                                                                 Field Offices                                          Central Office
                                                                  New York                                                 Bedford
                                                                St. Petersburg                                              Atlanta
                                                                   Chicago                                                 Chicago
                                                                 Los Angeles                                             Kansas City
                                                                                                                            Seattle

                                                              Resident Agencies
                                                        Atlanta           Boston                                            Sub-Offices
                                                        Columbia          Dallas                                               Austin
                                                        Denver            Houston                                              Dallas
                                                        Kansas City       Nashville                                            Hines
                                                        New Orleans       Newark                                            Los Angeles
                                                        Phoenix           Pittsburgh                                        Philadelphia
                                                        San Francisco     Washington
                                                                West Palm Beach
VA and OIG Mission, Organization and Resources




                                       6
COMBINED ASSESSMENT PROGRAM
Combined Assessment Program                            privileging, agent cashier activities, data
Overview                                               integrity, and the medical care cost fund.

                                                       Representatives from the Office of Healthcare
The Combined Assessment Program (CAP) is               Inspections conduct a Quality Program
part of the OIG's effort to ensure that quality        Assistance (QPA) review. These are proactive
healthcare service is provided to our Nation’s         reviews which incorporate the use of
veterans. The CAP provides recurring cyclical          standardized survey instruments to evaluate the
oversight of VA medical facility operations,           quality of care provided in VA healthcare
focusing on the quality, efficiency, and               facilities. These facilities are evaluated to
effectiveness of service provided to veterans.         determine the extent to which they are
                                                       contributing to VHA's ability to accomplish its
The CAP combines the skills and abilities of the       mission of providing high quality healthcare,
OIG’s major components to provide                      improved patient access to care, and high patient
collaborative assessments of VA medical                satisfaction.
facilities. The OIG team consists of
representatives from the Offices of
Investigations, Audit, and Healthcare
Inspections. They provide an independent and
objective assessment of key operations and
programs at VAMCs on a cyclical basis.
                                                                         CAP team
Special agents from the Office of Investigations            [photo not available electronically]
conduct fraud and integrity awareness briefings.
The purpose of these briefings is to provide key
staff of the VAMC with insight into the types of
fraudulent activities that can occur in VA
programs. The briefings include an overview
                                                                   A VA OIG CAP Team
and case-specific examples of fraud affecting
healthcare procurements, false claims, conflict
                                                       The following is a summary of the four CAP
of interest, bribery, and illegal gratuities.
                                                       reports completed this period. It includes
Special agents also investigate certain matters
                                                       highlights of our activities and areas that we
which have been referred to the OIG by VA
                                                       identified as vulnerable and in need of greater
employees, members of Congress, veterans, and
                                                       management attention.
others.

Auditors from the Office of Audit conduct a            VAMC St. Louis
limited review to ensure that management
controls are in place and working effectively.         The OIG conducted a CAP review at VAMC St.
Auditors assess key areas of concern which are         Louis, June 7 - 11, 1999. The following is a
derived from a concentrated and continuing             summary of the review.
analysis of VHA, VISN, and VAMC databases
and management information. These areas may            Quality Program Assistance Review - The QPA
include patient management, credentialing and          identified areas of concern that affected the
                                                       quality of patient care. The report discusses




                                                   7
Combined Assessment Program

radiology service’s management, quality of              Management Control Issues - The management
films, and resident physician time and                  control review identified opportunities to
attendance; nurse staffing shortages; patient           improve operations by implementing
privacy; employee and patient safety; waiting           unannounced narcotics inspection procedures,
times; rewards and recognition practices;               improving drug destruction procedures and
employee morale; and environmental concerns.            pharmacy security, improving surgeon
                                                        productivity, increasing staff assigned to
Management Control Issues - We identified a             decision support system implementation,
number of management control issues that                increasing controls over usage of Government
needed to be strengthened. The report discussed         purchase cards, part-time physician timekeeping
opportunities for improvement in the facility’s         procedures, and obtaining patients’ agreements
ambulance contract, fee-basis procedures,               to pay copayments.
purchase card management, and use of
Government vehicles.                                    Fraud and Integrity Awareness Briefings - Six
                                                        briefings were conducted for over 130 VA
Office of Investigations Fraud and Integrity            employees that discussed the recognition of
Awareness Briefings - Four briefings were               fraudulent situations, referrals to the Office of
conducted while on-site. Investigators briefed          Investigations, and the type of information
staff on ways to recognize fraudulent situations,       needed in making a complaint or referral.
and discussed the procedures and details needed
for sending referrals to the OIG Office of              The review also evaluated 10 issues/allegations
Investigations.                                         referred to the OIG Hotline. We made a series
                                                        of observations and recommendations that we
We made a number of observations and                    believe warrant management attention. The
recommendations that warranted management               Medical Center Director provided acceptable
attention. (CAP Review, Department of                   comments to all recommendations. (CAP
Veterans Affairs Medical Center, St. Louis, MO,         Review, Edward Hines, Jr. VA Hospital, Hines,
99-00695-8, 10/28/99)                                   IL, 99-0173-18, 11/22/99)

Edward Hines, Jr. VA Hospital                           VAMC Philadelphia

The OIG conducted a CAP review at the Edward            The OIG conducted a CAP review at VAMC
Hines, Jr. VA Hospital, July 12 - 16, 1999. The         Philadelphia, from September 20 - 24, 1999.
following is a summary of the review.                   The following is a summary of the review.

Quality Program Assistance Review - The QPA             Quality Program Assessment - This medical care
identified several issues that required                 review identified several issues that required
management attention, including adjusting               management attention to ensure high quality
staffing levels of nursing service employees            patient care. These include timeliness of
assigned to patient care, assessing the                 services, improving the facility environment,
professional mix of primary care providers,             employee education and staffing issues,
assessing the closure of the radiology section in       ambulatory care services, patient and employee
the ambulatory care center, reducing the waiting        concerns, and quality assurance.
times for patients receiving prescriptions, and
evaluating management’s use of available                Management Control Issues - We identified
awards to its employees.                                opportunities to improve management of funds,




                                                    8
                                                                  Combined Assessment Program

strengthen controls over assets and expenditures,       attention to ensure high quality patient care.
reduce costs, increase revenues, improve clinic         These issues include: the quality and
utilization, and enhance patient care services.         documentation of inpatient treatment goals and
                                                        discharge plans; management and oversight of
Fraud and Integrity Awareness Briefings and             the domiciliary program; implementation of a
Hotline Allegations – These briefings discussed         structured and therapeutic post traumatic stress
issues concerning the recognition of fraudulent         disorder program to effectively reduce the
situations, referral of issues to the Office of         anxiety and address the dissatisfaction of
Investigations, and the type of information             patients; and monitoring of intermittent staffing
needed to make a complaint referral.                    shortfalls and filling of vacant physician and
                                                        nursing positions.
We made a series of observations and
recommendations that we believe warrant                 Management Control Issues – Overall, the
management attention. The Director generally            medical center maintained an effective system of
agreed to address the areas of concern and              financial management controls. For most
provided specific plans for corrective action.          controls tested, we identified only minor
(CAP Review, VAMC Philadelphia, PA, 99-                 deficiencies. Areas reviewed which require
00161-24, 12/30/99)                                     greater management attention include reducing
                                                        excess inventory costs of medical supplies,
                                                        reducing the lag time for billing third-party
“I just finished reading the CAP on                     insurers, and improving the documentation of
Philadelphia. I think it was well done and              means tests. We also concluded management
will strengthen our facilities to have this             needed to address employees’ concerns and
kind of feedback. I am sure that during                 perceptions about the quality of patient care, the
the process it seems like a lot of work,                work environment, and personnel management
but looking back, I think our facilities will           practices in order to enhance morale.
recognize the value. I’m sure you get
lots of positive feedback but just wanted               Fraud and Integrity Awareness Briefings and
to say good job.”                                       Hotline Allegations – Medical center staff were
                                                        briefed on recognition of fraudulent situations,
        Acting Under Secretary for Health               referral of issues to the Office of Investigations,
                                                        and the type of information needed to make a
                                                        complaint referral. An administrative
Carl Vinson VAMC Dublin Review
                                                        investigation concluded that Hotline allegations
                                                        referred to the OIG were not substantiated. The
The OIG conducted a CAP review at the Carl              results of that investigation will be addressed in
Vinson VAMC Dublin, November 15 - 19,                   a separate report.
1999. The following is a summary of the
review.                                                 We made a number of observations and
                                                        recommendations that warranted management
Quality Program Assistance Review – While we            attention. The Medical Center Director
found the medical center had a comprehensive            concurred with the recommendations and
quality management program in place, we                 provided acceptable implementation plans.
identified some opportunities to further enhance        (CAP Review, Carl Vinson VAMC, Dublin, GA,
its effectiveness. We also identified several           00-00358-69, 3/20/00)
issues that required increased management




                                                    9
Combined Assessment Program




                              10
OFFICE OF INVESTIGATIONS
Mission Statement                                        Resources
    Conduct investigations of criminal                   The Office of Investigations has 102 FTE
    activities and administrative matters                allocated to the following areas.
    affecting the programs and operations of
    VA in an independent and objective
    manner, and assist the Department in
    detecting and preventing fraud and other                  
    violations.                                                 
                                                                

The Office of Investigations is responsible for
conducting criminal and administrative
investigations affecting the programs and
operations of VA. The office consists of three                                               
divisions.                                                                                     	

                                                                                 
I. Criminal Investigations Division - The                                          

Division is primarily responsible for conducting
investigations into allegations of criminal
activities related to the programs and operations
of VA. Criminal violations are referred to the
Department of Justice for prosecution. The               I. CRIMINAL
Division is also responsible for operation of the
forensic document laboratory.                            INVESTIGATIONS
II. Administrative Investigations Division - The
                                                         DIVISION
Division is responsible for investigating
allegations, generally against high-ranking VA           Mission Statement
officials, concerning misconduct and other
matters of interest to the Congress and the                  Conduct investigations of criminal
Department.                                                  activities affecting the programs and
                                                             operations of VA in an independent and
III. Analysis and Oversight Division - The                   objective manner, and assist the
Division is responsible for the oversight                    Department in detecting and preventing
responsibilities of all Office of Investigations             fraud and other criminal violations.
operations through a detailed, recurring
inspection program. The Division is the primary          Resources
point of contact for law enforcement
communications through the National Crime                The Criminal Investigations Division has 84
Information Center, the National Law                     FTE for its headquarters and 19 field locations.
Enforcement Telecommunications System, and               These individuals are deployed in the following
the Financial Crimes Criminal Enforcement                program areas:
Network.




                                                    11
Office of Investigations

                                                          Customer Satisfaction
                                                          • Customer satisfaction survey forms were
                                                       provided to each prosecutor upon referral of an
                            	                           investigation for criminal prosecution. All
                                                          ratings received exceeded 4.0 and averaged 4.5
                                                          out of a possible 5.0 (5.0 means highly satisfied
                                                          and 1.0 means dissatisfied).
                               

                                	
                                                          Following are summaries of some of the
                                                          investigations conducted during the reporting
                                                          period by VA component. We discuss VHA,
                                                          VBA, Board of Veterans Appeals, Office of
                                                          Human Resources and Administration, and
                                                          NCA. This is followed by the OIG forensic
Overall Performance                                       document laboratory summary.

Output
• 229 investigations were concluded during                Veterans Health
the reporting period. The performance goals for
output were met.                                          Administration
Outcome
• Arrests - 164                                           Fraud and other criminal activities committed
• Indictments - 124                                       against VHA include actions such as patient
                                                          abuse, theft of Government property, drug
• Convictions - 125
                                                          diversion, bribery/kickback activities by
• Monetary benefits - $14.3 million
                                                          employees and contractors, false billings, and
• Administrative sanctions - 263                          inferior products.
Cost Effectiveness                                        The Criminal Investigations Division
• The average cost of conducting the 229                  investigates those instances of criminal activity
closed investigations was $5,190. Each                    against VHA that have the greatest impact and
investigation averaged a return of $62,676,               deterrent value. Working closely with VA police
resulting in approximately $12 returned for               the office has placed an increased emphasis on
every $1 spent.                                           crimes occurring at VA facilities throughout the
                                                          nation to help ensure safety and security for
Timeliness                                                those working in or visiting VA medical centers.
• Average work days from receipt of
allegation to initiation of investigation averages
                                                          Employee Integrity
39 days against a goal of 30 days.
• Average work days from initiation of
investigation to referral to an assistant U.S.            Theft/Diversion of Pharmaceuticals
attorney was 186 days versus our goal of 180
days.                                                     • A VAMC pharmacist pleaded guilty in state
                                                          court to four counts of procurement by
                                                          misrepresentation and was sentenced to four




                                                     12
                                                                               Office of Investigations

consecutive 1-year probationary terms, and was            of the drug for her own use, and replacing the
ordered to continue a drug rehabilitation                 missing quantity with water in order to hide the
program. A joint investigation by VA OIG, the             diversion.
U.S. Drug Enforcement Administration (DEA),
VA police, and local police disclosed the                 • A former VAMC pharmacist was sentenced
individual stole oxycodone (a generic form of             to 2 months’ home detention, 3 years’ probation,
Percocet) tablets, and two liquid syrup narcotic          restitution of $1,000, and a fine of $5,000. The
medications containing the controlled substance           sentencing was the result of a joint investigation
hydrocodone from the VA pharmacy.                         by VA OIG and a state board of pharmacy,
Investigation further disclosed that he replaced          which disclosed the individual stole more than
the stolen controlled substances with non-                $4,500 worth of prescription pharmaceuticals
controlled substances. In a previous                      from the VAMC, then sold them at a discounted
administrative action against the individual, he          price to another individual who owned and
entered into a settlement agreement with the              operated a private pharmacy. The private
VAMC where he agreed to voluntarily take a                pharmacist knew the drugs had been taken from
change to a lower grade GS-5 medical clerk                VA, but continued to sell the stolen
position, from his GS-12 pharmacist position.             pharmaceuticals in his pharmacy at the standard
                                                          retail markup rate. The private pharmacist
• A VAMC employee was arrested by the VA                  previously entered a guilty plea to charges of
OIG, Federal Bureau of Investigation (FBI), and           receipt of stolen Government property and his
local police on charges of theft of Government            sentencing is pending. The VA pharmacist
property and drug diversion. Pursuant to the              resigned from his VA position during the course
arrest, search warrants were executed on the              of this investigation.
individual’s home, office, and a storage shed,
where property was found that was identified as           • A VAMC registered nurse was suspended
belonging to the VAMC. The VA items found                 from employment after she admitted to the
included computers, computer equipment, video             diversion of controlled pharmaceuticals for
cameras, and video cassette players. The                  personal use. A joint investigation by VA OIG
individual, who was in charge of the disposal of          and VA police disclosed the individual altered
excessed drugs at the VAMC, also was found to             narcotics administration forms to show she
be in possession of approximately 75 separate             administered medications to patients who, in
prescription drug items (bottles of pills, blister        actuality, had been transferred off the ward or
packs, tubes, etc.), which he was not supposed to         who had not been prescribed the medication.
have removed from the VAMC. Many of the
items still bore the original prescription label          • A VAMC registered nurse admitted during
from the VAMC patients for whom they were                 the course of a joint investigation by VA OIG,
originally intended. Approximately 1,000                  DEA, and VA police to having diverted
videotapes were also seized, leading to                   controlled pharmaceuticals from VAMC
allegations of possible involvement in child              supplies for personal use. The individual was
pornography. The investigation is continuing.             terminated from VA employment pursuant to the
                                                          investigation and agreed to enter a drug
• A VAMC registered nurse was arrested on                 rehabilitation program.
charges that she diverted narcotics from the
VAMC. A joint investigation by VA OIG and                 • A VAMC certified registered nurse
VA police disclosed the nurse tampered with               anesthetist admitted to the diversion of
bottles of liquid morphine, diverting quantities          controlled pharmaceuticals for personal use. As




                                                     13
Office of Investigations

a result of the admission and pursuant joint VA          • A VAMC motor vehicle operator was
OIG, DEA, and VA police investigation, the               arrested on charges of loitering and possession
individual was terminated from employment at             with intent to distribute a controlled substance.
the VAMC, and his state nurse anesthetist                A joint investigation by the VA OIG, U.S.
license was placed on probationary status for a          Housing and Urban Development (HUD) OIG,
5-year period. Judicial pursuit of this matter           and local police disclosed the individual used a
continues.                                               Government vehicle and traveled off VA
                                                         property to a public housing development where
• A VAMC medical clerk was charged in a                  he allegedly purchased illicit drugs.
felony criminal complaint with obtaining a
controlled substance by misrepresentation. The           • An individual surrendered to authorities and
individual was subsequently arrested by VA               was placed under arrest pursuant to an
OIG special agents and admitted to stealing pre-         outstanding arrest warrant. A joint investigation
signed prescription forms that he completed and          by special agents of the VA OIG and the Food
had filled at the VAMC pharmacy.                         and Drug Administration (FDA), and local
                                                         police, disclosed the individual had been
• A VAMC registered nurse was suspended                  involved in a conspiracy to purchase
from employment without pay for a period of 2            pharmaceutical drugs that were either stolen or
weeks; was removed from duties as charge nurse           diverted from VA pharmacies. The elaborate
at the acute care unit in the VA and reassigned          scheme targeted drugs which could be obtained
to other duties; was reduced one pay grade; and          far below wholesale market price from
was directed to enter the VA employee                    unlicensed pharmaceutical brokers involved in
assistance program. These disciplinary actions           reintroducing diverted and stolen drugs into the
are the result of a joint investigation by VA OIG        market through independently owned
and VA police, which disclosed the individual            pharmacies. Investigation showed that drugs
allegedly stole drugs from the unit where he             issued to beneficiaries of Government sponsored
worked and falsified records to conceal his              healthcare programs were also targeted by the
thefts.                                                  brokers and owners of the pharmacies involved
                                                         in the scheme. The investigation continues.
Possession/Sale of Illegal Drugs
                                                         • A VAMC compensated work therapy
• A former VAMC housekeeping aide pleaded                employee was arrested on charges of theft of
guilty to one count of possession of crack               Government property and distribution of illicit
cocaine, and a former VAMC dental clerk was              drugs on VA property. During the course of a
sentenced to 2 years’ supervised probation. A            joint investigation by the VA OIG, DEA, and
joint VA OIG and FBI undercover investigation            VA police, the individual sold to an undercover
disclosed the former housekeeping aide, the              VA agent 11 computers and 5 laser-jet printers
former dental clerk, along with two additional           that he had stolen from the VAMC. In addition,
individuals employed as VAMC food service                the individual sold the undercover agent more
workers sold cocaine and marijuana on VAMC               than 100 grams of crack-cocaine. Subsequent
grounds. The housekeeping aide was arrested              searches of the individual’s home and vehicle
along with one of the food service workers after         disclosed additional computers and computer
selling crack-cocaine on several occasions to a          related equipment belonging to the VAMC.
VA OIG informant. The dental clerk had
previously been arrested on charges of selling
controlled substances to a cooperating witness.




                                                    14
                                                                              Office of Investigations

Theft and Embezzlement                                   insurance benefits. The individual resigned
                                                         from his position while under investigation.
• A former VA agent cashier was sentenced to
5 months’ imprisonment, 5 months’ home                   This is some of the Government property
confinement, 3 years’ supervised release, and            recovered during the execution of a search
was ordered to pay $47,816 restitution to the            warrant by VA OIG special agents as part of an
Government. The sentencing was the result of a           investigation of thefts of building supplies and
VA OIG investigation which disclosed the                 materials from a VA Medical Center. The
individual, over a period of 4 years, stole more         investigation continues.
than $40,000 in cash co-payments made by
veteran patients, converting the funds to her
personal use instead of depositing the funds into
a VA account as required.

• A VAMC registered nurse was charged in a
multi-count criminal complaint with elderly/
dependant abuse and grand theft. The charges
were the result of a VA OIG investigation,
which disclosed the individual solicited money
from VA spinal cord injury patients and kept it
for her own use. It is alleged the nurse received                         daltile photo
more than $3,000 from patients.
                                                               [photo not available electronically]
• A former VAMC housekeeper was indicted
on charges of theft of Government property. A
joint investigation by VA OIG and VA police
disclosed the individual had stolen computers
and environmental maintenance equipment from
the VA facility. Investigation further
determined the individual was involved in a
series of thefts amounting to a VA loss of over
$53,000.                                                 • A former VA counseling psychologist was
                                                         sentenced to 4 months' home confinement, 3
• A former police officer at a VA medical and            years' probation, and $67,000 restitution. The
regional office center pleaded guilty to one             sentence was in response to his earlier guilty
count of making false statements after having            plea to charges he concocted a scheme to
been arrested and indicted on charges of theft of        defraud VA by submitting phony invoices for
Government property. A joint investigation by            computer equipment, ostensibly ordered for
VA OIG, Defense Criminal Investigative                   veterans who were participants in a vocational
Service (DCIS), and VA police disclosed the              rehabilitation program. A joint investigation by
individual stole VA equipment and supplies,              VA OIG and the FBI disclosed the psychologist,
including a police radio. The former officer also        working in conspiracy with the owner of a
falsely claimed that his girlfriend was his wife         private computer company, approved the false
on official personnel documents in order for her         invoices for payment, but never delivered the
to fraudulently obtain Government health                 computers to the veterans. Investigation showed
                                                         no computers were delivered and the




                                                    15
Office of Investigations

psychologist received more than $50,000 from             • A former VAMC chief of staff pleaded
the conspirator for taking part in the scheme.           guilty to a criminal information charging him
Losses to the Government were in excess of               with one count of conflict of interest. The plea
$67,000.                                                 agreement was the result of a joint investigation
                                                         by the VA OIG and FBI, which disclosed the
Acceptance of Bribes, Gratuities,                        individual approved a contract for services
Conflicts of Interest                                    between the VAMC and an affiliated university
                                                         medical center, where he was also employed as a
• A former VAMC decedent affairs clerk                   physician. A sentencing date is pending.
pleaded guilty to one count of receiving
compensation relating to a contract in which the         • A VAMC director of facilities management
Government had a substantial interest. The               was reprimanded for creating the appearance of
individual, in the course of his duties, was             a conflict of interest while employed as the chief
responsible for awarding contracts to funeral            of engineering service. A joint investigation by
homes for the burials of deceased veterans who           the VA OIG, FBI, and Small Business
had no immediate family and had become wards             Administration disclosed the individual hired
of VA. During the course of a joint                      two SBA 8a contractors to perform work on his
investigation by VA OIG, Internal Revenue                house while they were under contract to perform
Service (IRS) Criminal Investigations Division,          VAMC work. Investigation further disclosed
and the Department of Labor (DOL), the                   the construction company had been awarded
individual admitted having accepted money                millions of dollars in contracts over a period of
from the owner of a local funeral home in return         15 years, many of them at a VAMC. It was
for awarding the funeral home VA business.               found the construction company defrauded
The individual admitted in court to having               Federal agencies on construction contracts. It
accepted $40 to $50 for each referral to this            was also revealed the company submitted false
funeral home during a 2-year period.                     bid information in order to obtain VAMC
                                                         contracts without competitive bidding under the
• A former VAMC director of respiratory care             auspices of the small business program.
was sentenced to 5 months in prison, and 7               Subsequent to these findings, the president and
months' home confinement. The sentencing was             vice president of the construction company were
the result of an investigation by VA OIG and             each sentenced to 6 months’ home detention, 3
VA police which disclosed the individual                 years’ probation, 200 hours’ community service,
received gratuities from companies that                  $315,000 in restitution, and a $10,000 fine.
conducted business with VA and filed false
travel vouchers, resulting in his wrongfully             Workers’ Compensation Benefits Fraud
receiving more than $12,000. The individual
had previously pleaded guilty to one count of            • A former VAMC nurse pleaded guilty to a
soliciting and receiving illegal gratuities after        one count criminal information charging her
admitting to having received from a VA vendor            with making a false statement to obtain Federal
a desktop computer and a laser printer for               workers’ compensation, and was subsequently
personal use in exchange for the VA's purchase           sentenced to 5 months’ imprisonment, 5 months’
of equipment from that vendor. The individual            home detention with electronic monitoring, 3
resigned from the VAMC.                                  years’ probation, and $10,000 restitution. A
                                                         joint VA OIG and DOL OIG investigation
                                                         disclosed the nurse indicated on DOL forms that
                                                         she owned a share of a home health care




                                                    16
                                                                              Office of Investigations

business as an investment, but asserted that she         • A criminal information was filed, charging a
only had a limited role in the business and was          VAMC environmental management service
physically unable to do any work for which she           employee with theft of Government property.
would be paid. During this time, she received            During the course of his regular duties, the
approximately $223,000 in workers’                       individual was tasked with using a Government-
compensation benefits for a job-related injury.          issued credit card to purchase supplies for the
Investigation showed, however, the nurse                 VAMC. Investigation disclosed, however, he
actually was performing services for which she           engaged in a scheme where he would return
was being paid, including providing services as          items he had purchased to various vendors,
a nurse.                                                 directing them to send refund checks directly to
                                                         his home rather than to his VAMC office. Six
• A former VA medical and regional office                refund checks were sent to the individual’s home
center licensed practical nurse, and her husband,        by vendors and the total theft amounted to more
were both charged with one count of making               than $2,000.
false statements to obtain workers’
compensation benefits and aiding and abetting.           • A criminal indictment was filed in state
A joint VA OIG and DOL investigation                     court, charging a VAMC medical administration
disclosed that, while receiving workers’                 service clerk with larceny, theft of a
compensation benefits for an on-the-job injury,          Government credit card, and unauthorized use of
the former nurse failed to disclose her                  a credit card. During the course of his assigned
involvement in her husband’s siding and                  VA duties, the individual was authorized to use
windows business.                                        a Government vehicle and to use a Government
                                                         credit card to purchase gas and services related
Credit Card Fraud                                        to the use of that vehicle. A joint VA OIG and
                                                         VA police investigation disclosed, however, the
• An individual was sentenced in local court             individual misused the Government credit card,
to 364 days’ incarceration and 5 years’ probation        making unauthorized purchases totaling more
after a VA OIG investigation disclosed the               than $8,000.
individual and an accomplice used Government
credit cards stolen from a VAMC to purchase              • A former VAMC supervisory respiratory
almost $10,000 in merchandise. The two                   therapist pleaded guilty to a criminal
individuals previously had pleaded guilty to             information charging him with theft of
using stolen credit cards. The accomplice was            Government funds. The guilty plea was the
previously placed in a pre-trial diversion               result of a joint VA OIG and VA police
program. The two individuals advised during              investigation which disclosed that, over an 8-
the course of the investigation that a former VA         month period, the individual used a Government
employee provided them with the stolen                   credit card to purchase more than $4,900 worth
Government credit cards. The former employee             of items for personal use. The individual
removed the credit cards from a safe, gave them          resigned from VA after receiving a notice of
to the two individuals, and then intercepted the         proposed removal.
credit card invoices to conceal their fraudulent
use. The former employee was fired from her              Patient Abuse
position under separate circumstances, and
charges are pending for her role in the thefts.          • A VA registered nurse was arrested for
                                                         abusing a patient. A criminal information was
                                                         filed charging the individual with one count of




                                                    17
Office of Investigations

abusive sexual contact after a VA OIG                      service connected disability and had filed suit
investigation disclosed the nurse assaulted a              against VA for $2.3 million in damages due to
number of VAMC patients in his care over a                 an incident where he had blood drawn by a
course of more than 3 years.                               VAMC nurse and claimed it caused him to
                                                           sustain nerve damage. After sustaining the
• A former VAMC dialysis unit nurse pleaded                alleged injury, the individual claimed he could
guilty in a state court to charges of abuse/neglect        not function mentally, was unable to watch
of the elderly. The plea was the result of                 television or leave his home during daylight
charges filed against the nurse during the course          hours due to the psychological effects associated
of a joint investigation by VA OIG and local               with his trauma. He also had threatened to file a
police. Investigation disclosed the former nurse,          separate suit against VA for malpractice due to
in the course of connecting a disabled veteran to          the alleged injuries. Investigation disclosed that
a dialysis machine, left the patient unattended            alleged disabilities were unfounded as the
for a period of time while she attended to                 individual was able to operate a vehicle, pump
personal business. When she returned to the                gasoline, carry items with his injured arm, use
veteran patient, she discovered the dialysis               his injured arm to open doors, and watch
machine had not been properly connected and                television. Due to the investigative efforts put
the veteran patient had lost a great quantity of           forth in the case, the Government was spared the
blood. She made attempts to conceal the blood              expense of defending the $2.3 million lawsuit
loss and delayed calling medical personnel in to           and the potential malpractice suit as threatened
aid the veteran patient. When medical personnel            by the individual.
did arrive to render aid, she failed to inform
them of what had occurred. The former                      • A former VAMC program assistant was
employee’s plea agreement stipulates she                   arraigned after being indicted on charges of
receive 10 years probation and agree to                    making false statements on a loan application to
surrender her nursing license.                             a federally insured financial institution and fraud
                                                           in connection with misuse of a Social Security
• A former VAMC doctor entered a “no                       number. A VA OIG investigation disclosed the
contest” plea in court to three counts of battery.         individual used her position at the VAMC to
A joint VA OIG and VA police investigation                 access personal employee information. After
disclosed that, while employed by VA, the                  locating an employee with the same name, she
doctor fondled multiple patients in his care,              proceeded to use that employee’s Social
under the premise of conducting medical exams.             Security number and date of birth to make a
The doctor was sentenced to 3 year’ probation,             false statement on a loan application submitted
ordered to undergo counseling, and was                     to a federally insured financial institution in an
prohibited from practicing medicine during                 attempt to purchase an automobile, cellular
probation.                                                 telephone, and other consumer items.

Other Employee Misconduct                                  • A VAMC environmental management
                                                           service employee was arrested and subsequently
• A VAMC employee has made a monetary                      indicted by a grand jury on charges of
settlement agreement with VA for $100,000 and              conducting a fraudulent scheme. A joint
has agreed not to file any malpractice suits               investigation by VA OIG and VA police
against VA. These agreements are the result of             disclosed the individual was involved in a
a VA OIG investigation, which disclosed the                scheme where he stole patient identifying
individual was wrongfully claiming 100 percent             information, which he provided to an employee




                                                      18
                                                                             Office of Investigations

of a wireless telephone company. The telephone          relationship. From 1991 through 1997, as the
company employee used the patient information           primary care provider for the patient, the
to create new wireless phone accounts in                physician prescribed opiates to relieve pain,
patient’s names and then had the VA employee            failing to properly document the prescriptions.
sell the wireless phones. Some of the wireless          Judicial action is pending.
telephones were sold to VAMC employees.
                                                        • A VAMC nursing assistant retired from her
• A former VAMC medical instruments                     position after being arrested and indicted on
technician was sentenced to 100 hours’                  charges of submitting false statements in order
community service and 2 years’ probation after          to qualify for HUD subsidized housing. A joint
being charged with making false statements. A           VA OIG and HUD OIG investigation disclosed
VA OIG investigation disclosed the individual,          the nursing assistant underreported her VA
who was responsible for maintaining dialysis            salary to HUD, and forged the signature of the
equipment and water quality testing at the              VAMC chief of human resources on documents
VAMC, falsified at least 15 water quality test          to HUD certifying this false income, in order to
reports for the dialysis unit which were                receive federally subsidized housing. The false
submitted to the Joint Commission on                    statements submitted allowed her to avoid about
Accreditation of Healthcare Organizations.              $10,000 in fair-market rent payments.
When the falsified results were discovered, the
VAMC was placed in a preliminary non-                   • A former VAMC occupational therapist was
accredited status with the Commission.                  sentenced to 21 months' imprisonment, 36
                                                        months' supervised release, and $4,800 in
• A former VAMC research service                        restitution. A non-VA employee, also involved
administrative officer was sentenced to 48              in the case, was sentenced to 18 months'
months’ probation and ordered to pay $6,499 in          imprisonment, 36 months' supervised probation,
restitution to VA. The individual previously had        and $4,800 in restitution. The sentencings were
pleaded guilty to charges of theft of Government        the result of a joint investigation by VA OIG,
funds after a VA OIG investigation disclosed he         U.S. Postal Inspection Service, and U.S. Secret
submitted false information on travel vouchers          Service (USSS) which disclosed the former VA
while on a temporary assignment. Investigation          employee and the other individual misused
found he submitted travel vouchers to claim             Government-owned computers and telephones
reimbursement for temporary quarters, but               in furtherance of an Internet scam. Investigation
continued to occupy the quarters after the              disclosed the two individuals accepted money
temporary period and made them his permanent            for items they sold on the Internet, but did not
residence. Had the VAMC been aware he                   provide the product to the buyers. It was found
intended to reside permanently in the same              the individuals received approximately $40,000
quarters he claimed as temporary, they would            from this illicit scam. These individuals
not have paid his claims. The individual                previously pleaded guilty to one count of
resigned from VA subsequent to the                      conspiracy to commit mail fraud and wire fraud.
investigation.
                                                        • A former VA compensated work therapy
• A VAMC staff physician was discharged                 program employee was sentenced to 57 months’
from employment for failing to properly                 imprisonment for the reproduction and
administer and document narcotic medication             possession of child pornography on Federal
prescriptions provided to a female patient under        property. He previously had been arrested by
his care, with whom he was having a                     VA OIG special agents after a bench warrant




                                                   19
Office of Investigations

was issued for failure to appear for his scheduled        commission of the acts, which led to this second
sentencing on the charges relating to the                 arrest.
reproduction and possession of child
pornography on Government property. A joint               • A VAMC clothing room clerk was arrested
VA OIG and VA police investigation disclosed              and charged with theft after a VA OIG
the individual accessed shared public computers           investigation into a series of thefts of patient
in the VAMC library and used them to                      property at the VAMC. At the time of his arrest,
reproduce and store approximately 16 images of            he was leaving the VAMC and was found to be in
child pornography.                                        possession of currency and other property that had
                                                          been in his care in the clothing room. He also was
Theft of Other Property                                   found to be carrying a bag of new clothing, which
                                                          he admitted having stolen from items donated by
• An individual was arrested and subsequently             veterans’ service organizations for indigent
indicted after a criminal complaint was filed             patients at the VAMC. Judicial actions are
charging her with one count of negotiating a              pending.
stolen Government check. A joint investigation
by VA OIG and USSS disclosed the individual               Credit Card Theft
and a co-conspirator stole and negotiated a U.S.
Treasury check totaling more than $100,000.               A former credit collection clerk at a major
Investigation further determined the individual           medical supply firm that did business with VA
and co-conspirator may have been involved in a            was arrested, and subsequently pleaded guilty to
large-scale credit card fraud scheme. The                 a one count criminal information charging him
investigation continues.                                  with unauthorized use of a Government credit
                                                          card. A VA OIG investigation disclosed the
• An individual was arrested and charged with             individual had access to sensitive credit card
trespassing and removal of Government property            information pertaining to Government accounts,
without authorization. A joint investigation by           corporate accounts and private accounts due to
VA OIG and VA police disclosed the individual,            his duties and responsibilities at the company.
an employee of a contractor doing work at the             The individual used his access to the sensitive
VAMC, stole electronic audio dubbing                      information to compromise a Government credit
equipment belonging to the Government. The                card account number and made unauthorized
individual used the equipment to trade for illegal        transactions with the card, including the
drugs. During the course of the investigation,            purchase of a computer that was delivered to an
the property was recovered.                               out of state address before it was forwarded to
                                                          the individual’s residence.
• An individual was arrested on charges of
burglary and criminal conspiracy after being              Assault and Threats to VA
identified as the accomplice of an individual             Employees
who had previously been arrested on charges of
theft from a VA outpatient center. During the             • A criminal information was filed charging a
course of a joint investigation by VA OIG, VA             former VAMC radiology employee with making
police, and local police, the individual who was          death threats to various VA employees with
previously arrested, and is currently awaiting            whom she had previously worked. A joint VA
trial, disclosed he had broken into the outpatient        OIG and FBI investigation disclosed the
center and had stolen computers. He later                 individual, who had been terminated from VA
admitted he had an accomplice during the




                                                     20
                                                                                Office of Investigations

employment for assaults on fellow employees,              renovations at a VAMC. The Department of the
called the VAMC and left several threatening              Army, who also was defrauded by the
voice mail messages indicating she wanted to              construction company, and the General
kill her supervisor and other VA employees.               Accounting Office have both debarred the
                                                          construction company and its former president for
• An individual was found guilty of assaulting            an indefinite period of time. These agencies have
a doctor at a VAMC and was ordered to undergo             also proposed debarment for a number of
a psychological evaluation. He previously had             individual laborers and mechanics employed by
been arrested by VA OIG special agents after              the construction company and the nine
investigation disclosed he had become violent             subcontractors, due to labor standards violations.
while seeking treatment in the VAMC
emergency room and assaulted his treating                 • The final of four individuals was sentenced
physician. Two VA physicians who witnessed                to 6 months home confinement, 5 years
the incident testified in court as to the violence        supervised release, and ordered to pay $500,000
of his actions. The individual also threatened            restitution after having been found guilty on
one of the doctors testifying in court during a           charges of contract fraud. The sentencing was
break in the proceedings. Sentencing is pending.          the result of a joint investigation by VA OIG,
                                                          DOL OIG, and FBI which disclosed the four
Armed Robbery                                             individuals, who were employed by two
                                                          companies that had contracted to perform a $7.8
An individual, previously employed by a credit            million VAMC renovation project, falsified
union located at a VAMC, was tried and                    payroll and wage statements. Investigation
sentenced to 108 months’ confinement, 3 years’            showed the four individuals would certify on the
supervised release, and restitution of $2,788 for         weekly payroll reports that their employees were
her role in a robbery of the credit union. The            being paid the Federal prevailing wage.
credit union, a tenant at the VAMC, was robbed            Actually, these employees were being paid
at gunpoint of $140,000. A joint VA OIG, FBI,             substantially less. The defendants would then
and local police investigation identified the             retain the difference for themselves. Over
former credit union employee as being involved            approximately 3 years the defendants
after evidence recovered at the scene, and                collectively received over $770,000 in
testimony given by an accomplice, implicated              Government payments to which they were not
her. The accomplice, not employed by the credit           entitled. Two individuals in the case, who were
union, previously had pleaded guilty and was              principals of one of the contracting companies,
sentenced for his role in the case.                       were each sentenced to 12 months and 1 day in a
                                                          Federal penitentiary, 3 years’ supervised release,
Construction Related Fraud                                and each was ordered to pay $500,000
                                                          restitution. The fourth individual, president of
• As the result of a VA OIG investigation, a              one of the companies, was sentenced to 14
construction company that had contracted with             months in a Federal penitentiary, 3 years’
VA to perform work on VAMCs has agreed to                 supervised release, and restitution of $500,000.
settle claims filed against them by their                 The two companies were each ordered to pay
subcontractors, for failure to pay prevailing wage        $500,000 in restitution.
rates on VA construction jobs. As a result of the
settlement, more than $190,000 will be released to
nine subcontractors who performed work on




                                                     21
Office of Investigations

Procurement Fraud                                        years’ supervised release. The third individual
                                                         was sentenced to 2 years’ probation, 6 months’
• A medical products company agreed to pay               home confinement, 300 hours of community
the Government $101 million in criminal fines            service, and was ordered to pay a $5,000 fine.
and $385 million in civil fines and penalties for        The final individual was sentenced to 2 years’
fraud involving the filing of fraudulent claims          probation, 200 hours of community service, and
for laboratory and blood testing services. A             was ordered to pay a $10,000 fine.
joint investigation by VA OIG, Health and
Human Services (HHS) OIG, DCIS, and FBI                  Contract Fraud
disclosed a scheme that involved offering and
paying kickbacks to private clinics if they              • The former director of operations of a
referred laboratory and blood testing services of        nursing care facility that contracted with VA to
dialysis patients to a wholly owned subsidiary of        supply nursing-home care to veterans was
the medical products company. The services               sentenced to 140 months’ imprisonment and 3
were paid primarily by Medicare; however, VA             years’ supervised release. The individual’s
paid the laboratory directly over $1 million for         spouse, the former director of maintenance and
laboratory analysis services performed at VA             housekeeping at the facility, was sentenced to 57
medical facilities. It is alleged the laboratory         months’ imprisonment and 3 years’ supervised
charged VA for services not performed and for            release. The two individuals also have to pay
instances of unnecessary testing. Five former            back joint taxes of more than $140,000 and the
officials of the company either have been                costs of the prosecution. The two were
indicted or have pleaded guilty to charges               previously convicted at trial of engaging in
relating to the scheme. The monetary recovery            schemes to defraud Medicaid, income tax fraud,
for both civil and criminal actions relating to          and money laundering. A VA OIG investigation
VA’s portion of the settlement agreement is              disclosed the two contracted with VA to provide
$216,670.                                                patient care at their nursing facilities for patients
                                                         from VAMCs. When billings to VA were
• Four individuals were sentenced for taking             compared with actual dates that patients stayed
part in a conspiracy to import misbranded                at the facilities, it was disclosed the contractors
surgical instruments, some of which were later           charged VA for dates on which no care was
sold to Government agencies, including VA.               provided.
The four individuals conspired to represent that
the instruments were of European origin and              • The owner and president of a company that
falsely labeled the instruments as such, when in         contracted to provide medical products and
actuality, the surgical instruments were                 services to VA was arrested on charges that he
manufactured in Pakistan and smuggled into the           made false statements to the Government by
United States. The Pakistani instruments were            certifying that medical products were made in
shipped through several European countries in            the United States when in fact they were of
order to avoid detection by U.S. Customs and             foreign origin. A joint investigation by VA
the FDA. European manufactured instruments               OIG, DCIS, Army Criminal Investigative
are generally regarded as a better quality               Division, and FBI disclosed the individual
instrument and, therefore, command a higher              directed employees to remove the labels from
price. The first of the four individuals was             products made in non-approved countries and
sentenced to 1 year and 1 day incarceration and          repack the products in plain boxes to avoid
2 years’ supervised release. The second was              detection by U.S. officials.
sentenced to 8 months’ incarceration and 2




                                                    22
                                                                                 Office of Investigations

Forgery                                                    fraudulently obtained a state license to practice
                                                           medicine and then continued practicing
• An individual was arrested and charged with              medicine for almost 20 years. The individual’s
1 count of fraud and 35 counts of forgery. A               scheme defrauded VA health care benefit
VA OIG investigation disclosed the individual, a           programs, Medicare and Medicaid programs,
veteran enrolled in a VA work-study program,               and state medical aid programs of more than
forged the initials of her supervisor in order to          $3.5 million. A trial date is pending.
falsify time records and receive more than
$2,000 in payments to which she was not                    Travel Benefits Fraud
entitled. The individual pleaded guilty to the
charges and was accepted into a pre-prosecution            • An individual who was an outpatient at a
probation program, where she will serve 12                 VAMC was indicted in state court after being
months’ probation and has agreed to make full              arrested on an outstanding state arrest warrant
restitution to VA.                                         charging him with grand theft. A joint
                                                           investigation by VA OIG and VA police
• A criminal complaint was filed charging an               disclosed the individual was receiving travel
individual participating in the VA work-study              benefits to which he was not entitled. The
program with 12 counts each of fraud and                   individual claimed he was living at an address
forgery. A VA OIG investigation disclosed that,            approximately 130 miles from the VAMC in
over the course of 8 months, the individual filed          order to claim travel benefits from that location,
fraudulent time sheets claiming she performed              when in fact he actually lived only 20 miles
approximately 50 hours of work-study that she              from the hospital and was not entitled to the
did not perform. It is further alleged the                 travel benefits. Total loss to VA was more than
individual forged the initials of her supervisor on        $2,000 through the submission of more than 100
each time sheet.                                           fraudulent travel vouchers.

Fee Basis Fraud                                            • An individual was charged in state court
                                                           with a felony charge of grand theft after having
• An individual employed as a registered                   been arrested during the course of a joint
nurse participating in the fee basis program               investigation by VA OIG and VA police, which
associated with a VAMC pleaded guilty to two               disclosed he submitted multiple false travel
counts of submitting false claims to the                   claims to VA. Investigation showed the
Government. The guilty plea was the result of a            individual claimed travel benefits for a commute
joint investigation by VA OIG and the U.S.                 in excess of 280 miles roundtrip, when in reality
Postal Inspection Service, which disclosed the             his commute was a much shorter distance.
nurse fraudulently submitted false invoices for
nursing visits that she did not perform.                   Medical Benefits Fraud
Sentencing is pending.
                                                           • An individual was indicted and charged with
• An individual who had posed as a VA fee-                 six counts of receiving unauthorized medical
basis doctor was indicted on six counts of                 care. The individual, a dishonorably discharged
defrauding health care benefit programs, and one           veteran, wrongfully assumed the identity of an
count of criminal forfeiture. A joint                      eligible veteran in order to receive more than
investigation by VA OIG, FBI, and DCIS                     $39,000 in medical treatments at VA facilities in
disclosed that in 1981 the individual allegedly            eight different states. Additionally, the




                                                      23
Office of Investigations

individual accrued numerous felony warrants
and outstanding financial obligations in the
                                                           Veterans Benefits
name of the innocent veteran, causing the                  Administration
Government to seize the veteran’s 1998 IRS tax
refund. An arrest warrant has been issued for              VBA provides wide-reaching benefits to veterans
the individual.                                            and their dependents including pension and
                                                           compensation payments, home loan guaranty
• An individual was indicted on two counts of              services, and educational opportunities. Each of
making false statements to VA in order to obtain           these benefits programs is subject to fraud by
medical benefits and two counts of using a false           those who wish to take advantage of the system.
Social Security number. A criminal complaint               For example, individuals submit false claims for
previously was filed against the individual after a        service connected disability, third parties steal
VA OIG investigation disclosed he provided false           pension payments issued after the unreported
information to a VAMC in order to obtain a VA              death of the veteran, individuals provide false
patient identification card, which he used to              information so that veterans qualify for VA
fraudulently receive VA health benefits, medical           guaranteed property loans, equity skimmers
treatment, and medication to which he was not              dupe veterans out of their homes, and
entitled. Loss to VA in medical benefits                   educational benefits are obtained under false
provided him was more than $1,700.                         representations. The Office of Investigations
                                                           spends considerable resources in investigating
• An individual was ordered to serve 20 days’              and arresting those who defraud the benefits
confinement and pay $1,374 restitution to VA               operations of VA.
after a VA OIG investigation disclosed he had
assumed a deceased veteran’s identity in order to          Loan Guaranty Program Fraud
receive VA medical services to which he was
not entitled.                                              Employee Misconduct
• An individual was indicted by a Federal                  A former VA loan guaranty representative was
grand jury and charged with theft of                       sentenced to 4 months’ home confinement, 36
Government services and false statements. The              months’ supervised probation, and restitution in
charges were the result of a VA OIG                        the amount of $3,670. The individual previously
investigation which disclosed the individual               had pleaded guilty to one count of
wrongfully used the identity of his brother, a             embezzlement after a VA OIG investigation
veteran, to fraudulently obtain medical care from          disclosed he embezzled funds he had obtained
several VAMCs. As a result, the individual                 from veterans while performing his official
received more than $120,000 in medical care to             duties. The individual was assigned to a
which he was not entitled.                                 program designed to help veterans who were
                                                           having trouble making payments on VA-
                                                           guaranteed home loans. Veterans who sought
                                                           the individual’s assistance concerning defaulted
                                                           mortgages would be advised to send him money,
                                                           which he allegedly would apply to their loans.
                                                           The individual then wrongfully converted the
                                                           money he received from veterans to his own use.




                                                      24
                                                                                Office of Investigations

The total amount of the embezzlement was more              basis for his loan approval. The subsequent
than $4,000.                                               default and foreclosure resulted in a loss to VA
                                                           of $33,100.
Loan Origination Fraud
                                                           Equity Skimming
• A joint investigation by VA OIG, U.S. Postal
Inspection Service, and HUD OIG resulted in the            • An individual was found guilty at trial on
arrest of four individuals on charges they                 charges of making false statements and
engaged in a loan origination fraud scheme for             bankruptcy fraud. This individual functioned as
properties with loans being guaranteed by VA               principal officer, agent, partner, and employee of
and HUD. An attorney and a real estate agent               numerous entities involved in an equity-
were both arrested after investigation disclosed           skimming scheme to acquire VA properties. A
they submitted documents to the Government                 joint investigation by VA OIG and FBI
which contained false information regarding                disclosed the individual acquired these
applicant’s income, assets, and liabilities. Also          properties, which he then rented out to others,
arrested was an individual formerly employed by            while failing to make property mortgage
a new home developer after investigation                   payments. Foreclosure efforts were made on the
disclosed the individual allegedly produced                questioned properties, but those efforts were
fraudulent IRS W-2 forms and other                         stalled by bankruptcy proceedings. Sentencing
employment verification documents for the                  is pending.
potential home buyers. The fourth person
arrested thus far was a real estate appraiser,             • An individual pleaded guilty to one count of
arrested after it was disclosed the individual             theft of Government property, and was
allegedly appraised properties above market                sentenced to 1 year supervised probation and
value. With the appraised value of the home                ordered to pay fines and restitution totaling
inflated, the mortgage bank was able to issue a            $2,010. The individual previously had been
loan for greater than the actual value enabling            indicted on charges of equity skimming after a
the buyer to pay off debt with the difference.             joint VA OIG and FBI investigation determined
The investigation continues.                               he engaged in a conspiracy to fraudulently
                                                           obtain the titles to properties whose mortgages
• An individual was sentenced to 6 months’                 were guaranteed by VA, but which were in
confinement in a rehabilitation center, 5 years’           default due to non-payment. The individual and
probation, and restitution of $25,618. He                  the other conspirators convinced the property
previously had pleaded guilty to submitting false          owners to pay them rent on the properties, with
statements to a lending institution after a Federal        the promise that the collected rent monies would
grand jury returned a seven-count indictment               go toward the payment of their debts and their
against him. A VA OIG investigation disclosed              mortgages would be saved. Investigation
the individual submitted false statements to a             disclosed, however, no money from the rent was
lending institution in order to obtain a VA-               ever used to pay the mortgages, with all of the
guaranteed loan and then defaulted on the                  money being kept by the conspirators for
mortgage loan within 12 months of origination,             personal use. Judicial actions are pending.
triggering an audit of his loan processing
documents. Investigation of those documents                Property Management Fraud
determined the individual’s loan application
contained inflated income information and false            An individual was sentenced to 3 years’
supporting documentation, which served as the              probation, 6 months’ home detention, 100 hours’




                                                      25
Office of Investigations

of community service, and fined $1,000 after he             were charged with forgery, uttering a forged
pleaded guilty to making false statements to both           check, theft, theft by deception, and criminal
VA and HUD. A joint VA OIG and HUD                          conspiracy. A preliminary hearing has been
investigation revealed the individual                       scheduled.
misrepresented himself to VA and HUD as a
real estate broker in order to participate in               • Three individuals were arrested in a joint
brokering the sale of repossessed homes. He                 effort by VA OIG, USSS, and local police, after
was paid commissions, to which he was not                   a Federal grand jury returned a 41-count
entitled, on the sales he brokered.                         indictment against the three, charging each with
                                                            mail fraud, conspiracy, aiding and abetting, and
Other Loan Guaranty Fraud                                   passing forged U.S. Treasury checks. The joint
                                                            investigation disclosed that, after a VA
An individual who was the subject of an                     beneficiary in receipt of DIC benefits died, her
investigation on charges of loan guaranty fraud             primary care givers failed to notify VA of the
was arrested by special agents of the VA OIG                death and continued for more than 18 months to
and FBI, and members of a state fugitive task               forge and negotiate her VA benefits checks.
force. A joint VA OIG and FBI investigation                 Loss to the Government was more than $16,000.
disclosed the individual would locate buyers for
VA properties, falsely represent to them that he            • An individual was indicted and subsequently
owned the properties, and then arrange phony                pleaded guilty to theft of Government funds. A
sales to these buyers. Once the buyers took                 joint investigation by VA OIG and the USSS
possession of the properties, they would make               disclosed the individual diverted VA benefits
mortgage payments directly to the individual,               that were being deposited into the checking
who claimed he would pay the mortgages on the               account of his deceased wife. The wife had
properties. In reality, he diverted the payments            been in receipt of VA DIC benefits as the
for his own use, causing numerous VA properties             surviving spouse of a deceased veteran, but she
involved in the scheme to go into foreclosure,              failed to notify VA of her remarriage in 1983,
resulting in estimated monetary losses to VA of             which would have terminated the benefits. The
approximately $700,000.                                     husband, in turn, did not notify VA when his
                                                            wife died in 1988. Benefits disbursed to the
Beneficiary Fraud                                           wife’s account after her death totaled more than
                                                            $80,000.
Dependency and Indemnity
Compensation (DIC) Benefits Fraud                           • An individual pleaded guilty to theft of
                                                            public money after being charged in a criminal
• Two individuals were arrested for their roles             information with the theft of more than $38,000
in the theft, forgery, and uttering of a stolen U.S.        in VA DIC benefits. A VA OIG investigation
Treasury check. A joint investigation by VA                 disclosed the individual, the son of a VA
OIG, state police, and USSS disclosed the two               beneficiary, failed to disclose his mother’s death
individuals conspired to steal a VA beneficiary’s           to VA and continued for more than 15 years to
DIC benefits check. One of the individuals                  allow VA DIC benefits to be direct-deposited
admitted forging the payee endorsement on the               into a bank account he shared with his mother
check and negotiating the check at a local bank.            prior to her death. Loss to VA exceeded
She stated she split the proceeds of the check              $100,000. Sentencing is pending.
with the co-conspirator. The two individuals




                                                       26
                                                                              Office of Investigations

• The son of a deceased VA beneficiary                   benefits checks totaling more than $7,800.
signed a pre-trial diversion agreement admitting         Judicial actions are pending.
his role in the theft of VA DIC benefits. A VA
OIG investigation disclosed the individual failed        • An individual was sentenced to 13 months’
to disclose his mother’s death to VA in 1989 and         incarceration, 36 months’ probation, and ordered
continued to forge her signature on checks to            to make VA restitution of $45,043. The
access VA DIC benefits that were deposited into          sentencing was the result of a joint VA OIG and
her bank account. The Government also filed a            Social Security Administration (SSA)
civil judgement against the individual. The              investigation which determined the individual
terms of the pre-trial diversion agreement               failed to notify VA and SSA of his mother’s
require full restitution. The loss to the                death and, for more than 7 years, continued to
Government is more than $36,000.                         receive and negotiate SSA benefits and VA DIC
                                                         benefits checks intended for his deceased
• An individual was sentenced to 12 months’              mother. Loss to the Government was estimated
imprisonment, 12 months’ supervised release,             at more than $49,700.
and ordered to pay restitution to VA of $33,703
after she admitted filing false claims with VA in        • An individual pleaded guilty to one count of
order to wrongfully collect VA DIC benefits. A           theft of Government property. A VA OIG
VA OIG investigation disclosed the individual            investigation disclosed the individual failed to
falsified documents indicating she was married           disclose the death of his mother, a VA
to a veteran in order to collect VA benefits.            beneficiary, and continued for more than 3 years
                                                         to divert VA DIC benefits payable to his mother.
• An individual was sentenced to 3 years’                The benefits were deposited into a joint bank
supervised probation, 2 weeks’ imprisonment, 1           account via direct deposit and were subsequently
month home confinement, and 100 hours of                 withdrawn by the individual for personal
community service. She previously had pleaded            expenses. Loss to the Government was more
guilty to making false statements to the                 than $33,000. Sentencing is pending.
Government. A VA OIG investigation disclosed
the individual had been receiving DIC benefits           • An individual pleaded guilty to one count of
as the surviving spouse of a deceased veteran.           theft of Government funds after a joint VA OIG
Entitlement to DIC benefits terminates when the          and U.S. Postal Inspection Service investigation
beneficiary remarries or death occurs.                   disclosed she diverted and negotiated VA
Investigation determined the individual failed to        benefit checks intended for her deceased mother,
report her remarriage to VA and continued to             the widow of a veteran. Investigation disclosed
collect benefits to which she was not entitled.          the individual failed to report her mother’s death
Loss to VA totaled more than $130,000.                   in 1997 and continued for almost 2 years to
                                                         divert the benefits checks as they were sent to
• An individual who wrongfully diverted her              her mother’s address. While incarcerated on
deceased mother's DIC benefits surrendered to            another charge, she would have her husband and
VA OIG special agents after a warrant was                brother-in-law cash the checks. The husband
issued for her arrest. The individual previously         and brother-in-law were also charged and
had been indicted by a grand jury on 10 counts           arrested for taking part in the scheme.
of mail fraud and 6 counts of forgery after a VA
OIG investigation disclosed that, for more than          • An individual was sentenced to 6 months’
2½ years, she failed to report her mother’s death        home confinement, 60 months’ probation, and
to VA, and continued to receive and negotiate            ordered to pay VA restitution of $62,400 after




                                                    27
Office of Investigations

pleading guilty to a criminal indictment charging         • An individual who was the nephew of a VA
her with theft of Government funds. A VA OIG              beneficiary was arrested after a VA OIG
investigation found the individual failed to              investigation disclosed he diverted VA benefits
disclose the death of her mother, a VA                    payments. Investigation revealed the individual
beneficiary, and continued to allow VA DIC                failed to notify VA of the death of his aunt, a
benefits checks to be electronically deposited            beneficiary in receipt of VA DIC benefits
into a jointly held account. She then used the            payments, which would have caused the
monies for her own needs, resulting in a loss to          payment of benefits to cease. After her death,
VA of $62,400.                                            the individual forged his aunt’s signature to
                                                          endorse her checks and converted the money to
• An individual was charged with five counts              his own use. He also forged her signature and
of theft of Government funds. A VA OIG                    provided false information on a VA marital
investigation disclosed the individual, the               status questionnaire and on a replacement check
daughter of a VA beneficiary, failed to disclose          request. For more than 6 years he carried on this
her mother’s death to VA and continued to allow           fraud, causing the Government a loss of more
VA DIC benefits checks to be direct-deposited             than $65,000.
into a bank account she shared with her mother
prior to her death. Loss to VA was over                   • An individual was arrested based on a
$28,000.                                                  criminal complaint filed charging him with theft
                                                          of Government funds. The individual previously
• The son of a VA beneficiary was indicted on             was indicted by a grand jury after a VA OIG
two counts of theft of Government funds after a           investigation determined that, over of period of
joint investigation by VA OIG and SSA OIG                 8 years, he fraudulently diverted more than
disclosed that he stole more than $23,000 in VA           $118,000 in VA benefits to which he was not
DIC benefits and $12,900 in Social Security               entitled. Investigation disclosed the individual
funds. Investigation determined the individual            failed to notify VA of the death of his mother, a
failed to disclose his mother’s death and                 VA beneficiary in receipt of DIC benefits. Upon
continued to allow DIC benefits funds and SSA             her death, the DIC benefits were intended to
funds to be electronically deposited into a joint         remain for the care of the individual’s stepsister,
bank account, which he then withdrew for his              who was designated as a helpless child of the
own use. When questioned about the diversion              VA beneficiary. Instead, the individual accessed
of the funds, the individual admitted to the              the bank account where the benefits monies
misuse of the funds.                                      continued to be electronically deposited, and
                                                          diverted the monies for his own use. During the
• An individual was sentenced to 6 months’                course of the investigation, the individual
home confinement, 5 years’ supervised                     confessed to the theft. A trial date is pending.
probation, and restitution of $94,600. The
sentencing was the result of a joint investigation        • An individual was arrested pursuant to a
by VA OIG, FBI, and local police, which                   criminal indictment charging her with
disclosed the individual failed to notify VA of           embezzlement and theft of public money. The
her mother’s death, and continued to divert VA            indictment and subsequent arrest were the result
DIC benefits that were electronically deposited           of a VA OIG investigation, which disclosed the
into her deceased mother’s bank account. She              individual failed to notify VA of the death of her
had previously pleaded guilty to an indictment            grandmother, a widow in receipt of VA DIC
charging her with theft of VA benefits.                   benefits. Investigation disclosed the individual
                                                          continued to receive the benefits in her




                                                     28
                                                                                Office of Investigations

grandmother’s name, and converted to her own              altered the amount of benefits he would have
use more than $44,000 in VA benefits.                     received. As a result of this action, he received
                                                          benefits in excess of $24,000 to which he was
Pension Benefits Fraud                                    not entitled. Sentencing is pending.

• An individual pleaded guilty to one count of            • An individual was arrested on charges of
submitting a false certificate in order to commit         making false statements to VA. A joint
fraud. A VA OIG investigation disclosed the               investigation by VA OIG, U.S. Postal Inspection
individual falsified her application for VA               Service, and FBI disclosed the individual, who
widow’s pension benefits by failing to report her         was in receipt of VA widow’s pension benefits,
earnings. Investigation also disclosed the                made false statements and misrepresented her
individual had been divorced from the veteran for         employment status in order to receive benefits
almost 2 years prior to her submitting the                monies to which she was not entitled.
application for benefits, which would have                Investigation showed that, from 1996 through
rendered her ineligible to receive benefits.              1999, the individual stated she did not work
Sentencing is pending.                                    when, in fact, she was employed the entire time.
                                                          The false statements allowed her to collect more
• An individual pleaded guilty to an                      than $20,000 in widow’s pension benefits to
indictment charging him with theft of                     which she was not entitled.
Government money. The conviction was the
result of a VA OIG investigation, which                   • An individual was indicted by a Federal
determined the individual, a veteran in receipt of        grand jury and charged with theft of
VA pension benefits, failed to report family              Government property and making forged
income earned which would have rendered him               endorsements on U.S. Treasury checks. A VA
ineligible for the VA benefits. Loss to the               OIG investigation disclosed the individual, the
Government was more than $30,000.                         sister of a deceased veteran, failed to notify VA
                                                          of her brother’s death, and continued for more
• An individual who was in receipt of VA                  than 3 years to forge and negotiate his VA
pension benefits was indicted by a Federal grand          pension benefits checks. Loss to the
jury on four counts of making false statements to         Government as a result of this scheme was over
the Government. The indictment charged that,              $30,000.
for more than 5 years, the individual operated a
full-time residential maid service, the income            • An individual was indicted on charges of
from which exceeded the amount allowed by                 wire fraud and misuse of a Social Security
law for an individual to be eligible to receive           number. The indictment was the result of an
pension benefits. She perpetrated the scheme by           investigation conducted by a benefits fraud task
falsifying annual reports to VA declaring that            force comprised of Federal investigators from
she had no outside employment income. Loss to             VA OIG, SSA OIG, and the U.S. Postal
the Government exceeded $27,500.                          Inspection Service. The task force was formed
                                                          to investigate identity thefts and fraud schemes
• An individual pleaded guilty to a one count             related to claims for benefits involving
criminal information charging him with theft of           Government benefits programs. Investigation
Government funds. A VA OIG investigation                  disclosed the individual, a veteran, applied for
disclosed the individual, a veteran in receipt of         and received a false Social Security account
VA pension benefits, failed to report                     number and attempted to obtain benefits under
employment income to VA, which would have                 that number. The individual was already




                                                     29
Office of Investigations

receiving veteran’s benefits, to which he was            ordered the individual to make restitution to the
entitled, under his true identity.                       Government agencies in the amounts stolen.

Compensation Benefits Fraud                              • A veteran was sentenced to 5 years’
                                                         probation, 4 months’ home detention, and was
• An individual was indicted by a Federal                ordered to pay restitution of $45,500 after
grand jury, charged with two counts of theft, one        pleading guilty to conspiracy to defraud and
count of false statements, and one count of fraud        conspiracy to steal and convert VA and SSA
to obtain Federal employee’s compensation. A             funds. A joint VA OIG and SSA investigation
joint VA OIG and U.S. Postal Inspection Service          revealed that, from November 1987 to
investigation disclosed the individual was               December 1996, the veteran and his wife
receiving VA compensation benefits based on              submitted false statements to VA and SSA
unemployability due to an injury, and was also           regarding their income and marital status in
collecting workers’ compensation for the same            order to receive both VA and SSA payments.
injury from the Postal Service. In addition to           The veteran’s wife reported to SSA that she was
wrongfully collecting benefits from two                  single during that time, with no other income
agencies, investigation further disclosed that,          other than her SSA benefit payments, in order to
during the period he was claiming benefits for           continue receiving the benefits which would
an inability to work, he owned and operated a            have terminated with remarriage. Further, after
vehicle restoration business. As a result, this          the couple divorced in 1996, the veteran failed to
individual received more than $400,000 in                report the fact of the divorce to VA, which
benefits to which he was not entitled.                   would have caused a reduction in VA benefits.
                                                         As a result of these unlawful actions, the
• An individual was charged with one count               Government paid the couple more than $45,500
each of forgery, receipt of stolen property, and         in benefit payments to which they were not
larceny. A joint investigation by VA OIG and             entitled.
local police disclosed the individual had stolen
from a veteran two VA compensation checks,               • A VA regional office (VARO) senior claims
totaling more than $2,700. After stealing the            examiner was indicted and subsequently pleaded
checks she forged the veteran’s signature,               guilty to charges of theft of Government
deposited the checks in her own bank account             property, making and using a document
and used the funds for personal use. She                 containing false and fraudulent statements, and
subsequently pleaded guilty to the charges and           endeavoring to obstruct and impede a Federal
agreed to make restitution.                              investigation. A VA OIG investigation
                                                         disclosed the individual created records which
• An individual entered into an agreement in             fraudulently inflated the disability rating for a
U.S. District Court wherein she admitted guilt in        co-worker at the VARO, enabling the co-worker
unlawfully diverting funds for her own use               to wrongfully obtain more than $40,000 in
which were originally intended for her sister, a         compensation benefits. He allegedly attempted
VA and SSA beneficiary. A joint VA OIG and               to thwart the ensuing investigation by destroying
SSA OIG investigation disclosed she diverted             documentary evidence, concocting a false story
funds totaling more the $15,700 from VA and              to provide to VA investigators, and counseling
more than $14,200 from SSA. Pursuant to the              the co-worker to provide false information to
agreement, the court imposed 18 months of                investigators. The co-worker involved in the
probation, 50 hours of community service, and            case previously pleaded guilty to similar charges
                                                         and has been sentenced.




                                                    30
                                                                                 Office of Investigations

• An individual was indicted and subsequently              he had not yet been discharged from military
arrested on charges of mail fraud and aiding and           service. Additionally, while continuing to receive
abetting, as a result of a joint investigation by          monthly payments under the first wrongful claim,
DOL, IRS Criminal Investigations Division, and             for 2 years he also received more than $10,000
VA OIG. Investigation disclosed the individual             based on a second false claim. As a result, the
provided false statements to the Government                individual received over $32,000 to which he was
when he applied for VA and DOL benefits based              not entitled. Judicial actions are pending.
on 100-percent disability. During the period of
time he was receiving benefits, he worked on               • Two individuals who operated a personal
numerous construction projects, but reported to            care home were indicted and subsequently
VA that he was not working. Through this                   pleaded guilty to charges of theft of public
scheme, he received $61,664 in VA benefits for             money, false statements, and aiding and
which he was not entitled. He also received                abetting. A joint investigation by VA OIG, FBI,
DOL unemployment compensation benefits                     and SSA OIG disclosed the two individuals stole
during this time. In addition, subsequent to his           VA survivor benefits checks intended for a
indictment on conspiracy and false claim                   veteran’s widow who had previously resided in
charges relative to an IRS investigation, he lied          their personal care home. The thefts began after
to the U.S. District Court on a financial affidavit        the widow moved out of the home, when the
filed for the purpose of obtaining court                   individuals failed to notify VA of the widow’s
appointed legal representation.                            change of address, and continued after the
                                                           widow had died. Total loss to VA was more
• An individual was sentenced to 5 months’                 than $20,000. The investigation further
imprisonment, 3 years’ supervised release, and             disclosed that fraudulent billings for medical
ordered to make restitution of more than                   services were submitted to VA by the
$67,000 to VA. The individual, a veteran, was              individuals. The fraud amounted to a $23,200
previously convicted of making false statements            loss to VA. Sentencing is pending.
on VA employment questionnaires indicating he
had not been employed due to a service-                    • The former spouse of a veteran pleaded
connected disability. A VA OIG investigation               guilty to charges of mail fraud after a VA OIG
disclosed the individual had earnings during the           investigation disclosed that, for more than 25
time he alleged an inability to work. In addition,         years, she submitted fraudulent documents to
because of his alleged unemployable status due             VA in order to receive VA disability benefits to
to his disability, his children received                   which she was not entitled. A VA OIG
educational benefits to which they would not               investigation showed the individual filed
otherwise have been entitled. The false                    documents fraudulently reflecting that the
statements resulted in an estimated total loss to          veteran resided at certain addresses and
VA of more than $90,000.                                   requested that his benefit checks be mailed to
                                                           those addresses when, in fact, only the former
• An individual was arrested after a VA OIG                spouse resided at those addresses, not the
investigation determined he fraudulently collected         veteran to whom the benefits were rightly owed.
VA compensation benefits under two different               The former spouse proceeded to open a bank
claim numbers. Based on submission of an                   account in both names, forged the veteran’s
altered military discharge document and a VA               endorsement on the benefit checks and
benefits application containing false information,         wrongfully converted the monies to her own use.
the individual received more than $21,000 in VA            During the time the fraud was taking place, the
benefits over a 4 year period despite the fact that        veteran was unaware that he was owed disability




                                                      31
Office of Investigations

benefits and that his ex-wife was fraudulently            intended for her father while he was in a nursing
receiving them instead of him. Loss to the                home facility, using the funds for herself.
Government was approximately $21,000.                     During this time, she failed to use the funds to
                                                          pay for her father’s nursing care.
• An individual was indicted by a Federal
grand jury on one count of theft of Government            • An individual was indicted by a grand jury
funds and one count of making false statements            and found guilty on six counts of theft of
after being arrested by VA OIG special agents.            Government funds. A VA OIG investigation
While on trial on unrelated state charges, the            disclosed that from approximately January to
individual testified he had defrauded VA by               August 1998, the individual, acting in her
falsifying his marital status in order to collect         capacity as fiduciary for a disabled veteran,
extra dependent benefits. He stated in court that         diverted in excess of $8,100 of the veteran’s VA
he had made claims to VA that he was married              benefit funds for her own personal use.
from 1983 to 1999, when he actually had                   Sentencing is pending.
divorced his wife in 1982. Investigation
confirmed he had in fact misled VA in order to            • An individual was indicted by a grand jury
receive the extra benefits. On multiple                   on four counts of making false statements to the
occasions throughout the 16-year period, he               Government. A joint VA OIG and SSA OIG
falsely certified he was married and continued to         investigation disclosed the individual, who was
list his former wife as a dependent. Loss to the          designated as fiduciary for her veteran husband
Government was $5,900.                                    after he was judged unable to manage his
                                                          benefits, made false statements to VA and SSA
Fiduciary Fraud                                           pertaining to the existence of dependent
                                                          children, in order to increase the amount of
• An individual who served as a VA-                       benefits. Investigation determined that one of
appointed fiduciary for his brother-in-law, a             the claimed dependent children failed to meet
veteran judged incompetent to manage his own              dependency requirements and that the other did
accounts, was arrested and charged with theft by          not exist. Loss to the Government was $35,000.
conversion. A joint investigation by VA OIG
and local police disclosed that, while serving as         • A fiduciary for a disabled veteran pleaded
fiduciary for the veteran, the individual was             guilty after being charged in an indictment with
responsible for receiving and disbursing VA               one count of misappropriation by a VA fiduciary
funds to pay the veteran’s expenses. All funds            and eight counts of wire fraud. A VA OIG
not immediately used for expenses were to be              investigation disclosed he embezzled funds from
maintained in an interest-bearing account for             his ward, an incompetent veteran. The
future use by the veteran. Investigation                  indictment charged that, over the course of
disclosed the individual did not deposit any of           approximately 3 years, the individual
the veteran’s money into such an account, but             electronically wired more than $100,000 in
rather used the veteran’s money for personal              funds from the veteran's account to numerous
expenses.                                                 out-of-state accounts under his control. The
                                                          individual had executed a fiduciary agreement
• A woman appointed as fiduciary for her                  with VA, in which he agreed to serve as
father, an incompetent veteran, was arrested by           custodian-in-fact for the veteran. Pursuant to
VA OIG and local sheriffs on state charges of             this agreement, he was required to use all money
exploitation of the elderly. A joint investigation        paid by VA strictly for the benefit of the veteran.
disclosed the individual received the funds               Instead, however, the individual ordered




                                                     32
                                                                                Office of Investigations

interstate wire transfers of funds from the               barred from ever again seeking employment
fiduciary account to several of his personal              with the Federal Government. She had resigned
accounts.                                                 from her position after being arrested and
                                                          indicted on the charges. A joint investigation by
• An individual was indicted by a grand jury              VA OIG and local police disclosed the
and charged with one count each of making a               individual stole a VA identification card
false statement and mail fraud. A VA OIG                  belonging to a fellow employee, and proceeded
investigation disclosed the individual, who               to use the stolen card to impersonate the other
formerly acted as fiduciary for her brother, an           employee, applying for credit cards in that
incompetent veteran, submitted a false statement          person’s name. At the time of her arrest the
to VA regarding income she received on behalf             individual had prepared a fictitious credit card
of the veteran. Investigation showed she failed           application for a retail establishment and was in
to provide an accounting of the veteran’s funds           the process of purchasing hundreds of dollars
after it was discovered that no monthly                   worth of merchandise from the store.
maintenance payments were being made to the
veteran’s care facility.

• A two count criminal information was filed
                                                          Board of Veterans
against an individual operating as a VA-                  Appeals
appointed fiduciary, and he subsequently
pleaded guilty to misappropriation by a fiduciary         Employee Misconduct
and fraudulent conversion of Social Security
benefits. A joint VA OIG and SSA OIG                      An individual employed as the chief of an
investigation disclosed the individual                    administrative team with the Board of Veterans
misappropriated money from the bank accounts              Appeals (BVA) pleaded guilty after being
of six veterans for whom he was appointed                 arrested on charges of attempted tampering with
fiduciary. Investigation disclosed he stole the           physical evidence and was placed in a pretrial
money in order to pay off personal debts.                 diversion program after admitting responsibility
Judicial actions are pending.                             for his offenses. As part of the plea, he will
                                                          perform 60 hours of community service at a
• An individual pleaded guilty to a criminal              VAMC and has resigned from VA. A joint
information charging him with embezzlement in             investigation by VA OIG and the FBI disclosed
connection with his actions while acting as               the individual, in the course of his regular duties,
fiduciary for VA and SSA beneficiaries. A joint           was responsible for processing approximately
investigation by VA OIG and SSA OIG                       200 veteran’s appeals a week. A percentage of
disclosed that, while acting as fiduciary for more        the appeals submitted for processing were
than 100 VA and SSA beneficiaries, the                    labeled as being extremely time sensitive, in that
individual embezzled over $227,000 in funds               they were claims made by veterans in need of
awarded to those benefits recipients requiring            immediate assistance because they were
his services. Sentencing is pending.                      terminally ill or because their home may have
                                                          been on the verge of foreclosure. Investigation
Credit Card Fraud                                         disclosed the individual knowingly allowed a
                                                          large amount of unprocessed materials to
A VARO claims clerk pleaded guilty to charges             accumulate in and around his office and he
of forgery and credit card theft, and was                 falsified weekly reports in order to conceal the
sentenced to 3 years’ supervised release and is




                                                     33
Office of Investigations

existence of these unprocessed materials.               unemployment benefits checks and related work
During an office reorganization, more than              certifications. The individual then disbursed
1,300 unprocessed items were found                      part of the stolen benefits monies to the co-
accumulated in the individual’s office area.            conspirator, an inmate in a Federal prison
While most of the material found was between 1          facility, and used the remaining money for
and 2 years old, there were some items which            support of the inmate's family.
dated as far back as 1994. Among the
unprocessed materials found were more than
500 items containing evidence related to
veterans’ appeals including some of the
                                                        National Cemetery
aforementioned urgent, time sensitive items, as         Administration
well as Congressional materials. The large
amount of unprocessed mail had a substantial            Employee Integrity
and continuing effect on BVA operations, and
significant corrective action is required to
                                                        A total of four individuals, three employed with
resolve the administrative aspects of the case.
                                                        NCA and one outside contractor, have all been
                                                        convicted on charges including theft of
                                                        Government property, receiving stolen property,
Office of Human                                         and providing gratuities to Government officials.
                                                        A joint VA OIG and FBI investigation disclosed
Resources and                                           two of the VA employees, both NCA program
Administration                                          assistants, used VA-issued Government credit
                                                        cards to make purchases of computers and
                                                        electronic equipment, and other items and
Support to VA Central Office                            service, which they either kept for themselves or
                                                        sold for profit to the third NCA employee.
Theft and Embezzlement                                  During the course of the investigation,
                                                        information surfaced which disclosed the outside
An individual working as a night engineer for a         contractor, a sales representative for an office
VA contractor was arrested and charged with             products company, provided cash and gratuities
one count of theft. In the course of a VA OIG           to the two program assistants who, in exchange,
investigation into theft of VA property, the            made office supply purchases from the company
individual admitted he had stolen computer              totaling more than $100,000. All four have been
related items from VA.                                  sentenced. One of the program assistants was
                                                        sentenced to 3 years' probation and ordered to
Employee Misconduct                                     pay $1,393 in restitution to VA. The second
                                                        program assistant was sentenced to 6 months’
A VA management analyst was sentenced to 1              home detention with electronic monitoring, 4½
month probation and agreed to make full                 years’ probation, and $170,000 in restitution to
restitution, after having pleaded guilty to a           VA. The NCA employee who purchased the
criminal information that charged him with theft        stolen merchandise was sentenced to 1-year
of state unemployment benefits. While pursuing          probation after pleading guilty to the charges.
unrelated allegations against the individual, a         The sales representative for the office supply
joint investigation by VA OIG and the FBI               company was sentenced to 3 years’ probation,
developed evidence that the individual forged a         restitution of $2,000 to VA, and 200 hours’
co-conspirator's signature to a series of




                                                   34
                                                                            Office of Investigations

community service after pleading guilty to               A breakdown of laboratory examinations
providing gratuities to a Government official.           conducted during the period follows.

                                                             Laboratory Cases for the Period
                                                                                        Cases
                                                                  Requester
                                                                                      Completed
                                                         OIG Office of Investigations      4
                                                         VA Regional Offices                  15
               Washington Post
                Metro Section                            Office of Security and Law
                                                                                                  1
                  Article                                Enforcement
                                                         Other Federal Agency                     1
             [photo not available
                                                                    TOTAL                     21
                electronically]




OIG Forensic Document
Laboratory

The OIG operates a nationwide forensic
laboratory service for fraud detection, which can
be used by all elements of VA. The types of
requests routinely submitted to the laboratory
include handwriting analysis, typewriting, inks,
paper, photocopied documents, and suspected
alteration of official documents. During this
reporting period, the forensic laboratory
conducted examinations which provided
valuable evidence of fraud and forgery. Some
examples of these cases are: (i) examinations
uncovered that an individual had forged VA
documents to obtain veterans' life insurance and
an application to obtain a VA loan; (ii)
examinations identified the subject of an OIG
investigation as the author of 13 different
signatures on stolen U.S. Treasury checks; (iii)
examinations discovered that the widow of a
veteran submitted false documents to VA to
continue to receive her deceased husband’s
benefits to which she was not entitled.




                                                    35
Office of Investigations

                                                         Outcome
II. ADMINISTRATIVE                                       • VA managers agreed to take administrative
INVESTIGATIONS                                           actions against 10 high-ranking officials,
                                                         including one who had retired after our draft
DIVISION                                                 report was issued. They also agreed to take 20
                                                         corrective actions to improve operations and
Mission Statement                                        activities as a result of these investigations, to
                                                         include issuing bills of collection in 10 instances
    Independently review allegations and                 for collection of monies due VA.
    conduct administrative investigations
    generally concerning high ranking senior             The administrative investigation reports
    officials and other high profile matters of          discussed below address serious issues of
    interest to the Congress and the                     misconduct against high-ranking officials and
    Department.                                          other high profile matters of interest to the
                                                         Congress, Secretary, VA managers, media, and
                                                         the general public.
Resources

The Administrative Investigations Division has           Veterans Health
nine FTE assigned. The following chart shows             Administration
the percentage of resources utilized in reviewing
allegations by program area.
                                                         Use of Government Resources,
                                                         Conduct, and Travel Issues
                                                         An administrative investigation substantiated
                                                         that a Veterans Integrated Service Network
        
                                                      (VISN) Director misused a Government vehicle
                                                         to regularly commute from his residence to
                                                     work. His actions constituted an unauthorized
                           	                           use of Government property, from which he
                                                         personally and improperly benefited. We also
                                                         substantiated the Director’s Chief Financial
                                                         Officer disregarded the laws and regulations
                                                         pertaining to the use of Government vehicles,
Overall Performance                                      thereby allowing the Director to misuse the
                                                         vehicle. VHA officials agreed with our
                                                         recommendations to take appropriate
During the reporting period the Division closed
                                                         administrative action against the Director and
13 cases, 4 of which had Congressional interest.
                                                         the Chief Financial Officer, and to ensure the
                                                         Director repays the General Services
Output
                                                         Administration’s mileage charges applicable to
• During the reporting period, 8 reports were
                                                         the unauthorized miles driven. We also
issued. Five cases resulted in administrative
                                                         substantiated the Director used his position for
closures.                                                his own private gain by having his staff
                                                         construct an above standard sunporch on his on-




                                                    36
                                                                                Office of Investigations

station quarters, at Government expense. We                prevailing contract rate. They also agreed with
substantiated the Director wasted Government               our recommendation to direct him to use, in a
funds by unnecessarily exchanging a                        timely manner and for official Government
Government vehicle leased by his former duty               purposes only, the points he had accumulated
station with a Government vehicle leased by the            based on official travel. As a final issue, we
VISN office. On another matter, we found the               concluded the Director failed to fully cooperate
Director improperly used his personal credit               with us during this investigation because he
card to pay for official travel expenses, thereby          declined to provide his testimony under oath and
accruing frequent flyer mileage points that were           would not allow the two interviews we
available for his personal use. We also found              conducted with him to be tape-recorded, as
the Director improperly used his Government                required by VA policy. The Chief Network
position to obtain Government airline tickets, or          Officer agreed to address this issue with the
segments of Government airline tickets, when               Director and all network and facility executives.
there was no official necessity for him to travel.         (Use of Frequent Flyer Mileage Points and
VHA officials agreed to take appropriate                   Other Travel Issues, VAMC Long Beach, CA,
administrative action against the Director for the         99-01781-32, 2/25/00)
above improprieties, and to issue bills of
collection to him to recover money due the                 Conduct Issue
Government. (Use of Government Resources,
Conduct, and Travel Issues, Connecticut Health             We conducted an administrative investigation
Care System and Central Plains VISN, 99-                   into an allegation that a VISN Director
01783-43, 2/29/00)                                         improperly participated in the selection of her
                                                           spouse to perform collateral duties as a VISN
Frequent Flyer and Other Travel                            advisor. Although we found the Director did
Issues                                                     participate in the selection of her spouse, we
                                                           identified no law or regulation she violated.
An administrative investigation substantiated              However, we concluded the Director did not
that a VA Medical Center Director improperly               heed the advice in a VHA Information Letter. In
converted over 142,000 frequent flyer mileage              that Letter, the former Under Secretary for
points earned through official travel for his              Health cautioned VHA staff to carefully
personal use. Further, the Director did not                consider that having an intimate personal
redeem any frequent flyer mileage points he                relationship with a subordinate places at risk the
earned from official travel to offset the cost of          confidence of other subordinates and limits the
subsequent official travel, as required. We also           leader’s effectiveness. We noted the Director’s
substantiated the Director engaged in other                action undermined her leadership ability. We
travel irregularities, including not always using          made no formal recommendation on this matter,
contract air carriers, not using the approved              but suggested the Director and her spouse be
travel management agent, and using a personal              advised, in specific terms, of what the nature and
credit card to pay for official expenses,                  extent of their on-the-job relationship should be,
including some of his airfare, while on                    and that this relationship be monitored to ensure
Government travel. VHA officials agreed with               it does not adversely affect morale within the
our recommendations to take appropriate                    VISN. (Misconduct and Other Issues, VA
administrative action against the Director; and            Heartland Network, Kansas City, MO, 99-
bill him for the value of personal trips he took           01779-21, 12/9/99)
using points earned on official travel, and for the
excess cost of trips he made that were not at the




                                                      37
Office of Investigations

Personnel Practices                                     Veterans Benefits
An administrative investigation substantiated           Administration
that a VA Health Care System Director and
Associate Director for Operations                       Conduct, Attendance, and Travel
inappropriately proceeded to hire an individual,
who had once worked for the Director in another
                                                        An administrative investigation substantiated
location, into a position the Merit Systems
                                                        that a VARO Director knowingly and
Protection Board ordered belonged to the former
                                                        intentionally misused his position to make
incumbent. The Director and Associate Director
                                                        personal telephone calls at Government expense.
for Operations subsequently displayed poor
                                                        He violated VA travel policy by claiming
position management by non-competitively
                                                        personal calls as officially necessary. Further,
placing the newly hired individual in another,
                                                        he used his Government-issued cellular
upgraded position. Although the individual was
                                                        telephone and calling card to make personal
qualified and eligible for both positions,
                                                        calls. When the Director became aware a
deficiencies in the hiring and placement process
                                                        complaint might be made against him, he repaid
created an appearance of preferential treatment.
                                                        most of these charges. The Director also
VHA officials agreed to our recommendation to
                                                        violated duty and leave regulations by being
take appropriate administrative action against
                                                        absent on 14 occasions without charging annual
the Director and Associate Director, and to
                                                        leave, charging 32 hours of sick leave for
amend the local merit system promotion plan.
                                                        unauthorized purposes, and inappropriately
(Personnel Practices, Central Texas Veterans
                                                        requesting that 250 hours of annual leave be
Health Care System, 99-01789-28, 1/25/00)
                                                        restored in 1997 and 1998. The requests were
                                                        approved, although the requirements of VA
Use of Government Resources                             policy were not met. Finally, we substantiated
                                                        improprieties relating to the Director’s use of
An administrative investigation substantiated           Government resources for personal business,
that a VISN Director inappropriately approved           including his use of Government equipment,
the use of official resources for an employee to        travel and purchase cards, and frequent flyer
attend a function sponsored by the VA –                 mileage points. The Director retired from
National Medical Music Group. We also                   Federal service while our report was in draft.
substantiated that, while a medical center              However, VBA officials told us they would have
director, the Director wasted resources by              taken appropriate administrative action against
allowing officials to prepare excessively costly        the Director, as we recommended, had he not
media presentations to recognize retiring               retired. VBA officials agreed to issue the
employees. VHA officials concurred with our             Director bills of collection for the remaining
recommendation to take appropriate                      unpaid telephone charges, the debt associated
administrative action against the Director for          with his absences without charge to annual
these improprieties. (Use of Government                 leave, and his inappropriate restoration of leave,
Resources and Other Issues, Great Lakes                 for a total of over $20,000. VBA officials also
Healthcare System, Hines, IL, 97-00957-29,              took appropriate administrative action against
1/19/00)                                                the officials responsible for approving the
                                                        restoration of the Director’s leave. (Conduct,
                                                        Attendance, and Travel Issues, VARO, Portland,
                                                        OR, 99-01785-14, 12/21/99)




                                                   38
OFFICE OF AUDIT
Mission Statement                                       agreement with the VA Office of Acquisition
                                                        and Materiel Management (OA&MM). This
    Improve the management of VA programs               Division conducts preaward and postaward
    and activities by providing our customers           reviews of certain categories of VA contracts.
    with timely, balanced, credible, and
    independent financial and performance               Overall Performance
    audits and evaluations that address the
    economy, effectiveness, efficiency,                 Output
    financial, and internal control of VA               • Issued 16 performance and financial audits
    operations, and that identify constructive          and evaluations, for an output efficiency of 1
    solutions and opportunities for                     report per 4.8 FTE during this 6-month period.
    improvement, and to conduct preaward and            Additionally, 16 contract review reports (7
    postaward reviews to assist contracting             preaward contract reviews and 9 postaward
    officers in price negotiations and to ensure        reviews) were issued, for an output efficiency of
    reasonableness of contract prices.                  about 1 report per FTE for the 6-month period.

Resources                                               Outcome
                                                        • Recommendations were made to enhance
The Office of Audit had an average 154 FTE              operations and correct operating deficiencies
assigned in VA Central Office and 5 operating           with monetary benefits totaling $189.7 million.
divisions throughout the country during the 6-          In addition, contract reviews identified monetary
month period covered by this report. The                benefits associated with preaward and postaward
following chart shows the percentage of                 contract reviews of $23.8 million.
resources utilized in auditing each of VA’s
major program areas.                                    Cost Effectiveness
                                                        • A return of $25 in monetary benefits was
                                                        achieved for every dollar spent in performance
                                                        and financial audits and evaluations during this
                                               6-month period. A return of $19 in monetary
                                          benefits was achieved for every dollar spent on
            	                                      contract reviews. Additionally, contract reviews
                                                        resulted in 64 percent of recommended better
                                                        use of funds being sustained by the contracting
                                                        officer during negotiations.
                            
             
               
                                                     Customer Satisfaction
                                   

                         		
                                                        • Customer satisfaction with performance and
                                                        financial audits and evaluations was 4.4 on a
                                                        scale of 5, for reports issued during the period.
                                                        The average customer satisfaction rating for
                                                        contract reviews was 4.5 out of a possible 5.
In addition, the Office of Audit’s Contract
Review and Evaluation Division had 24 FTE               Audits completed during the period identified
authorized for reimbursement under an                   opportunities to improve services to veterans,




                                                   39
Office of Audit

and identified savings that could be used to              The followup audit showed that Dayton, the
provide more and better service. The following            central production facility, and the participating
summarizes some of the audits completed during            remote facilities successfully implemented the
the reporting period organized by VA                      central food production program. Facilities
component: VHA, VBA, Office of Financial                  achieved expected improvements in food service
Management, Office of Information                         and realized or exceeded expected staff
Technology, Office of the Secretary, and issues           reductions. While the Dayton program
requiring action by multiple offices. This is             represents a best practice in comparison to
followed by an assessment of the                          traditional systems used by VHA, there is
implementation of GPRA in VA.                             opportunity to further improve the system and
                                                          optimize cost savings. Additional efficiencies
                                                          and quality improvements could be achieved by:
Veterans Health                                           (i) increasing the number of participating sites,
Administration                                            (ii) strengthening management of the program,
                                                          (iii) consolidating equipment procurement, (iv)
Resource Utilization                                      monitoring equipment performance, (v) limiting
                                                          the scope of associated construction projects,
                                                          and (vi) reducing utility costs. We
Issue: Advanced Food Processing and                       recommended the Acting Under Secretary for
   Delivery Systems (AFPDS).                              Health use the Dayton advanced food processing
Conclusion: Centralized food                              and delivery system as a best practice, and
   production reduces cost.                               analyze, broadcast, and implement the system
Impact: Better use of funds.                              nationwide, if feasible.
We conducted a followup audit of VHA’s                    The Acting Under Secretary for Health stated
central food production program and its AFPDS.            the centralized production system did not meet
The purpose of the audit was to determine                 VHA’s definition of a best practice, but he
whether the central food production program               agreed the system did achieve measurable
implemented in 1998 at VA medical facilities in           efficiencies. He said Nutrition and Food Service
Dayton, Chillicothe, and Cleveland, Ohio; and in          already recommends the system as an option for
Butler, Pennsylvania, achieved its projected cost         selected food service operations. He also stated
savings of about $1.7 million, mostly from staff          that he would encourage application of the food
reductions.                                               factory concept in as many other service areas as
                                                          possible by furnishing each VISN Director a
A March 1990 OIG audit report, Veterans                   copy of the audit report, and that advanced food
Health Services and Research Administration’s             processing and delivery systems would be
Plans for Advanced Food Processing Systems                implemented where feasible. (Audit of
and Advanced Delivery Systems, recommended                Advanced Food Processing and Delivery
the development of central food production                Systems (AFPDS) in Ohio and Western
programs nationwide. VHA did not concur in                Pennsylvania, 98-00156-39, 2/9/00)
the audit conclusion, and cited pilot test results
that showed centralized food production could
not effectively function in the VA food service
environment.




                                                     40
                                                                                         Office of Audit

Fraud Detection                                           costs. These costs are based upon actual
                                                          payments made by DOL in charge back year
Issue: High-risk areas in VHA’s Workers’                  1997 (July 1996 - June 1997).
   Compensation Program (WCP).
                                                          The audit found that VHA is vulnerable to
Conclusion: Costs can be reduced with
                                                          abuse, fraud, and unnecessary costs associated
   enhanced management and oversight
                                                          with claims in the three high-risk areas
   of claims in certain high-risk areas.
                                                          reviewed. VHA’s management of cases
Impact: Reduction in program costs.
                                                          involving these high-risk areas needs to be
                                                          strengthened to assure the appropriateness of
The purpose of the audit was to assist VHA in
                                                          some claims. As a result, VHA incurred
assessing the risks for abuse, fraud, and
                                                          unnecessary costs involving claimants who
unnecessary costs associated with certain types
                                                          inappropriately received concurrent WCP and
of WCP claims. The audit was completed as
                                                          VA compensation payments for the same injury.
part of the OIG’s continued effort to enhance the
                                                          Claimants were also inappropriately paid claims
effectiveness of VHA’s review and oversight of
                                                          with VHA funds even though they were non-
claims. Specifically, the audit reviewed VHA
                                                          VHA employees at the time injury occurred.
claims involving the following three high-risk
                                                          Claims involving deceased claimants also
areas:
                                                          needed better follow up and more timely
                                                          termination action to avoid inappropriate
Dual Benefits – Concurrent payments of VA
                                                          payments. Based on the audit results, we
and WCP compensation benefits for the same
                                                          estimate VHA has incurred or will incur about
injury.
                                                          $11.2 million in unnecessary costs associated
                                                          with claims in these three high-risk areas.
Non-VHA Employee – WCP claimants who
                                                          Additionally, the audit identified five WCP
were not employed by VHA at time work-
                                                          claims that potentially involved program fraud.
related injury occurred.
                                                          The OIG continues to work with VHA to target
Deceased WCP Claimants – Deceased WCP
                                                          program fraud and reduce costs. The OIG is
claimants whose compensation was not properly
                                                          currently developing a fraud awareness
terminated or continued entitlement to survivor’s
                                                          pamphlet for distribution to all VHA employees.
benefits was not properly verified.
                                                          The report includes recommendations to further
                                                          strengthen oversight and reduce VHA’s costs by
VHA is a major employer with the largest
                                                          ensuring appropriate payment of claims in high-
healthcare system in the United States that
                                                          risk areas. The Acting Under Secretary for
provides medical service at over 1,150 facilities.
                                                          Health concurred with the recommendations and
Costs for WCP claims by employees that result
                                                          indicated implementation actions are in process.
from injury sustained in the performance of duty
                                                          (Audit of High-Risk Areas in VHA’s WCP, 99-
are substantial. Under the Federal Employees
                                                          00046-16, 12/21/99)
Compensation Act injured employees can
receive WCP benefit payments for lost wages
and for medical treatment for the specific
disability associated with the injury. VHA’s FY
1999 payment for WCP costs to the Department
of Labor (DOL), who administers the Act, will
total about $129.2 million dollars and accounts
for about 95 percent of the Department’s WCP




                                                     41
Office of Audit

                                                          appropriate, or routinely monitored when in a
Veterans Benefits                                         bankruptcy status.
Administration
                                                          We concluded that LGS needed to improve its
                                                          quality review system. As LGS reorganizes, and
Issue: Loan Guaranty Service’s (LGS)
                                                          in some instances outsources its activities, it is
   quality review system.
                                                          essential that they maintain program integrity
Conclusion: Service needs to improve
                                                          through close oversight of not only their own
   its quality control system.
                                                          operations, but those of contractors and program
Impact: Assuring program integrity.
                                                          participants as well.
In FY 1998, VA reported $70 billion in
                                                          During our evaluation, management took steps,
guarantees outstanding on mortgages with a face
                                                          such as clarifying statistical quality control
value of $203 billion. VA reports it guarantees
                                                          requirements and resuming field station surveys,
approximately 300,000 mortgage loans per year.
                                                          which should improve their quality review
In addition, VA maintains a direct loan portfolio
                                                          system. We made a series of recommendations
that includes about 29,000 loans with an unpaid
                                                          to further strengthen quality controls over the
principal balance valued at $1.9 billion. LGS
                                                          loan guaranty program. The Under Secretary for
provides program policy, procedures, and
                                                          Benefits concurred with the findings and
operating guidance for VA’s home loan
                                                          provided acceptable implementation plans.
program.
                                                          (Evaluation of Loan Guaranty Service’s Quality
                                                          Review System, 99-00159-42, 2/28/00)
The purpose of our evaluation was to determine
whether LGS had an effective quality review
system. We focused on LGS’ internal control               Office of Financial
review and statistical quality control programs
as well as the activities of their lender                 Management
monitoring unit and oversight of the contractor
servicing the direct loan portfolio.                      VA’s Financial Statements
We identified several quality control weaknesses          Issue: VA’s Consolidated Financial
that required management attention.                          Statements (CFS) for FYs 1999 and
Management had not updated their management                  1998.
control plan, which should identify high-risk             Conclusion: Some assets may not be
areas, in over 5 years nor had they completed                adequately protected and resources
required internal control reviews of those areas             may not be properly controlled.
in over 3 years. LGS’ recently revised statistical        Impact: Improved stewardship of VA
quality control program had not identified a                 assets and resources.
significant number of deficiencies concerning
compliance with their policy and procedures.              Our audit report contains the OIG audit opinion
The lender monitoring unit had not issued timely          and assessment of VA's internal control structure
reports identifying loan underwriting                     and compliance with laws and regulations. Our
deficiencies. Finally, oversight of the contractor        audit opinion provides an unqualified opinion on
servicing VA’s direct loans had not ensured that          the Department’s CFS for FYs 1999 and 1998.
loans were actively serviced, foreclosed when             Our Report on Internal Control discusses three
                                                          material weaknesses concerning: (i) VA-wide




                                                     42
                                                                                         Office of Audit

information system security controls, (ii)                program managers. Action plans will be
Housing Credit Assistance (HCA) program                   developed for correcting each of the three
accounting, and (iii) fund balance with U.S.              material weaknesses. (Audit of the Department
Treasury reconciliations. The Department made             of Veterans Affairs CFS for FYs 1999 and 1998,
significant improvement to address previously             99-00006-46, 3/14/00)
reported information system security controls
and HCA program accounting issues. We
encourage the Department to continue their                “Please convey my sincerest
efforts and to complete correction of the                 appreciation to everyone on your staff
remaining open information security and HCA               who worked so diligently on this year’s
recommendations and the new recommendations               audit of our financial statements. We
concerning fund balance with U.S. Treasury                commend the efforts of your staff to
reconciliations. These internal control                   maintain a balance between cooperation
weaknesses expose VA to significant risks and             and independence throughout this
vulnerabilities. The Department reported the              effort.”
information systems security controls and the
HCA program accounting issues as material                          Assistant Secretary for Financial
weaknesses in their Federal Managers’ Financial                                       Management
Integrity Act (Public Law 97-255) reports for
FYs 1999 and 1998. In this report, we reaffirm            Issue: Public Law 104-208, Federal
our prior recommendations and have additional                Financial Management Improvement
recommendations addressing these weaknesses                  (FFMIA) Act of 1996.
and the reportable conditions.                            Conclusion: Correction of
                                                             noncompliance items is in-process.
Our Report on Compliance with Laws and                    Impact: Improved stewardship of VA
Regulations discusses the Department’s                       assets and resources.
noncompliance with Federal Financial
Management Improvement Act (Public Law                    Correction of noncompliance items is in process
104-208) requirements concerning HCA                      for items shown in our report on VA's
program financial management information                  Consolidated Financial Statements as being
systems, information system security, and cost            noncompliant with FFMIA requirements. VA
accounting standards. Except for these                    has taken a number of steps to establish a
noncompliances, the report concludes that for             comprehensive information system security
the items tested, VA complied with those laws             program and established a target date of FY
and regulations materially affecting the financial        2003 for completing corrective actions
statements. We also continued to identify                 concerning Department-wide information
noncompliance with one law that while not                 system security weaknesses. Corrective action
material to the financial statements, warrants            was completed on previously reported Housing
disclosure. This is the requirement for charging          Credit Assistance program credit reform
interest and administrative costs on                      accounting issues, but other areas where HCA
compensation and pension accounts receivable.             financial management information system are
                                                          noncompliant have target dates for completing
The Assistant Secretary for Financial                     corrective actions throughout FY 2000.
Management stated the results of the audit will           Previously reported target dates for completing
be shared with senior officials in VHA and                implementation of systems to fully comply with
VBA, as well as other interested VA staff and




                                                     43
Office of Audit

managerial cost accounting requirements                   21 United States Code, Section 1704 requires
changed from FY 1999 to FY 2000 for NCA and               that agencies responsible for implementing any
FY 2000 to FY 2001 for VHA.                               aspect of the “National Drug Control Strategy”
                                                          submit to the Director, Office of National Drug
Issue: Financial management.                              Control Policy, a detailed accounting for all
Conclusion: Management letters were                       funds expended by the agency for national drug
   issued to assist the Department in                     control program activities during the previous
   improving financial management.                        year. The statute also requires such accounting
Impact: Improved financial reporting                      be authenticated by the agency’s IG prior to
   and control.                                           submission.

As part of the CFS audit, we issued three                 We have reviewed the VA’s “Detailed
management letters addressing financial                   Accounting Submission” for FY 2000 relating to
reporting and control issues. The management              obligations on program activities. We
letters provided Department managers additional           concluded that: (i) estimated obligations
observations and advice that will enable the              reported for FY 1999 are not reliable as a
Department to improve accounting operations               consequence of methodological shortcomings
and controls. These issues included: (i) fund             associated with extrapolation of prior year data
balance with Treasury, (ii) application of agreed-        and unreliability of cost accounting data
upon procedures, and (iii) automated data                 produced by VA financial systems; and (ii) all
processing security.                                      activities conducted by VA having a drug related
                                                          nexus are not reflected in the drug methodology.
None of the conditions noted had a material               However, the costs associated with unreported
effect on the FY 1998 CFS, but correction of the          drug-related activities may not be material
conditions was considered necessary for                   relative to the aggregate costs reported.
effective operations. Where needed, appropriate           (Attestation of the Department of Veterans
adjustments were made to the financial                    Affairs “Detailed Accounting Submission” for
statements. ((i) Management Letter: Fund                  FY 2000, 00-00983-41, 2/23/00)
Balance with Treasury, Agency Location Code
36-00-12000, 98-00009-2, 10/1/99, (ii)                    Postaward Contract Reviews
Management Letter: Report on Agreed to
Procedures, 99-00008-25, 12/22/99, and (iii)
                                                          Issue: Contractor overcharges for
Management Letter: VA’s Minimum Password
Configuration Policy, 99-00003-33, 1/20/00))
                                                             pharmaceuticals and medical
                                                             supplies.
Issue: Attestation of VA’s accounting for                 Conclusion: Postaward audits and
   FY 1999 expenditures on national                          surveys disclosed overcharges.
   drug control program activities.                       Impact: Recovery of $2,283,146.
Conclusion: Estimated obligations
   reported in FY 1999 are not reliable                   • We completed four Public Law 102-585
   and all activities conducted by VA                     compliance reviews at pharmaceutical
   having a drug related nexus are not                    companies. For three of the four companies, we
   reflected in the drug methodology.                     discovered errors in the calculation of Federal
Impact: Financial reporting and control.                  ceiling prices that resulted in contract
                                                          overcharges. The companies agreed to pay
                                                          $1,785,816 to VA. We also made




                                                     44
                                                                                          Office of Audit

recommendations to all of the companies                   Preaward Contract Reviews
reviewed suggesting ways they could improve
their policies and procedures so that the                 Issue: Federal Supply Schedule vendors
Government and the companies could be assured                did not always offer best prices.
their systems were producing accurate Federal             Conclusion: Contractors can offer better
Ceiling Prices.                                              prices to VA.
                                                          Impact: Potential better use of
• A medical supply company remitted                          $20,533,527.
$495,550 to VA for contract overcharges
resulting from not disclosing accurate, complete,         • A preaward review of a pharmaceutical
and current pricing and discount information to           company’s offer resulted in potential savings of
the contracting officer during negotiations. The          $18,747,758.
company also failed to comply with the
provisions of the contract’s price reduction              • Preaward reviews of two wheelchair
clause. The company’s failure to disclose their           manufacturers’ offers resulted in potential
most favored customer discounts denied the                savings of $1,785,769.
Government the opportunity to negotiate more
favorable discounts, and their failure to disclose
                                                          Issue: Healthcare resource contracts.
price reductions to their comparable commercial
                                                          Conclusion: The VA has opportunities
customer denied the Government their
                                                             to negotiate reduced contract values.
contractual right to the better prices.
                                                          Impact: Potential better use of $451,945.
• A medical supply company made a
voluntary disclosure and refund offer of $1,656           • A preaward review of a proposal for scarce
to VA to correct price reduction violations on            medical specialists services concluded the
the contact. Our review showed the overcharges            contracting officer should negotiate reductions
amounted to $1,780, which the company                     to the proposed contract costs amounting to
remitted to VA.                                           $334,945. Another preaward review of a scarce
                                                          medical specialists services’ proposal concluded
                                                          the format of the contract was not in the best
Issue: VA claim against a bonding
                                                          interest of the VA and recommended the
   company.
                                                          solicitation be reissued using an FTE format.
Conclusion: VA overpaid for work
   performed by a contractor terminated
   for default.                                           • A preaward review of a proposal for
Impact: Recovery of $265,792.                             ambulance services resulted in savings of
                                                          $70,000.
The VA directed a bonding company to release
$265,792 to a contractor for work completed on
a major construction project at a VAMC. Our
review disclosed the VA inadvertently overpaid
the bonding company for completed work by a
predecessor contractor which the VA had
terminated for default.




                                                     45
Office of Audit

                                                         We concluded the organizational change
Office of Congressional                                  directed by the VA Secretary was not
Affairs                                                  implemented effectively or timely by the former
                                                         PDAS. The former PDAS did not follow
Issue: Allegations concerning the Office                 Department policies and procedures for
   of Congressional Affairs (OCA).                       implementing a major reorganization. Nor were
Conclusion: Action is needed to                          actions taken to ensure a budget increase was
   improve the operation and                             properly approved and executed for OCA in
   management of OCA and ensure a                        recognition of increased organizational
   more effective work environment.                      responsibilities. As a result of OCA not
Impact: Improved management of OCA.                      following the prescribed policies and
                                                         procedures, the adverse impact of budget
We substantiated the allegations received                reductions to other VA staff offices was never
through the OIG Hotline and during the audit.            appropriately addressed. The Assistant
OCA salary and expense accounts were over-               Secretary for Planning and Analysis concurred
expended by almost $390,000 in FY 1999. The              with the report recommendations to improve the
accounts were over-expended by hiring                    operation and management of OCA. (Audit of
consultants and temporary employees, and                 Allegations Concerning the VA OCA, 99-00055-
executing a reimbursable interagency work                12, 1/7/00, and Addendum Report: Audit of
detail, without sufficient funds in the approved         Allegations Concerning the VA OCA, 99-00055-
budget. OCA exceeded its FY 1999 travel                  47, 3/22/00)
budget and travel expenditures lacked adequate
justification to assess whether performance was          “I appreciate the professionalism your
consistent with OCA’s mission and strategic              office has demonstrated throughout the
goals because OCA did not require written                process.”
justification, such as trip reports to support
travel costs. We also found the budget, fiscal,                    Assistant Secretary for Planning
and management controls were not effectively                                          and Analysis
established or communicated to all staff to
ensure accountability and prevent employee
abuses.

Overall, we found a polarization exists between
a group of new hires and consultants with VA
career staff working in OCA. We found that
OCA staff morale is extremely low and there is a
strong sense of mistrust for the former Principal                    VA Congressional
Deputy Assistant Secretary (PDAS) for OCA                             Office headline
and fear of retaliation on the part of the VA
staff. Based on our interviews we conducted                  [photo not available electronically]
and our observations, we also concluded there
has been an ineffective use of staff resources in
OCA. New leadership strategies are needed to
address the polarized work environment in OCA
and to eliminate perceptions of favoritism.




                                                    46
                                                                                          Office of Audit

                                                         one-person security detail was $236. If the four
Office of the Secretary                                  individuals who traveled on the military aircraft
Issue: Allegations of use of travel,                     had flown commercial the total cost would have
   representation funds, and motor                       been $944.
   vehicles with respect to the
   Secretary.                                            The Secretary’s office did not abide by
Conclusion: The Secretary’s office did                   applicable OMB and General Service
   not abide by applicable regulations.                  Administration regulations governing use of
Impact: Integrity of the Office of                       Government aircraft, nor did the circumstances
   Secretary.                                            of the travel justify the use of Government
                                                         aircraft. We recommended the Secretary should
The OIG received a series of complaints                  ensure that the appropriate personnel in VA are
concerning the Secretary of Veterans Affairs.            trained in the provisions of OMB Circular A-
While a number of the issues addressed the               126, directed to apply it to the Department use
personal preferences of the Secretary or were            of Government aircraft, document the use of
seemingly a reaction to his style of management          these aircraft, and maintain the document for a
compared with previous Department Secretaries,           period of at least 2 years.
others were potentially more serious in nature.
We focused our review primarily on three                 We partially substantiated the allegation that the
significant issues: The Secretary’s travel               Secretary inappropriately used VA funds to host
expenses, particularly the use of military               an awards dinner for the Secretary of the Navy.
aircraft; the use of operating funds appropriated        The cost of the award to the Navy Secretary’s
for official reception and representation                spouse should not have been charged to
expenses associated with an awards dinner; and           appropriated funds. While the awards dinner
the leasing of motor vehicles for the executive          itself may fall within the broad latitude provided
motor pool.                                              for use of official reception and representation
                                                         funds, the expenditure of nearly one quarter of
We substantiated the allegation that the                 available funds to recognize a single individual
Secretary improperly used Government                     has fueled the perception of waste. This
(military) aircraft for flights to Alaska and            perception was reinforced by the fact that the
Louisiana. The cost of the Alaska round trip,            cost of this awards dinner was $283 per person.
which included the Secretary and a party of five,        In contrast, total expenditures for events like the
was $60,000. In addition to the Secretary’s              veterans service officers holiday party and
party, a security detail of two was assigned to          receptions at the White House honoring
travel separately to Alaska by commercial air at         veterans, who numbered far greater than the
a round trip cost of $717 each. If the travel of         number of guests at the awards dinner, were
the Secretary and the other five VA employees            about the same. We recommended that the
had also been booked on available commercial             Secretary should reimburse the Department for
aircraft at the same Government rate, their total        the $375 spent on awards for the Navy
scheduled airfare would have been $4,302.                Secretary’s spouse.
The Secretary and three others also traveled             The allegation that the Secretary misused
round trip by military aircraft to Louisiana at a        official Government vehicles by leasing a
cost to VA of $3,396. At the time of the report,         Cadillac with certain options was not
VA had not received a bill for the return trip.          substantiated.
The cost of commercial round trip airfare for the




                                                    47
Office of Audit

We discussed the recommendations and                      future work requirements; and (iii) identify areas
conclusions developed during the investigation.           of high risk to the Department that required
We believe the Secretary’s comments were                  attention. While the Department is taking
responsive to the investigation’s                         positive steps to transition to a new wide area
recommendations and conclusions.                          network, the audit identified issues in the current
(Administrative Investigation, Use of Travel,             IDCU contract that adversely impacted VA
Representation Funds and Motor Vehicles with              operations and costs.
Respect to the Secretary of Veterans Affairs, 99-
00011-3, 10/1/99)                                         The audit found that the IDCU system and
                                                          contract were no longer meeting VA’s
                                                          telecommunication requirements effectively or
                                                          efficiently. Key audit finding areas included: (i)
                                                          contract modifications totaling $142 million
                                                          were not supported with adequate
                                                          documentation to explain why the contract
                                                          increases were fair and reasonable; (ii) VA spent
                 West headline                            approximately $3.1 million leasing and
                                                          maintaining an excessive number of unused
      [photo not available electronically]                ports over the life of the contract; (iii) VA needs
                                                          to recover over $1 million in payments to the
                                                          contractor for the performance management
                                                          system that was not accepted; (iv) VA saved
                                                          $944,891 by terminating the acquisition support
                                                          contract in response to our audit results; and, (v)
                                                          VA could save an estimated $60,000 if
                                                          consultant services were acquired through
                                                          competitive means.
Multiple Office Action
                                                          We also advised the Department that it needed
Procurement Issue                                         to conduct a formal risk assessment to
                                                          adequately assess, manage, and mitigate the
Issue: Procurement Initiatives.                           levels of risk associated with transitioning to a
Conclusion: Key transition milestones                     new wide area network solution. In addition, we
   were delayed that caused VA to                         identified some key business decisions made by
   extend the use of the existing                         the contracting officer at the time the contract
   contract that had unfavorable prices                   was awarded that negatively impacted VA’s
   and terms, and lacked effective                        ability to effectively administer this contract
   contract administration.                               over its 10-year life cycle. The Acting Assistant
Impact: Better use of more than $147                      Secretary for Information and Technology and
   million.                                               the Assistant Secretary for Financial
                                                          Management concurred with the report
The purpose of the audit was to: (i) review the           recommendations directed to their offices and
Integrated Data Communications Utility (IDCU)             provided appropriate implementation actions.
contract award, administration, and price                 (Audit of Procurement Initiatives for VA’s IDCU
reasonableness; (ii) review efforts to replace the        Telecommunications Support, 98-00057-1, 10/1
IDCU contract and ensure equitable pricing of             99)




                                                     48
                                                                                        Office of Audit

                                                        available automated inventory controls. Instead,
“Thank you for all the work you and your                the VAMCs and the DDC relied on excess
staff put into this IDCU audit. We believe              inventory as a substitute for aggressive
the results improved the overall                        inventory management.
operations of this office.”
                                                        We recommended VHA and OA&MM: (i)
     Director, Acquisition Operations and               require VAMCs and the DDC to establish goals
                         Analysis Service               for reducing inventories and to use automation
                                                        for managing their inventories, (ii) monitor
                                                        progress in reducing inventories, (iii) encourage
Supply Inventories
                                                        the use of alternative procurement methods that
                                                        help reduce inventories, and (iv) enhance
Issue: Prosthetic supply inventories.
                                                        automated inventory management systems to
Conclusion: VAMCs and the Denver
                                                        provide needed controls. We estimated that
   Distribution Center (DDC) could
                                                        better management could reduce VAMC
   reduce large excess inventories by
                                                        prosthetic supply inventories by $31 million and
   more effectively using automated
                                                        DDC inventories by $528,000. The Acting
   inventory management techniques.
                                                        Under Secretary for Health and the Assistant
Impact: Better use of $31.4 million.
                                                        Secretary for Financial Management concurred
                                                        with the audit recommendations and provided
We performed an audit to evaluate how
                                                        acceptable implementation plans. (Audit of
effectively these organizations managed their
                                                        Management of Prosthetic Supply Inventories at
inventories of prosthetic supplies. In FY 1998,
                                                        VAMCs and the DDC, 99-00188-13, 11/15/99)
VA prosthetic supply purchases totaled $368
million. At any given time during FY 1999, the
value of VA's prosthetic supply inventories was
about $61 million. VHA and OA&MM have                   “Your audit team which conducted the
encouraged VAMCs and the DDC to modernize               survey at our center was most
and improve inventory management. However,              responsive in answering questions and
VAMCs and the DDC still maintain large                  providing timely results and
prosthetic supply inventories that far exceed           recommendations. Their conduct was
requirements for current operating needs. Our           professional and their approach
audit at five VAMCs with combined prosthetic            exemplary.”
supply inventories valued at $2.7 million found
that about $1.3 million (48 percent) was excess.                Assistance Secretary for Financial
At the DDC, about $528,000 (49 percent) of the                                      Management
$1.1 million was excess.

At both the VAMCs and the DDC, excess
inventories occurred because inventory
                                                        Implementation of GPRA
managers did not adequately monitor stock               in VA
levels, made unnecessary large quantity
purchases, and did not effectively manage               Congress attaches great importance to effective
reductions in item demand. These deficiencies           implementation of the Government Performance
could have been avoided or mitigated if the             and Results Act (GPRA). The OIG has a
VAMCs and the DDC had more effectively used             significant role to play in informing both VA




                                                   49
Office of Audit

and Congress on issues concerning efforts to               Accuracy of Data Used to Measure Claims
implement GPRA. As background for our                      Processing Timeliness, 9R5-B01-005, 10/15/98.
efforts in this area, it is relevant that VA was an
OMB-designated pilot agency for performance                Audit of Data Integrity for Veterans Claims
measurement. As such, VA began establishing                Processing Performance Measures Used for
performance measures for its programs and                  Reports Required by the GPRA, 8R5-B01-147,
operations in FY 1992.                                     9/22/98.

In FY 1998, at the request of the Assistant                Accuracy of Data Used to Measure Percent of
Secretary of Planning and Analysis, we initiated           Veterans with a Burial Option, 9R5-B04-103,
a multi-stage audit to examine the integrity of            5/12/99.
the data used for GPRA reports. This project
involves a series of audits to evaluate VA’s most          Accuracy of Data Used to Count the Number of
critical GPRA performance measures for                     Unique Patients, 9R5-A19-161, 9/20/99.
validity, reliability, and integrity of the data.

Current Status

As part of our ongoing assessment to validate
the accuracy and reliability of VA’s
performance measures in accordance with
GPRA, the OIG is auditing two VHA
performance measures and one VBA
performance measure. These measures are:

VHA Performance Measures: Prevention index
and addiction severity index.

VBA Performance Measure: Foreclosure
avoidance through servicing.

We will issue reports on each performance
measure as audits are completed. GPRA related
audit reports to date include:

Review of Implementation of VHA’s Strategic
Plan and Performance Measurements,
5R1-A19-026, 2/6/95.

Review of Implementation of NCS’s Strategic
Plan and Performance Measurements, 5R1-B18-
082, 7/6/95.

Review of Implementation of VBA’s Strategic
Plan and Performance Measurements,
5R1-B18-100, 8/25/95.




                                                      50
OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                          Veterans Health
    Promote the principles of continuous                   Administration
    quality improvement to provide effective
    inspections, oversight, and consultation to            Nationwide Healthcare Program
    enhance and strengthen the quality of VA’s
    health care programs for the well being of
                                                           Reviews
    veteran patients.
                                                           Issue: Management and coordination of
                                                              the Hepatitis C virus initiative.
Resources                                                  Conclusion: Hepatitis C risk evaluation
                                                              and screening mechanisms need
The Office of Healthcare Inspections (OHI) has
                                                              improvement.
34 FTE assigned to staff headquarters and field
                                                           Impact: Better management and care of
operations. To better utilize our staff in carrying
                                                              veterans who require care.
out the mission of the office, the OIG
established five OHI regional offices
                                                           In response to a request from the House
nationwide. OHI inspectors commit all of their
                                                           Committee on Veterans’ Affairs, we conducted
staff time to healthcare inspections and
                                                           an evaluation of the treatment of veterans who
evaluation issues.
                                                           require hepatitis C virus (HCV) care in VHA
                                                           medical facilities. We reviewed: (i) VA’s
Overall Performance                                        practice of prescribing combination drug therapy
                                                           for patients when indicated, and whether any
Output                                                     VA entity rations HCV treatment; (ii) if there
• We published 6 final reports during the                  are problems with the timely administration of
reporting period.                                          the combination drug therapy; (iii) who
                                                           instructed a physician at a VAMC to ration
• We also provided oversight of 59 cases on                treatment to veterans under his care; and (iv) if
inquiries sent to VHA program offices and the              this direction was given from VA’s headquarters
Medical Inspector for review and disposition               or the responsible VISN office.
action.
                                                           We did not find any evidence of HCV treatment
Outcome                                                    rationing at the eight VAMCs that we inspected.
• We made 12 recommendations, focused on                   All of the clinicians whom we interviewed
improving both clinical care delivery and                  indicated that they had all of the necessary
management efficiency.                                     means to test, evaluate, and treat patients.
                                                           During the course of the evaluation, we became
Customer Satisfaction                                      aware of a situation at a VAMC in which not all
• Program managers’ satisfaction and                       of the veterans who needed therapy may have
acceptance level of our work was an average of             received it promptly due to fiscal constraints.
4.6 on a 5.0 scale for the year.                           The VISN director promptly remedied that
                                                           situation after he became aware of it. VAMC
                                                           managers and clinicians whom we interviewed
                                                           denied that VHA or VISN officials had ever
                                                           negatively influenced their efforts to




                                                      51
Office of Healthcare Inspections

accommodate the rapidly growing workload.                    committee have been diligent and
VHA issued treatment guidelines and has                      conscientious in the oversight of
provided forums for ongoing clinical education               research using human subjects.
and guidance. VHA issued directions that all              Impact: Ability to ensure patient safety
veterans seeking care in a VHA facility are to be            in research studies.
evaluated for HCV risk. However, we found
this requirement is not fully implemented                 A complainant alleged several research
because VAMCs are not uniformly screening all             improprieties and improper use of informed
veterans who seek care. Some facilities did not           consent. The complainant also alleged that
have any risk factor screening procedures for             inappropriate constraints were placed on the role
new patients.                                             and responsibilities of the radiation safety
                                                          officer. OHI inspectors reviewed these and
While VHA’s full implementation of the HCV                other alleged research improprieties, and during
initiative will take time, uniformity of risk-            the course of the inspection, issues arose that
evaluation and screening mechanisms needs to              were related to the use of informed consent
be addressed soon. The impact of HCV-related              forms and their present content. We also
workload is an increasing concern to managers             identified a serious matter concerning the lack of
in VHA facilities. VAMC managers and                      confidentiality and privacy of human subject
clinicians whom we interviewed, unanimously               research records.
expressed their concerns to us about the
anticipated impact on their facilities’ resources,        OHI inspectors were unable to substantiate the
and particularly about their future abilities to          allegations of research improprieties and the
treat all of the veterans who are expected to seek        concerns about the improperly managed
care and treatment of HCV.                                informed consents. In particular, the four
                                                          research projects that the complainant identified
We recommended VHA conduct a cooperative                  as suspect were conducted according to all of the
study at multiple facilities to refine and improve        pertinent regulations governing the conduct of
HCV care and treatment. We also                           research on human subjects. However, the
recommended VHA establish a sponsored                     informed consent forms, while appropriate,
national policy or advisory board that would              needed to be updated, consistent with applicable
include nationally recognized clinical experts in         prevailing standards and policy. Inspectors
the field. The Acting Under Secretary for                 identified several violations of confidentiality
Health concurred in principle or with                     and privacy of patient records and research
qualification on the report recommendations.              documents. Specific actions are needed to
We will continue to work with the VHA staff on            protect these sensitive records from
these issues. (Evaluation of the Department of            inappropriate disclosures. Finally, we
Veterans Affairs VHA Hepatitis C Initiative, 99-          determined that the radiation safety officer has
00764-4, 10/15/99)                                        an appropriate scope of duties. His
                                                          responsibilities are consonant with the pertinent
Healthcare Hotline Inspections                            guidance and regulations promulgated by the
                                                          Nuclear Regulatory Commission and the VA.
Issue: Administration and oversight of
   the radiation safety program and the                   We made three recommendations. The Medical
   Research Service.                                      Center Director concurred with the
Conclusion: The VAMC’s Research                           recommendations and has taken action to update
   Service and the Human Studies Sub-                     the informed consent forms. The other two




                                                     52
                                                                      Office of Healthcare Inspections

recommendations are unimplemented pending                  concurred with this recommendation, and
the receipt of information on plans to conduct an          implemented acceptable action plans.
investigation of the issues of privacy and                 (Inspection of Alleged Substandard Patient
confidentiality and our receipt of the                     Care, VAMC Miami, FL, 98-00501-7, 10/28/99)
investigative report. (Alleged Research
Improprieties and Informed Consent Issues,
Jerry L. Pettis Memorial Veterans Hospital,                “This was an extremely difficult and
Loma Linda, CA, 97-00680-6, 10/7/99)                       complex situation …. OHI’s thorough
                                                           review and analysis of this case was
Issue: Allegations of substandard care                     highly professional and brought the
   and a “cover-up.”                                       matter to closure.”
Conclusion: Inspectors identified lapses
   in care.                                                              Miami Medical Center Director
Impact: Increased collaboration between
   physicians taking care of surgical                      Issue: Alleged substandard care.
   patients and the medical consultants                    Conclusion: Clinicians should have
   for those patients.                                        stabilized the patient in the
                                                              Emergency Room and transferred
We reviewed allegations of substandard care                   him to a trauma center.
provided to a patient at VAMC Miami, and an                Impact: Strengthened admission
alleged “cover-up” of these deficiencies. We                  policies.
concluded there were indeed lapses in the
patient's care and the documentation of his care           A complainant alleged her father died at the
in the medical record, and we delineated those             James A. Haley Veterans Hospital because he
issues in our report. Nevertheless, the medical            received substandard care after being involved
record does not establish that these lapses in care        in a serious car accident.
were mainly responsible for the patient’s death,
as alleged. Overall, there is not a clear cause            We concluded that, fundamentally, an elderly
and effect relationship between care and                   patient who had numerous existing medical
documentation lapses, and the medical and                  problems, was not an appropriate admission to
surgical emergencies, which led ultimately to the          the hospital despite the outstanding credentials
patient's death. We also found that                        of the clinical providers. The patient had
correspondence with the patient’s family, which            sustained multiple injuries as a result of an
generally reassures the patient's family that care         automobile accident of such severity that the
was good, did not always correlate with the                patient had to be extricated from his vehicle.
internal findings and recommendations of a very
thorough quality assurance review and a board              The Medical Center Director disagreed with
of investigation, both of which were performed             several points in our review, regarding such
to assess the patient’s care. This may have left           issues as the stability of the patient. We believe
the unfortunate impression of a “cover-up.”                these are areas of differing clinical interpretation
                                                           and judgment. We made a two-part consultative
We recommended the Medical Center Director                 recommendation and the Director fully
continue to aggressively emphasize close                   addressed all issues. (Inspection of Alleged
collaboration between physicians taking care of            Inadequate Trauma Treatment, James A. Haley
surgical patients and the patients’ medical                Memorial Hospital, Tampa, FL, 98-00600-10,
consultants. The Medical Center Director                   11/4/99)




                                                      53
Office of Healthcare Inspections

Issue: Domiciliary care program.                            Unexpected Patient Deaths and Review of
Conclusion: Improvements were needed                        Domiciliary Operations, VAMC Biloxi, MS, 99-
   to provide a safer environment for                       00623-19, 1/20/00)
   patients and employees.
Impact: Improved domiciliary                                Issue: Alleged inappropriate plastic
   operations.                                                 surgery.
                                                            Conclusion: Surgeons acted properly in
A veteran, who was a resident in the VAMC                      performing surgery.
Biloxi domiciliary substance abuse treatment                Impact: Appropriate use of surgical
aftercare program, stabbed to death two other                  resources.
veterans who had been discharged from the
domiciliary earlier in the year. The incident               A complainant alleged a patient received plastic
reportedly occurred during an apparent drug                 surgery primarily for cosmetic and aesthetic
exchange in a private parking lot across the                reasons, and the surgery was performed in order
street from the VAMC grounds. We conducted                  for physicians-in-training to obtain experience in
an on-site review of the domiciliary operations,            the procedure. In conducting this VAMC
including the aftercare program, in order to                review we addressed numerous other concerns
determine if this violent act involving drugs was           alleging the inappropriate performance of plastic
an isolated incident or if it represented a possible        surgery procedures. These concerns focused on
need for improvement in safety measures.                    both the specifically referenced patient, as well
                                                            as the plastic surgery section in general.
We found that, at the time of our inspection, the
Director and her senior staff had not                       We concluded the primary indication for the
implemented or otherwise addressed previous                 patient’s plastic surgery was a traumatically
recommendations, aimed at improving                         incurred nasal obstruction in conjunction with
domiciliary operations, made by internal                    facial distortion. These conditions, in
reviewers. We also found communications and                 combination, produced symptomatic upper
coordination between the Gulfport substance                 airway pathology. While the patient may have
abuse residential rehabilitation treatment                  achieved some incidental and secondary
program and the domiciliary aftercare program               cosmetic benefits from the surgical procedures,
were not effective and nearly non-existent.                 the primary indications were medical. We also
We concluded management needed to strengthen                reviewed the indications for all operations
domiciliary controls for ensuring that patients             credited to the plastic surgery section in FY
and employees are safe, and to provide a more               1999. All 134 plastic surgery procedures
effective therapeutic environment in the                    performed were permissible under applicable
aftercare program. Clinical managers of the                 VA regulations.
extended care and mental health product lines
needed to further develop and implement plans               The Medical Center Director concurred with our
to maximize the coordination and continuity of              recommendations and implemented appropriate
the two phases of substance abuse treatment.                corrective actions. (Inspection of Alleged
Domiciliary employees at all levels should have             Inappropriate Plastic Surgery, VAMC
input into this process.                                    Washington, DC, 99-00859-36, 2/22/00)

The Medical Center Director concurred with the
recommendations and provided responsive
implementation plans. (Inspection of Allegedly




                                                       54
OFFICE OF MANAGEMENT &
ADMINISTRATION
Mission Statement                                        strategic planning for all OIG information
                                                         technology requirements. The Division also
    Promote OIG organizational effectiveness             provides statistical support services to all OIG
    and efficiency by providing reliable and             components and maintains the Master Case
    timely management and administrative                 Index (MCI) system, the OIG’s primary
    support, and providing products and                  information system for case management and
    services that promote the overall mission            decision making.
    and goals of the OIG. Strive to ensure that
    all allegations communicated to the OIG              IV. Resources Management Division - The
    are effectively monitored and resolved in a          Division is responsible for OIG financial
    timely, efficient, and impartial manner.             operations, including budget formulation and
                                                         execution, OIG personnel management, and all
The Office of Management and Administration              other OIG administrative support services.
is a diverse organization responsible for a wide
range of administrative and operational support          Resources
functions. The Office includes four Divisions:
                                                         The Office of Management and Administration
I. Hotline and Data Analysis Division - The              has 51 FTE allocated to the following areas.
Division is responsible for determining action to
be taken on allegations received by the OIG
Hotline. The Hotline section receives thousands
                                                                                     
of contacts annually, mostly from veterans, VA                                      		
employees, and Congressional sources. The                     	
              
                                                               
work includes controlling and referring many                     
cases to impartial VA components having
jurisdiction. The Data Analysis section provides
automated data processing support, such as
computer matching and data extraction from VA                    		
data bases.                                                      	
              
	
                                                                                        !
                                                                                         "	

II. Operational Support Division - The Division                                            #
does followup tracking of OIG report
recommendations; Freedom of Information Act
releases; strategic, operational, and performance
planning; and IG reporting and policy
development.

III. Information Technology Division - The
Division manages nationwide information
technology support, systems development and
integration, and represents the OIG on numerous
intra- and inter-agency organizations and does




                                                    55
Office of Management & Administration

I. HOTLINE AND DATA
ANALYSIS DIVISION                                                          
                                                                           	        
                                                                                       	

Mission Statement                                                                         
                                                                                          
                                                                                               
    Ensures that allegations of fraud, waste,                                              
    abuse, and mismanagement are responded                                               
    to in an efficient and effective manner.                                                  		
    Provides automated data processing                            
                                                                  
    technical support to all elements of the
    OIG and other Federal Government
    agencies needing information from VA
    files.                                               Overall Performance
The Hotline section operates a toll-free                 During the reporting period the Hotline received
telephone service five days a week, Monday               7,452 contacts. Of this number, 438 cases were
through Friday, from 8:30 AM to 4 PM Eastern             opened. The OIG reviewed 206 of these and the
Time. Phone calls, letters, and e-mail messages          remaining 232 cases were referred to VA
are received from employees, veterans, the               program offices for review.
general public, the Congress, General
Accounting Office, and other Federal agencies            Output
reporting issues of fraud, waste, and abuse. Due         • During the reporting period, Hotline staff
consideration is given to all complaints and             closed 256 cases, of which 79 contained
allegations received; mission-related issues are         substantiated allegations (31 percent). The
addressed by OIG or other Departmental staff.            Hotline staff opened 38 cases and generated 136
                                                         letters responding to inquiries received from
The Data Analysis section provides automated             members of the Senate and House of
data processing technical support to all elements        Representatives.
of the OIG, and other Federal and governmental
agencies needing information from VA files.              Outcome
The section is physically located at the VA              • VA managers imposed 39 administrative
Automation Center in Austin, Texas.                      sanctions against employees and took 40
                                                         corrective actions to improve operations and
Resources                                                activities as the result of these reviews. The
                                                         monetary impact resulting from these cases
There are 20 staff positions allocated to Hotline        totaled $1,695,283. Data Analysis staff’s
and Data Analysis Division. In addition to the           support work with other OIG elements resulted
Division director, there are 11 employees in the         in $2.8 million in recoveries for the
Hotline section, and 8 employees in the Data             Government.
Analysis section, which provides support to all
OIG operating elements. The following chart
shows the percent of resources utilized by
various program areas.




                                                    56
                                                          Office of Management & Administration

                                                         service allowed an employee who had worked
A. HOTLINE SECTION                                       overtime to be driven in a Government vehicle
                                                         to his parked car. The new police chief
The Hotline section’s most significant leads are         counseled the former acting chief, a lieutenant in
referred to other OIG elements. Hotline staff            the police service, on the proper use of a
also retain oversight on a number of other cases         Government vehicle.
that are referred to VA program officials for
resolution.                                              • A VAMC review substantiated allegations
                                                         of employee misconduct. A financial resources
The Hotline section worked with VA program               management supervisor was admonished for
offices on allegations concerning patient care           soliciting contributions from her subordinates
and services, quality of care issues, employee           for a “bosses day” gift. The manager of the
misconduct, outside employment concerns,                 office was admonished for accepting the gift
contracting activities, Government equipment             purchased with the solicited contributions. The
and supplies, time and attendance issues, and            manager reimbursed the employees who
allegations of inappropriate travel claims.              contributed money for the gift. Both supervisors
Hotline staff also worked with VBA on                    were counseled on ethics rules related to gifts.
allegations concerning the payment of
compensation and pension to incarcerated
                                                         • A VAMC review substantiated the
veterans, and inappropriate benefits awarded to
                                                         allegation that an employee displayed religious
veterans and beneficiaries that were not entitled
                                                         pictures, crucifixes, and symbols on the walls of
to receive payments.
                                                         his office. Management counseled the employee
                                                         and directed him to remove any religious icons
The following are some examples of Hotline-
                                                         or pictures from the walls of his office.
prompted reviews that were closed during this
reporting period.
                                                         • A VAMC review substantiated an allegation
                                                         of vehicle misuse. An assistant chief directed a
Veterans Health                                          subordinate to transport a sick coworker to a
                                                         local hospital in a Government vehicle. The
Administration                                           assistant chief received a 30-day suspension.

Employee Misconduct                                      • A Hotline-prompted VAMC board of
                                                         investigation substantiated misconduct
• A VAMC review substantiated allegations                allegations against two engineering service
of threats of physical violence, creation of a           supervisors. One supervisor used profanity and
hostile work environment, use of profane                 made derogatory statements towards an
language, and harassment towards a nutrition             employee. Management disciplined the
and food service employee by four of her co-             supervisor. The other supervisor was found to
workers. VAMC management suspended one                   have misused a Government vehicle and abused
employee for 14 days, another for 10 days, and           his leave. That supervisor was suspended for 39
another for 5 days. One other employee                   days and was given a last chance agreement. He
received a reprimand.                                    subsequently failed to adhere to the agreement
                                                         and resigned after being given a notice of
• A VAMC review resulted in a substantiated              removal.
allegation regarding misuse of a Government
vehicle. The acting chief, police and security




                                                    57
Office of Management & Administration

• A VISN review conducted by a regional                   Quality of Care
counsel substantiated conflict of interest and
other ethical violation allegations involving a           • A VAMC review prompted by a Hotline
VAMC service chief. The review found the                  inquiry found that a physician assistant had
service chief had been inappropriately detailed           improperly completed a state application for
for a 2-year period to a non-profit organization          handicapped parking for a veteran, when a
that was building a VAMC guesthouse. As a                 physician should have completed it. The review
result, management terminated the service                 also found the pharmacy misspelled the doctor’s
chief’s detail and counseled him for his fund             name on a veteran’s prescription. The physician
raising activities for the non-profit guesthouse.         assistants in the surgical service and the
                                                          pharmacy employees were counseled on these
• A VAMC review at a satellite outpatient                 errors. Additionally, based on the review’s
clinic substantiated allegations of employee              findings, the nurse manager discussed with her
misconduct and time and attendance abuse. The             staff corrective actions regarding staff attitude,
review found employees brought children and               professionalism, food tray issues, linen, and
pets to work and took extended lunch breaks.              medication.
VAMC management revised clinic policies and
communicated the new policies to all                      • A VAMC review substantiated an allegation
employees.                                                that a veteran was prescribed the wrong
                                                          medication by a VA nurse practitioner. The
• A VAMC review found an employee                         pharmacy manager cancelled the prescription
misused her Government e-mail account. The                and the incident was reported.
employee distributed a chain-letter message VA-
wide using the Government email system. In                • A VAMC admitted that dental patients were
order to prevent future occurrences, VAMC                 experiencing unreasonable delays in treatment
management issued a memorandum regarding                  due to a decision to close a satellite dental clinic
the use of electronic mail. Management also               and shift resources to the VAMC. Management
counseled the employee who initiated the chain-           decided to reopen the clinic and staff it with a
letter e-mail.                                            part-time dentist, a hygienist, and a dental
                                                          assistant.
• A review at a VAMC substantiated an
allegation of misuse of a VA e-mail account by a          • A VAMC review found that two VAMC
probationary employee. The employee was                   nurses failed to consult with a veteran’s
using her e-mail to harass a former VAMC                  physician prior to providing the state with a
patient. Management terminated the employee.              medical statement regarding the veteran’s
                                                          driving privileges. As a result, the veteran’s
• A VAMC review found that a proposed                     driver’s license was revoked. The VAMC
reorganization of the engineering service could           management counseled the nurses and worked
have resulted in retaliatory demotion of a service        with the state to have the veteran’s driving
supervisor. Based on this finding, the VAMC               privileges restored.
cancelled the reorganization and counseled the
chief of engineering.                                     • A VAMC found a patient was improperly
                                                          prescribed a drug even though his chart clearly
                                                          indicated he was allergic to the drug. Neither
                                                          the prescribing doctor nor the pharmacist noted
                                                          the error. The VAMC instituted training for all




                                                     58
                                                            Office of Management & Administration

clinical staff initiated to prevent a recurrence of        processes and documentation. A fall prevention
this error.                                                program, developed for long term care, was
                                                           implemented in the acute care area.
• A VAMC review substantiated the
allegation of negligence in the handling of a              • A VAMC confirmed a veteran was
patient's medical records. The review                      improperly billed for medical services. The
determined clinical staff allowed the patient to           medical center has issued an $800 credit to the
carry his progress notes to his next scheduled             veteran and a letter of apology for the error.
clinic stop, without placing the material in a
sealed envelope. The facility is re-emphasizing            Diversion of Funds
medical record confidentiality and providing
release of information training to staff.                  • A Hotline prompted review found a VAMC
                                                           failed to transfer user fees to the U.S. Treasury
• A VAMC review substantiated an alleged                   as required by VA policy. A VISN audit
patient safety violation. The review found a               conducted at the request of the Hotline found
wheelchair-confined veteran had been trapped               that for the past five years, the VAMC had
between the automatic doors of the medical                 collected $38,650 in user fees from movie and
center. The incident was immediately reported              television production companies. The VISN
to the safety officer, who had the door delay and          ordered the VAMC to comply with VA policy
sensitivity adjusted to give wheelchair patients           and transfer the fees to the U.S. Treasury as
or patients with limited mobility more time to             required.
get through the doors.
                                                           • A VHA review resulted in partly
• A VAMC review found that poor                            substantiating an allegation regarding the
communications with a patient and his family               diversion of funds. The acting chief information
and the failure to report a potentially volatile           office’s review found that $1.6 million had been
situation to VA police in a timely manner                  inappropriately diverted into their budget instead
contributed to a brawl between the patient, his            of being returned to VHA. The funds were
spouse, and VAMC employees. Admissions                     returned to the VHA budget and new oversight
procedures have been amended to include                    processes were established to prevent
written explanation of patient rights, and staff           recurrence. The $1.6 million returned to the
will review policies regarding admissions,                 VHA budget represents funds that could be
communications, boundaries, responsibilities,              better used for patient care.
and issues of chain of command.
                                                           Government Equipment and Supplies
• A review determined a patient’s daughter
experienced unnecessary delays in having her               • A VAMC review substantiated an allegation
father transferred to a VAMC. The VAMC’s                   that a supervisor misused an employee’s
management revised their patient transfer policy           Government credit card. The chief, voluntary
to prevent recurrence of this problem.                     service, signed the credit card receipt in lieu of
                                                           her secretary. The supervisor was counseled.
• A VAMC review substantiated a safety
allegation concerning a patient who fell out of            • A VAMC review found a machine shop
his bed as a result of a stroke. The fall did not          foreman was using Government equipment to
cause injury to the patient; however, the review           make parts for his private airplane. However, he
team identified opportunities to improve                   used his own materials and did the work on his




                                                      59
Office of Management & Administration

own time. Management counseled the foreman                 • A VAMC found the chief, respiratory
about using Government equipment for his                   therapy, had inadequately supervised
personal use.                                              procurement-related activities in his office. As a
                                                           result, management established new inventory
• A Hotline referral to a VAMC resulted in a               measures and changed purchasing procedures to
finding that a VA periodontist violated the                avoid the appearance of procurement
standards of ethical conduct for employees of              improprieties. The chief was counseled on his
the executive branch when he took home                     procurement responsibilities.
professional samples. Upon being made aware
that his actions constituted an ethics violation,          • A VAMC review concluded a volunteer
the periodontist returned the items.                       driver may have operated a Government vehicle
Management counseled the periodontist.                     in an unsafe manner and nearly injured a
                                                           pedestrian. As a result, the voluntary service
• An investigation at a VAMC found that                    director terminated the volunteer driver’s
procedures used to ship cans of a dietary                  assignment.
supplement from a Consolidated Mail-Out
Pharmacy could have resulted in damage to the              Outside Employment
contents of the package. Shipping procedures
were altered to further reinforce packages                 A Hotline-prompted review confirmed
containing cans of dietary supplement.                     allegations that VAMC staff performed work for
                                                           a non-profit research foundation while on VA
• A VISN review at a VAMC substantiated                    time and used VA supplies. VAMC
allegations that an $80,000 densitometry                   management counseled the supervisor and an
machine had been largely unused for nearly a               employee for misusing Government property
year. The chief of radiology service at that time          and time.
removed the one individual who had been
performing these tests. A new chief, radiology             Contracting Activity
service, was hired and made arrangements for
the tests to be performed at another hospital until        • A VISN inquiry substantiated an allegation
the services could be reinstituted at the VAMC.            that a home health care aide did not receive
The studies were reinstituted at the VAMC and              payment for services rendered. A check for
continue to be available at the other hospital for         $2,052 was issued to the home health care aide.
convenience of the patients. In addition, the
VAMC has initiated site training for employees             • A VAMC review substantiated an alleged
to ensure appropriate coverage.                            false claim by a contractor. A veteran referred
                                                           to the affiliated university hospital by the
• A VAMC review substantiated an allegation                VAMC was subsequently billed by the
that a shift supervisor was stealing oxygen from           university for a procedure paid for by the VA.
oxygen tanks held in storage. The supervisor               The university also referred the veteran to a
indicated he was attempting to alleviate                   collection agency for non-payment. The VA
symptoms of migraine headaches. The                        issued a letter to the contractor advising that
employee was given a written counseling and                such third party billing is not allowed.
advised that in future he should seek assistance           Additionally, the VAMC issued a letter of
from the employee health unit.                             apology to the veteran and sent a copy of all
                                                           correspondence to the collection agency.




                                                      60
                                                            Office of Management & Administration

Personnel Violations                                       • A VARO field examiner concluded a
                                                           veteran’s funds were being mismanaged by his
A VAMC review found that because of staff                  son, the VA fiduciary. The VARO appointed a
shortages, a volunteer was covering the patients’          new fiduciary for the veteran.
library. VAMC management acted to ensure
that a library employee is always present if               • A VARO review found a veteran continued
either the patients’ library or the medical library        to receive additional compensation benefits for
is open. However, if either library cannot be              his ex-spouse after they were divorced. The
staffed on a given day, one library may have to            veteran’s ex-spouse was removed from his
be closed.                                                 award when the veteran failed to respond to the
                                                           VARO’s due process letter. The veteran was
Ethical Improprieties                                      assessed an overpayment of $3,075.

A VHA review found that the participation of               Benefits Payments to Incarcerated
high level VA Central Office and VHA officials             Veterans
in quarterly receptions hosted and paid for by
various veterans service organizations created             A VARO investigation substantiated the
the appearance of a conflict of interest and a             allegation that a veteran is receiving
potential violation of ethical conduct standards.          compensation benefits while incarcerated. The
As a result, management terminated the practice            veteran's benefits will be reduced, resulting in a
of requesting veterans service organizations to            savings to the Government of $18,495 over the
host receptions for the senior VA officials.               length of the incarceration.

Veterans Benefits                                          Privacy Issues

Administration                                             A VARO review substantiated a Privacy Act
                                                           violation. The VARO mailed the complainant
Receipt of VA Benefits                                     his own records and those belonging to a second
                                                           veteran. In addition, the envelope that contained
• A VARO review found that a VA pensioner                  the records was not sealed. The supervisor and
failed to properly report income to the VA. A              his seven employees in the VARO’s Privacy Act
VA field examiner determined the pensioner                 office were counseled to adhere to procedures
was a part owner of a business. When the                   and to make sure all envelopes are sealed
veteran failed to produce copies of his Federal            securely.
income tax statements on request, the VARO
terminated the veteran’s pension benefits                  Customer Service
retroactive to November 1998. This resulted in
an overpayment of approximately $21,563.                   A Hotline inquiry to the VA Debt Management
                                                           Center found that an employee may have been
• A VARO reevaluated an earlier decision to                overly aggressive in trying to collect a debt. The
withhold payment from a veteran for a class that           employee was reminded of his customer service
had been successfully completed and reimbursed             responsibilities and was counseled to avoid
the veteran $1,700.                                        argumentative or threatening statements.




                                                      61
Office of Management & Administration

                                                          and services that are critical to the ability to
Office of Human                                           provide veterans with quality health care.
Resources and
                                                          The section also completed support work on 116
Administration                                            requests received from OIG auditors conducting
                                                          postaward and preaward contract reviews of
Prompted by a Hotline inquiry, an Office of               private sector vendors doing business with the
Resolution Management review found that an                VA. In addition, the section completed support
equal employment opportunity counselor                    work on 116 requests received from OIG sector
provided written advice to a private sector               vendors doing business with the VA. The
employee about a situation unrelated to VA.               reviews resulted in recoveries of $2.8 million
The employee was counseled.                               returned to the VA supply fund and
                                                          recommendations that could assist contracting
B. DATA ANALYSIS                                          officers in saving $21 million in contract costs.

SECTION                                                   Some notable examples of the work Data
                                                          Analysis section staff performed follow:
The Data Analysis section conducts reviews of
VA computerized data files and reports                    • One postaward review revealed the
conditions in VA computer systems. Data                   company under review could not identify
Analysis staff searches for data and indicators of        records of sales made under the Federal Supply
fraud, waste, and abuse. They also identify data          Schedule for 1994 and 1995. While under
inconsistencies that may indicate the existence           different ownership during that time, the
of invalid or erroneous information in VA files.          company had not recorded contract numbers on
These efforts are often the first step in                 their sales records. The staff was able to
identifying issues warranting comprehensive               identify most of the records by matching sales
reviews by other OIG elements.                            made after 1995 to sales made during 1994 and
                                                          1995, extracting the contract numbers, and
During the reporting period, the section                  embedding them in the records. As a result, the
completed work on 240 requests for information            auditors were able to include the sales made
received from OIG operational elements. In                during these two years into their review.
conjunction with these requests, the staff worked
closely with investigators, auditors, and                 • A postaward review required obtaining the
healthcare inspectors, requesting information to          sales records from a company that operated an
ensure the data was valid, complete, and met              old computer system with obsolete computer
their needs. The support work provided by the             tapes. The staff researched and found a
staff is reported in many of the projects and             computer system that was able to process the
investigative cases described in other sections of        tapes and convert them to a format that could be
this report.                                              processed on VA computer mainframes. As a
                                                          result, the auditors were able to complete their
The Data Analysis section worked closely with             review of this company’s sales.
OIG auditors and healthcare specialists to
develop 26 computer reports and extracts that             • The staff also assisted with several Hotline
can be used to assess the overall effectiveness           requests involving supply and contracting issues.
and efficiency of core VAMC operational areas.            One notable request was for information on
These core areas are the VAMC departments                 grave markers purchased by VA from four




                                                     62
                                                            Office of Management & Administration

private vendors. The staff researched all VA               Requests from VA
financial systems and found purchase orders and
Government credit card purchases that were                 • The VHA Data Management Office
instrumental in resolving the allegations.                 requested the computer files we developed in
                                                           support of VA’s consolidated financial
• The staff received a request to determine if             statements audit. VHA found these reports to be
VA had paid certain invoices to a particular               a useful management tool for reconciling VA
vendor that had filed a claim against the VA for           Central Office accounts receivable with accounts
lack of payment. The staff discovered double               receivable at the 154 VAMCs. Fulfillment of
billing and other irregularities on the part of the        the request requires a national download from all
company. As a result, the VA was able to stop              VA hospitals and reconciliation run using VA
payments on some of the charges.                           centralized files. We are providing this service
                                                           until VHA can assume responsibility for the
• The staff obtained copies of VA’s prime                  programs and files needed and incorporate the
vendor file from the Pharmacy Benefits                     execution of this task as part of their normal
Management office quarterly. The file contains             production processing.
records of all VA pharmaceutical sales by the
vendor. The vendor announced extensive                     • For 4 years, we provided copies of the VBA
changes to its database. The staff kept up with            compensation and pension master file to the
these changes and developed methods of                     VBA Austin Benefits Systems Development
accessing the file so IG auditors could track VA           Center monthly. VBA needs this information to
pharmaceutical purchases more accurately.                  determine future liabilities for compensation and
                                                           pension payments. This project has been turned
Other Federal Agencies                                     over to VBA.

• The staff developed six computer profiles to             Computer Profiles to Detect Fraud
detect potential fraud in VBA systems, and
worked closely with the VBA Financial Systems              • The section redesigned the computerized
Quality Assurance Service to test these profiles           death match profile to include additional
at two VAROs. As a result of these                         information useful to investigators reviewing
collaborative reviews, eight cases of potential            cases for potential fraud. These new data
fraud were referred to OIG investigators for               include the person’s home address, bank
further review during this reporting period.               number, and bank account number.

• The staff also completed work on 30                      • The section identified weaknesses in VBA
requests received from VA management and                   computer files that render certain groups of
other Federal agencies. Most notable were the              records difficult or impossible to review. Social
Department of Defense request for information              Security numbers were missing from files for
on the “No Gun Ri” or “Nukuen Ri” inquiry,                 veterans who were 100 years of age or older.
and the VA General Counsel’s request for                   Social Security numbers, dates of birth and
retention of all VA files containing information           original award dates were missing from records
critical to the Government’s pending tobacco               of some veterans receiving VA benefit checks.
industry litigation.
                                                           • The section developed a set of computer
                                                           programs to analyze data recorded on VA files
                                                           to detect veterans receiving duplicate VA




                                                      63
Office of Management & Administration

benefits under a VA claim number and a social
security number. These cases were referred to
                                                          II. OPERATIONAL
OIG investigations staff for further review.              SUPPORT DIVISION
• The section referred a number of cases to
OIG investigations where matching with SSA                Mission Statement
files showed that VA was issuing benefits
checks in the names of deceased veterans. At                  Promote OIG organizational effectiveness
two VA facilities alone, the referrals resulted in            and efficiency by providing reliable and
$650,000 in recoveries and projected cost                     timely followup reporting and tracking on
savings to VA of $1.3 million.                                OIG recommendations; responding to
                                                              Freedom of Information Act (FOIA)
Computer Errors or Conditions in VA                           requests; conducting policy review and
Files Warranting Further Review                               development; strategic, operational, and
                                                              performance planning; and overseeing
• The section identified and analyzed VA                      Inspector General reporting requirements.
benefit records of dependent children whose
dates of birth indicates they are 100 years old or        Resources
older. These records are considered to contain
potential errors and should be reviewed by VBA            This Division has 8 FTE with the following
for correction.                                           allocation:

• The section also identified VA benefit
records where the payee’s Social Security                                 
number also matches that of a deceased veteran                            
                                                                                            	
 

listed in the VA file. No computer match is                                                   
currently available to identify these cases for
potential fraud, which could result in VA
                                                                                            

payments continuing long after the veteran                                                   
payee’s death.

                                                                                 
                                                                                   




                                                          Overall Performance

                                                          Followup on OIG Reports

                                                          The Division is responsible for obtaining
                                                          implementation actions on previously issued
                                                          audits, inspections, and reviews with over
                                                          $1.018 billion of actual or potential monetary
                                                          benefits as of March 31, 2000. Of this amount
                                                          $860 million is resolved, but not yet realized as




                                                     64
                                                         Office of Management & Administration

VA officials have agreed to implement the               of constituents), veterans, veterans service
recommendations, but have not yet done so. In           organizations, VA employees, news media, law
addition, $158 million relates to unresolved            firms, contractors, complainants, general public,
reviews awaiting contract resolution by VA              and subjects/witnesses of inquiries and
contracting officers.                                   investigations. In addition, the Division
                                                        processes official requests for information and
The Division is also responsible for maintaining        documents from other Federal Departments and
the centralized, computerized followup system           agencies, such as the Office of Special Counsel,
that provides for oversight, monitoring, and            the Department of Justice, and the FBI. These
tracking of all OIG recommendations through             requests require the review and possible
both resolution and implementation. Resolution          redacting of OIG Hotline, healthcare inspection,
and implementation actions are monitored to             criminal and administrative investigation,
ensure that disagreements between OIG and VA            contract audit, and internal audit reports and
management are resolved as promptly as possible         files. It also processes OIG reports and
and that corrective actions are implemented as          documents to assist VA management in
agreed upon by VA management officials. VA’s            establishing evidence files used in taking
Deputy Secretary, as the Department’s audit             administrative or disciplinary actions against VA
followup official, resolves any disagreements           employees.
about recommendations.
                                                        During this reporting period, we processed 186
As of March 31, 2000, VA had 93 open internal           requests under the Freedom of Information and
OIG reports with 256 resolved but                       Privacy Acts and released 230 audit,
unimplemented recommendations and 34                    investigative, and other OIG reports. In one
unresolved contract review recommendations              instance we had no records. We totally denied
which are awaiting contracting officer’s                four requests under the appropriate exemptions
decisions.                                              of the Acts. Information was partially withheld
                                                        in 120 requests because release would have
After obtaining information that showed                 constituted an unwarranted invasion of personal
management officials had fully implemented              privacy, interfered with enforcement
corrective actions, the Division took action to         proceedings, disclosed the identity of
close 56 internal reports and 231                       confidential sources, disclosed internal
recommendations with a monetary benefit of              Department matters, or was specifically
$248 million.                                           exempted from disclosure by statute.

During this period, 100 percent of followup             During this period, five FOIA cases did not
requests on immediate actions were sent within          receive written responses within 20 working
three months. Also, 100 percent of the initial          days, as required. There are no cases over 1
and the subsequent followup letters were                year old. The average processing time for
processed in less than 3 months. In both cases,         workable FOIA requests considered complex
we met the standard.                                    was 197 working days; routine cases took 19
                                                        working days.
FOIA, Privacy Act, and Other Disclosure
Activities                                              Electronic FOIA activities are reported in the
                                                        Information Technology Division report, which
The Division processes all OIG FOIA and                 follows this Division’s report.
Privacy Act requests from Congress (on behalf




                                                   65
Office of Management & Administration

Review and Impact of Legislation and                       which has not been fully implemented 3 years
Regulations                                                after being issued.

The Division coordinated concurrences on                            Unimplemented OIG Reports
legislative and regulatory proposals from the                       And Recommendations
Congress, OMB, and the Department that relate               VA            Total            FY 97 and
to VA programs and operations. The OIG                     Office                            Earlier
commented and made recommendations                                  Repts    Recoms     Repts Recoms
concerning the impact of the legislation and               VHA       46       188         4          6
regulations on economy and efficiency in the                FIN      22        44         1*         1*
administration of programs and operations or the           VBA       16        34         6         10
prevention and detection of fraud and abuse.               HRA        3         3         1          1
During this period, 53 legislative, 32 regulatory,         P&A        2        11         1          1
and 58 administrative proposals were reviewed               I&T       2         5         0          0
and commented on, as appropriate.                          Others     2         5         0          0
                                                           Total     93       290        13         19
Status of OIG Reports                                      * See Appendix C for this contract review
Unimplemented for Over                                     report.

3 Years
                                                           Veterans Health
Management officials are required to provide the           Administration
OIG with documentation showing the
completion of corrective actions on OIG reports,
                                                           Unimplemented Recommendations and
including reporting of collection actions until the
                                                           Status (FY 97 and Earlier Reports)
amounts due VA are either collected or written
off. The OIG followup staff conducts desk
                                                           Report: VHA Activities for Assuring Quality
reviews of status reports submitted by
                                                           Care for Veterans in Community Nursing
management officials to assess both the
                                                           Homes, 4R3-A28-016, 1/11/94.
adequacy and timeliness of agreed upon actions
                                                           Recommendation: VHA develop
and to request periodic updates on an ongoing
                                                           standardized community nursing homes
basis. When a status report adequately
                                                           inspection procedures and criteria for
documents corrective actions, the followup staff
                                                           approving homes for participation in the
closes the recommendation after coordination
                                                           program.
with the OIG office that wrote the report. If the
                                                           Status: VHA provided a 6-page draft directive
actions do not implement the recommendation,
                                                           for selected field comments in March 2000;
the followup staff requests a status update.
                                                           however, no planned completion date was
                                                           provided.
The following chart lists by office the total
                                                           Concern: The OIG is concerned that this
number of unimplemented OIG reports and
                                                           report, which dates back to 1994, has not yet
recommendations. It also provides by office the
                                                           been implemented. The final report showed that
total number of unimplemented reports and
                                                           inspection procedures varied between VAMCs,
recommendations issued in FY 97 and earlier.
                                                           appropriateness of community nursing homes
We are particularly concerned about any report
                                                           inspection team makeup could be improved, and
                                                           annual reinspections should be conducted more




                                                      66
                                                          Office of Management & Administration

timely. These are still issues which need to be          Status: VHA provided a 2-page draft directive
addressed to improve care of veterans.                   on transmission of information on assaultive
                                                         patients in March 2000, but provided no planned
Report: Audit of Medical Supplies Acquisition            completion date.
and Distribution Systems, 5R4-E01-085, 7/25/95           Concern: The OIG report included
Recommendations: The Under Secretary for                 recommendations that were meant to strengthen
Health, in conjunction with the Assistant                areas that may reduce that incidence of injury
Secretary for Management, should:                        associated with violence in inpatient psychiatric
(1) formally define the roles of national,               units. The original planned completion date was
regional, and local contracting and buying               October 1996. A directive provided in 1998 did
activities, and (2) plan for the establishment           not address the issue. The OIG is concerned that
of regional buying groups that serve every               very little progress has been made in
medical facility in VA.                                  implementing this recommendation, which dates
Status: For recommendation (1) - VHA                     from 1996, while incidents of patient violence
indicated the formal definition will be addressed        against staff and other patients continue.
through a change to the VA acquisition
regulations by April 30, 2000. For                       Report: Internal Controls Over the Fee-Basis
recommendation (2) - VHA indicated regional              Program, 7R3-A05-099, 6/20/97
buying groups have been established and their            Recommendations: VHA improve the cost
flexibility in exercising multi-VISN contracts           effectiveness of home health services by: (1)
will directly relate to the final results of             establishing guidelines for contracting for
discussions with A&MM on contracting officer             such services, and (2) providing contracting
certification with an anticipated resolution in          officers with benchmark rates for
March 2000.                                              determining the reasonableness of charges.
Concern: The OIG is concerned that VA has                Status: For recommendation (1) - guidelines
not yet formally defined the roles of each               are under development in four areas with various
acquisition level (national, regional, and local)        target dates, and for recommendation (2) - VHA
so that they can work in partnership to achieve          will update its plan in June 2000.
the best results for VA as a whole. In addition,         Concern: The June 1997 final report showed
every VA medical facility needs to have access           that contracting for home health services could
to some form of a regional group buying activity         save at least $1.8 million annually, however the
so that purchases from national contracts can be         recommendations remain unimplemented. The
consolidated. We hope these recommendations              May 1997, comments to the draft report referred
from this 1995 report will be implemented soon.          to a pilot project that would implement the
                                                         recommendations. However, 1½ years later, the
Report: Evaluation of VHA’s Policies and                 December 1998, status update reported that the
Practices for Managing Violent and Potentially           pilot did not address these recommendations.
Violent Psychiatric Patients, 6HI-A28-038,               We are concerned that the last three status
3/28/96                                                  updates from the program office provided delays
Recommendation: VHA managers should                      in various planned completion dates or dates for
explore network flagging systems that would              when the plan itself would be updated. As a
ensure employees at all VAMCs are alerted                result, over $5.3 million has been spent on these
when patients with histories of violence                 contracts which could have been avoided. We
present for treatment to their medical                   are also concerned that until this condition is
centers.                                                 corrected, at least $1.8 million annually is not
                                                         saved.




                                                    67
Office of Management & Administration

                                                          changes that will result in a reduction of
Veterans Benefits                                         benefits.
Administration                                            Status: In November 1999, VBA stated they
                                                          have been unable to finalize the draft change to
Unimplemented Recommendations and                         the pertinent regulations due to staffing changes,
Status (FY 97 and Earlier Reports)                        and the draft regulation to revise the due process
                                                          procedures would be completed by March 2000.
Report: Audit of the Effectiveness of Benefit             Concern: The audit indicated that C&P
Award Notification, 6D2-B01-049, 6/14/96                  overpayments could be reduced $4 million
Recommendation: VBA enhance the                           annually, if actions were taken to simplify
effectiveness and efficiency of benefit award             communications with beneficiaries regarding
notification for beneficiaries by accepting oral          their responsibility to timely report beneficiary
information (including telephonic input to                status changes. We are concerned that very little
VA 800 numbers) from primary verified                     progress has been made in implementing this
sources when documentary evidence is not                  recommendation during the past 3 years. As a
required. This would include acceptance of                result, approximately $12 million has been spent
challenges to proposed award actions that                 on C&P overpayments which could have been
would allow a continuation of the suspension              avoided.
of changes that are to be implemented.
Status: In December 1998, VBA stated their                Report: Appointment and Supervision of
intent to draft a regulation to accept information        Fiduciaries, 7R5-B13-074, 5/1/97
orally. However, in November 1999, VBA                    Recommendations: (1) VBA require
stated they were unable to finalize the draft             fiduciaries to submit financial information
regulation due to staffing changes and stated the         release forms authorizing VA to
draft would be completed by May 2000.                     independently verify reported account
Concern: The audit found opportunities to                 balances when they submit periodic
streamline due process notice and response                accountings. (2) Independently verify the
procedures. The OIG is concerned that very                balances in selected asset accounts reported
little progress has been made in implementing             by fiduciaries on periodic accountings. (3)
our recommendation, which dates to 1996, in the           Require regional office personnel to routinely
ensuing 4 years. Recent conversations with                review canceled checks or the documentation
VBA, however, indicate that some procedures               of selected expenditures reported by
do not require regulation changes, but instead            fiduciaries. (4) Assess the feasibility and
revisions will be made to the Adjudication                cost-effectiveness of automating the analysis
Procedural manual M21-1. We are hopeful that              of accountings submitted by fiduciaries.
this will be responsive to the recommendation             Status: For recommendation (1), the October
and permit closure of the report in the near              1999 status report stated the VBA staff
future.                                                   forwarded the form to the Directives, Forms and
                                                          Publications staff for review, concurrence,
Report: Review of the Causes of VBA’s                     printing, and distribution, and stated the planned
Compensation and Pension (C&P)                            completion date was May 2000. For both
Overpayments, 7R1-B01-105, 12/2/96                        recommendations (2) and (3), the October 1999
Recommendation: VBA reduce C&P benefit                    VBA status report stated a circular was drafted
payments by revising due process procedures               and was in the concurrence process, a cost
to remove the requirement that beneficiaries              analysis was done and the results of the cost
must inform the VA in writing of status                   study was being analyzed, and contingent on




                                                     68
                                                           Office of Management & Administration

favorable results and appropriate budget action,          time, VBA will also be able to provide a planned
implementation of the circular will begin by              completion date.
June 2000. Full implementation of                         Concern: The audit’s purpose was to determine
recommendations 2 and 3 will occur                        if VBA’s procedures ensured that disability
simultaneously. For recommendation (4), the               compensation benefits of active military
October 1999 status report stated a cost benefit          reservists were properly offset from their
analysis would be completed by December 1999              training and drill pay. It found that 90 percent of
and a report submitted to VBA management by               the potential dual compensation cases reviewed
April 2000.                                               had not had offsets from their military reserve
Concern: In summary, the audit’s purpose was              pay. We are concerned that an estimated $8
to determine if VBA protected the incomes and             million in annual dual compensation payments
estates of incompetent beneficiaries ($1.4 billion        continue to be made each year because this
of funds for 110,000 incompetent beneficiaries).          recommendation has not been implemented.
The report found that VBA needs to strengthen
monitoring of fiduciaries, in order to protect            Report: Review of C&P Medical Examination
incomes and estates of incompetent                        Services, 7R1-A02-114, 8/6/97
beneficiaries. We are concerned about the 3               Recommendation: VBA establish
year delay in implementation of these                     performance measures for their field
recommendations, because of their impact on               facilities, with the objective of improving the
beneficiaries who cannot protect themselves.              rate of incomplete examinations.
However, recent discussions between IG and                Status: The March 1999 VBA status report
VBA indicate a different approach will now be             stated that historically, there has been little
taken to simplify the process from a customer             systematic collection of data as to the reasons
viewpoint. Any further delay will continue to             veterans have failed to report for exams.
affect one of our most vulnerable groups of               Accordingly, VBA has insufficient data to
beneficiaries.                                            support the establishment of performance
                                                          standards. VBA is now gathering information,
Report: Review of VBA’s Procedures to                     which may lead to improvement and if
Prevent Dual Compensation, 7R1-B01-089,                   appropriate, to the establishment of performance
5/15/97                                                   standards. In January 1999, under the joint
Recommendation: VBA followup on FYs                       disability examination steering committee, VBA
1993 through 1996 dual compensation cases                 and VHA established a work group with a goal
to ensure either VBA disability payments are              of significantly reducing the number of
offset or the Department of Defense is                    incomplete exams. The work group was asked
informed of the need to offset reservist pay.             to analyze the reasons for the high rate of
Status: The March 2000 status report stated               incomplete exams and to offer recommendations
VBA found a number of problems with the data              for reduction. An action plan for the study
files received from the Defense Manpower Data             would be presented at the meeting of the
Center. In March 2000, the Center ran another             VBA/VHA cross cutting issues committee
FY 1999 file and transmitted it to the Hines              which was scheduled to be held in April 1999,
Benefits Delivery Center. VBA plans to use the            with a timeline of 90 days to complete the study
data and conduct a test at one station in April           and to provide final recommendations. VBA
2000. Upon completion of the test, a                      indicated additional time beyond the 90 days
determination will be made about proceeding               may be granted if necessary to complete the
further with FY 1993 – 1998 cases. At that                study. VBA stated additional data was being
                                                          collected in conjunction with the contract




                                                     69
Office of Management & Administration

disability examination pilot project, which              examination activity, and (iv) they are studying
commenced in May 1998. Under this project,               the impact of the project on overall claims
VBA began collecting data regarding the types            processing to develop a timetable for full
of exams that were returned incomplete for both          implementation of the recommendation, with a
the contractor and a control group of exams              planned implementation by September 2000.
requested from VHA medical facilities. There             For recommendation (2), VBA will schedule
would be insufficient data to begin an analysis          subsequent reviews and anticipates competing
until the pilot was concluded at the end of April        work by September 2001.
1999. VBA is evaluating their procedures and             Concern: The audit assessed the completeness
work group recommendations to determine the              of data in the FBS and found VBA needed to
most efficient and effective way to meet the             establish FBS records for about 1,500
objective of improving the rate of incomplete            beneficiaries. The FBS should include records
exams.                                                   for all incompetent beneficiaries whose financial
Concern: The audit noted no performance                  affairs must be monitored by VBA. VBA
measures exist to prevent or reduce the percent          indicated 4,000 records require possible review.
of incomplete medical exams. VBA’s view is               We recognize that field station workload
that the majority of action related to improving         considerations impact the implementation of this
the rate of incomplete exams resides with VHA;           recommendation. However, OIG is concerned
nevertheless, VBA is assessing the work group’s          that the recommendations remain
recommendations to determine what                        unimplemented.
organizational measures may be possible to
reach this mutual goal. While VBA has worked
cooperatively with VHA on this matter, and is
continuing to discuss with VHA an approach to
                                                         Office of Human
meeting this objective, the fact is that it still        Resources and
remains unimplemented.
                                                         Administration
Report: Completeness of Data in the VBA’s
Fiduciary Beneficiary System (FBS), 7R5-B13-             Unimplemented Recommendation and
129, 9/15/97                                             Status (FY 97)
Recommendations: (1) VBA review the
pertinent records of all adult helpless                  Report: Audit of VAMC Use of
children who do not have records in the FBS              Intergovernmental Personnel Act Assignments
and take corrective action as appropriate,               (IPA), 7R8-A19-044, 2/27/97
and (2) periodically compare data in the FBS             Recommendation: Issue detailed guidance on
and the C&P system to identify incompetent               the use of IPAs with emphasis on the issues
beneficiaries who have no records in the FBS             identified by this audit.
and establish FBS records as appropriate.                Status: In December 1999, the OIG received a
Status: For recommendation (1), the October              draft copy of a directive and handbook.
1999 VBA status report stated (i) the computer           Concern: The audit addressed IPAs that are
matches are complete and output documents                used to facilitate Federal-state-local cooperation
were delivered to C&P Service in August 1999,            through the temporary assignment of skilled
(ii) assignment of the work to field stations is         personnel. The better use of funds savings was
under review, (iii) the computer match generated         $1.3 million to restrict the use of IPAs to their
34,000 records requiring a range of work from            traditional purpose. VHA has made extensive
record notations to rating action and field              use of IPAs, primarily for assigning medical




                                                    70
                                                        Office of Management & Administration

school employees to work on research projects.         the Secretary that would delegate to
In FY 96, VAMCs had more than 1,000 IPAs               Administrative Heads Assistant Secretaries, and
with costs of at least $35 million. The audit          other key officials the Secretary’s authority to
noted IPAs were inappropriately used to obtain         accept gifts and to communicate the delegation
clinical services and for administrative and           throughout VA. The package stated it was
support positions. The original planned                expected that gifts would be increased with the
completion date to revise the policy was April         delegation. The package went to the Secretary’s
1997. VHA, with the assistance of the Office of        mail call in August 1998. It is still in the
Human Resources and Administration, issued             Executive Secretariat’s office per the latest
two memoranda (in 1996 and 1997) instructing           status update from the Office of Planning and
facility directors on the proper use of IPAs at        Analysis.
medical centers. In addition, the Office of            Concern: The GPF is a trust fund that consists
Personnel Management issued changes to                 of donations for assisting veterans and for
regulations pertaining to IPAs on April 29,            designated research. The VA GPF fund balance
1997. Changes included a new requirement that          was $70 million in September 1994. Public Law
organizations not covered by provisions of             102-86 broadened the acceptance and use of the
Executive Order 11589 were to be certified by          GPF, and VA is no longer limited to accepting
Federal agencies. In response to this new              and using GPF for veterans in VA medical
requirement, VA policy was issued in 1999 to           facilities. However, VA has not established
incorporate the new requirements and provide           policy to implement the Public Law passed in
facilities needed information to use IPAs              1991 and consequently VA’s authority to
properly. The Office of Human Resources and            provide additional assistance and services
Administration has assured the OIG that the            provided by the legislation has not been used.
final directive and handbook will be issued by         No planned completion date is available.
June 30, 2000.



Office of Planning and
Analysis
Unimplemented Recommendation and
Status (FY 95 Report)

Report: Audit of the General Post Fund (GPF),
5R7-A16-033, 2/10/95
Recommendation: Take steps necessary to
finalize the revised policy to implement
Public Law 102-86 that broadened VA’s
authority to accept and use gifts. The revised
policy should ensure that the GPF is
expended for purposes that directly benefit
veterans.
Status: In July 1998, the OIG concurred with
an Office of Planning and Analysis delegation
package that included a proposed memo from




                                                  71
Office of Management & Administration

III. INFORMATION                                        Resources
TECHNOLOGY DIVISION                                     The Division has 6 FTE currently assigned to
                                                        the OIG headquarters and allocated to the
                                                        following areas:
Mission Statement

   Promote OIG organizational effectiveness                       
                     


   and efficiency by ensuring the accessibility,               
                    !
"#
                                                                                             $
   usability, and security of OIG information
   assets; developing, maintaining, and
   enhancing the enterprise database
   application; facilitating reliable, secure,
   responsive, and cost-effective access to this                                             %
                                                                                             $
   database, VA databases, and electronic                     !' %
                                                                !
'
   mail by all authorized OIG employees;                         $
   providing Internet document management                                      !"""&
                                                                                  $
   and control; and providing statistical
   consultation and support to all OIG
   components.                                          Overall Performance
The Information Technology Division provides            Master Case Index (MCI)
information technology and statistical support
services to all components of the OIG. It has           On October 4, 1999, the OIG completed the
responsibility for the continued development and        initial implementation of an Oracle database
operation of the management information                 application known as the Master Case Index
system, as well as the OIG’s Internet resources.        (MCI) to replace a non-Y2K compliant nine-
The Division interfaces with VA information             year old legacy Oracle application. This
technology units nationwide to establish and            implementation resulted in a new case
support local and wide area networks, guarantee         numbering format, on-line search tools, and an
uninterrupted access to electronic mail, service        index to external reports of interest to the OIG.
personal computers, detect and defeat computer          The graphical user interface of MCI has
threats, and provide support in protecting all          provided users with intuitive access to their data
electronic communications. The Division,                denied them in the legacy application, which
which is managed by the OIG’s Chief                     required experienced programmers to conduct
Information Officer (CIO), represents the OIG           on-line queries. Additionally, users now have
on numerous intra- and inter-agency                     appropriate access to enterprise-wide data
organizations and is responsible for strategic          instead of only data pertaining to their
planning for all OIG information technology             operational directorate.
requirements. Finally, a member of this division
serves as the OIG statistician.                         During the last 6-months, we completed on-site,
                                                        instructor-led MCI training in ten cities.
                                                        Consequently, we have expanded the user base
                                                        from approximately 40 in the legacy application
                                                        to nearly all OIG employees. Data validation
                                                        tables, picklists, and search tools have resulted




                                                   72
                                                           Office of Management & Administration

in increased accuracy and non-duplication of              We participated in departmental efforts in
data entered into our enterprise database.                improving information security and availability
                                                          including recent budgetary and policy initiatives.
We have also completed more than 150                      Our involvement included reviews of the
enhancements, ranging from cosmetic to very               Department's information security policies and
significant, since initial implementation. As a           initiatives, input on the Department's public key
result of an increased user base, we have                 infrastructure encryption efforts, and
identified approximately 60 additional                    participation in Department efforts to improve
enhancements that we plan to implement during             VA web site accessibility.
the next six months. We encountered two
Oracle induced Y2K problems within MCI; both              Statistical Support
were quickly corrected without impact on our
users.                                                    The OIG statistician is the subject matter expert
                                                          providing statistical consultation and support to
Internet Technology/Security                              the VA OIG. The statistician provides
                                                          assistance in planning, designing and sampling
The Division is responsible for processing and            for relevant IG projects. In addition, the
controlling electronic publication of OIG                 statistician provides support in the
reports, including maintaining the OIG websites           implementation of appropriate methods to
and posting OIG reports on the Internet. The              ensure that data collection, preparation, analysis
OIG public website received over 2,500,000 hits           and reporting are accurate and valid.
from over 140,000 visitors which ranked it on
average among the top five accessed directories           In the past reporting period, the OIG statistician
on the VA's website. Our most popular reports             provided statistical consultation and support on
were downloaded over 21,000 times, providing              13 sampling plans for proposed audit projects.
both timely access to our customers and cost              These plans were reviewed for completeness and
avoidance in the reduced number of reports that           accuracy in the proposed samples in order to
must be printed and mailed.                               arrive at defensible projections back to the
                                                          universe of the audit. Similarly, the OIG
We posted frequently-requested CAP,                       statistician also provided statistical support and
administrative investigation, and audit reports in        consultation on the OHI proactive program
our electronic reading room in compliance with            evaluations examining VHA's policies and
the Electronic Freedom of Information Act. We             search procedures related to missing patients.
published 12 additional audit reports, 47 Office          The statistician was responsible for developing
of Investigations press releases, and other OIG           the sampling strategy and plan for the
publications online.                                      evaluation, as well as providing statistical
                                                          support in analyzing preliminary data.
We coordinated the electronic notification to top
VA managers of an OIG report on high-risk                 For the recently ended reporting period, the OIG
areas in VHA's Workers' Compensation                      statistician provided consultation and support on
Program. On our website, we posted privacy                all CAPs. This support involved preparing and
notices at all major information collection points        processing the random samples of full-time
and further enhanced accessibility for disabled           VAMC employees who were part of the CAP's
customers.                                                employee satisfaction survey. In addition, the
                                                          statistician provided support in the processing of
                                                          the CAP's data collected while on-site and




                                                     73
Office of Management & Administration

provided consultation on the accurate                     We evaluated a number of computer based
interpretation and appropriate presentation of the        training packages and selected one initially
data findings in the CAP reports. The                     developed for the IRS. This multimedia
statistician also provided statistical supporting         computer-based training contains tutorials for
data on two Hotline cases investigated by the             novice, intermediate, and advanced users of the
OHI.                                                      above software packages. Since this tutorial was
                                                          developed for the Federal Government, we will
Finally, the statistical expertise of the OIG             be able to procure a compact disk set for each
statistician was called upon by other VA                  employee at nominal cost. We also plan to
administrations within the Department in the              select a vendor capable of providing instructor-
past reporting period. The statistician was asked         led training in each city in which we have
to review and comment on the proposed                     employees assigned.
sampling plan for the Department's FY 2000
national survey of veterans. The statistician also
participated in the departmental working group
reviewing appropriate data sources for use in the
development of the new veterans' population
model.

Information Technology Training
Initiative

OIG management has recognized the necessity
to develop and implement an ADP training
program for all OIG employees. This division
conducted a survey of all employees, which
established each employee’s current and desired
levels of expertise in using the following
Microsoft software packages: Word, Excel,
PowerPoint, Access, Outlook, Project, Windows
95, and Windows NT 4.0.

The objectives of the questionnaire were to:
establish a portfolio of PC software
competencies within the OIG; gauge the demand
for specific courses of instruction; identify the
most efficient, cost-effective means of
delivering this instruction tailored to each
individual's needs; and create a baseline for
measuring the effectiveness of different types of
software instruction

The survey’s 97 percent response rate confirmed
the intense desire for training with over 1,900
specific requests for user training on the
software packages listed above.




                                                     74
                                                         Office of Management & Administration
                                                        the Office of Management and Budget and
IV. RESOURCES                                           Congressional Committees.
MANAGEMENT DIVISION
                                                        The staff executed 45.4 percent of the OIG’s FY
                                                        2000 budget authority.
Mission Statement
                                                        Human Resources Management
    Promote OIG organizational effectiveness
    and efficiency by providing reliable and            During this period, the staff brought 7 new
    timely management and administrative                employees on board. In addition, the staff
    support services.                                   processed 153 personnel actions, 1 distinguished
                                                        career award, 4 outstanding career awards, 48
The Division provides support services for the          special contribution awards, 12 time-off awards,
entire OIG. Our services include personnel              and 1 on-the-spot award.
advisory services and liaison; budget
formulation, presentation, and execution; travel        Travel
processing; procurement; space and facilities
management; and general administrative                  OIG personnel travel almost continuously. As a
support.                                                result, the Travel section processed 1,493 travel
                                                        and 75 permanent change of station vouchers in
Resources                                               addition to 4 new permanent change of station
                                                        authorities and 35 amendments to existing
                                                        authorities.
The Division has 12 FTE currently assigned to
the OIG headquarters. The staff allocation for
                                                        Administrative Support
the four functional areas is as follows:
                                                        Several relocation projects were completed
                         )"&' !'                   during this period. These projects involved
                            *                         substantial planning and coordination between
         -.

                                                        OIG staff and various outside parties to ensure a
          $                                           smooth transition and minimal impact on work
                                                        processes. The administrative staff works
                                                        closely with building management to coordinate
                                        ()

                                         *            office renovation plans, telephone installation,
                                                        and the procurement of furniture and equipment.
                  +,
                  
                                                        In addition, this component processed 278
                                                        procurement actions and reviewed and approved
                                                        each month the 42 statements received from the
Overall Performance                                     OIG’s cardholders under the Government’s
                                                        purchase card program.
Budget

The staff assisted in the preparation of the FY
2001 budget submission and materials for
associated hearings in the Department and with




                                                   75
Office of Management & Administration




                                        76
OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity                           the 106th annual meeting. Presentations were
and Efficiency (PCIE)                                      made on three OHI evaluations.

Members of the Financial Audit Division                    VHA’s Center for Patient Safety Pilot
participate as members of the PCIE Federal                 Root-Cause Analysis
Audit Executive Committee (FAEC) subgroup.
The purpose of the subgroup is to: (i) keep                The AIG for Healthcare Inspections served as a
members current on changes in Federal financial            faculty member for the VHA root-cause analysis
statement auditing requirements; (ii) allow                training. Root-cause analysis is a form of
members to exchange ideas and advice to assist             quality management focused review that, when
in accomplishing their agency's audits; (iii) raise        fully implemented by VHA, will supplant the
issues of mutual concern to the PCIE; and (iv)             current system that VHA uses for evaluating
present a forum for the members to express their           events that result in serious patient injuries
concerns or solicit advice and guidance from               (sentinel events).
representatives of the Office of Management and
Budget and the General Accounting Office.                  2000 VHA Pharmacy Conference

                                                           OHI’s Los Angeles Team Leader, a trustee on
OIG Management Presentations                               the Board of the American Pharmaceutical
                                                           Association, gave a presentation on the OIG and
Presentation to Leadership VA 1999
                                                           the CAP, at the conference.
The Inspector General made a presentation on
                                                           5th Annual Veterans Affairs Physician
the work of the OIG to the Leadership VA class
                                                           Assistant Association Conference
of 1999. This program is VA’s premier
leadership development program.
                                                           An OHI staff member gave an overview
                                                           presentation of the OIG at the annual
Presentation at VBA’s Training Academy
                                                           conference.
Two audit Directors (Management Audit
                                                           VISN 22 Executive Leadership Council
Division and Atlanta Operations Division) and
the investigations Director of the Benefits Fraud
                                                           The OHI Los Angeles Region Director gave a
Division briefed VBA’s program integrity teams
                                                           presentation on the OIG and the CAP during the
on vulnerabilities in the compensation and
                                                           conference.
pension programs.
                                                           Federal Women’s Program
Association of Military Surgeons of the
United States, Society of Federal
                                                           OHI’s Midwest Region Director, an OIG
Agencies Conference
                                                           representative on VA’s Federal Women’s
                                                           Program, was the keynote speaker at the Dorn
The association was incorporated by act of
                                                           VAMC, Columbia, SC and the VAMC Walla
Congress in 1903, with members from the
                                                           Walla, WA for Women’s History Month. Her
Medical Departments, U.S. Public Health
                                                           presentation was entitled “The Role of Federal
Service, and VA. OHI managers and health
                                                           Women for the New Millennium.”
systems specialists presented research posters at




                                                      77
Other Significant OIG Activities

Awards                                                 guaranty housing credit assistance program
                                                       accounting, and summaries of audits and
Columbia University Nursing Hall of                    investigations of the loan guaranty program.
Fame
                                                       Obtaining Required Information or
Irene Trowell-Harris, Ed.D., R.N., OHI Midwest         Assistance
Region Director, was inducted into the
Columbia University Teachers College Nursing           Sections 5(a)(5) and 6(b)(2) of the Inspector
Hall of Fame, for her distinguished nursing            General Act of 1978 require the Inspector
leadership and outstanding contribution to the         General to report instances where access to
advancement of the profession.                         records or assistance requested was
                                                       unreasonably refused, thus hindering the ability
U.S. Attorney Award                                    to conduct audits or investigations. During this
                                                       6-month period, there were no reportable
                                                       instances under these sections of the Act.

                                                       Under P.L. 95-452, the IG has authority “… to
                                                       require by subpoena the production of all
                                                       information, documents, reports, answers,
                                                       records, accounts, papers, and other data and
                Special Agents                         documentary evidence necessary . . . .” The use
                                                       of IG subpoena authority has proven valuable in
      [photo not available electronically]             our efforts, especially in cases dealing with third
                                                       parties. During this reporting period, 25
                                                       subpoenas were issued in conjunction with
                                                       various OIG investigations and audits.



Special Agent Sean Smith, Special Agent Lisa
Mantione, and Investigative Assistant Connie
Meyer were given an award by the U. S.
Attorney's office of the Southern District of
Florida for a VA OIG equity skimming
investigation.

OIG Congressional Testimony
In March 2000, the Assistant Inspector General
for Auditing and the Directors, Financial
Statement Audit Division and Bedford Audit
Operations Division, testified before the House
Committee on Veterans’ Affairs Subcommittee
on Oversight and Investigations. The testimony
addressed the OIG’s views on VBA’s loan




                                                  78
                                           APPENDIX A

                             DEPARTMENT OF VETERANS AFFAIRS
                               OFFICE OF INSPECTOR GENERAL
                                   REVIEWS BY OIG STAFF

  Report                                                             Funds Recommended
 Number/                                                                for Better Use    Questioned
Issue Date                     Report Title                           OIG      Management   Costs

COMBINED ASSESSMENT PROGRAM
99-00695-8    Combined Assessment Program Review Department                                         $10,176
10/28/99      of Veterans Affairs Medical Center St. Louis, MO

99-00173-18 Combined Assessment Program Review Edward
11/22/99    Hines, Jr. VA Hospital Hines, IL

99-00161-24 Combined Assessment Program Review VAMC
12/30/99    Philadelphia, PA

00-00358-44 Combined Assessment Program Review, Carl Vinson
3/20/00     VA Medical Center Dublin, GA

INTERNAL AUDITS
98-00057-1    Audit of Procurement Initiatives for VA's Integrated   $146,129,631 $146,129,631    $1,025,660
10/1/99       Data Communications Utility (IDCU)
              Telecommunications Support

99-00188-13 Audit of Management of Prosthetic Supply                  $31,428,000   $31,428,000
11/15/99    Inventories at VA Medical Centers and the Denver
            Distribution Center

99-00046-16 Audit of High-Risk Areas in the Veterans Health           $11,200,000   $11,200,000
12/21/99    Administration's (VHA) Workers' Compensation
            Program (WCP)

99-00055-12 Audit of Allegations Concerning the VA Office of
1/7/00      Congressional Affairs (OCA)

98-00156-39 Audit of Advanced Food Processing and Delivery
2/9/00      Systems In Ohio and Western Pennsylvania

99-00006-46 Report of Audit of the Department of Veterans Affairs
3/14/00     Consolidated Financial Statements for Fiscal Years
            1999 and 1998




                                                       79
Report                                                            Funds Recommended
 Number/                                                             for Better Use    Questioned
Issue Date                    Report Title                          OIG     Management   Costs

INTERNAL AUDITS (Cont’d)
99-00055-47 Addendum Report: Audit of Allegations Concerning
3/22/00     the VA Office of Congressional Affairs

99-00180-52 Audit of Fee Basis Claim Payments Northern
3/31/00     California Health Care System, Martinez, CA

OTHER OFFICE OF AUDIT REVIEWS
98-00009-2   Management Letter – Fund Balance with Treasury,
10/1/99      Agency Location Code 36-00-1200

99-00011-3   Administrative Investigation, Use of Travel,                                         $375
10/1/99      Representation Funds, and Motor Vehicles with
             Respect to the Secretary of Veterans Affairs

99-00187-9   Evaluation of VA Medical Center Management of
10/26/99     Prosthetics and Sensory Aids Procurement

99-00008-25 Report on Agreed to Procedures
12/22/99

99-00003-33 Management Letter - VA's Minimum Password
1/20/00     Configuration Policy

00-00983-41 Attestation of the Department of Veterans Affairs
2/23/00     "Detailed Accounting Submission" for Fiscal Year
            2000

99-00159-42 Evaluation of Loan Guaranty Service's Quality
2/28/00     Review System

99-00046-48 Management Advisory Letter - Workers'
3/24/00     Compensation Program Assist, Veterans Integrated
            Service Network (VISN) 5

CONTRACT REVIEWS *
99-00144-5   Audit of VA Payments and Funding Issues on a Major                               $265,792
11/4/99      Construction Contract (Number V101cc0098) for the
             Clinical and Outpatient Addition at VA Medical
             Center Marion, IL

99-00141-11 Review of Ambulance Service Proposal (Solicitation       $117,000
11/8/99     Number RFP 652-5-00) Richmond Ambulance
            Authority, Richmond, VA

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these
reviews are determined when the OIG receives the contracting officer’s decision on the report
recommendations.


                                                     80
Report                                                             Funds Recommended
 Number/                                                              for Better Use    Questioned
Issue Date                    Report Title                           OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
98-00120-15 Postaward Review of Federal Supply Schedule                                      $68,434
11/9/99     Contract V797P-5538m, Awarded to UCB Pharma,
            Inc.

99-00143-17 Review of Federal Supply Schedule Proposal              $18,747,758
11/10/99    (Solicitation Number M5-Q50-97 OSI) Ortho-McNeil
            Pharmaceutical, Inc., Raritan, NJ

99-00083-20 Review of Roxane Laboratories, Inc. Implementation                             $1,641,371
12/7/99     of Section 603 Drug Pricing Provisions of Public Law
            102-585 Under Federal Supply Schedule Contract
            Numbers V797P-5501m and V797P-5348x

00-00302-23 Review of Federal Supply Schedule Proposal
12/22/99    (Solicitation Number 797-652B-99-0003), Coloplast,
            Inc., Marietta, GA

99-00084-27 Review of Watson Laboratories, Inc. Implementation                               $34,018
12/29/99    of Section 603 Drug Pricing Provisions of Public Law
            102-585 Under Federal Supply Schedule Contract
            Numbers V797P-5260n and V797P-5339x

00-00266-30 Review of Proposal for Cardiac Surgery Services at        $334,945
1/14/00     University Drive Division, VA Pittsburgh Healthcare
            System Submitted by University of Pittsburgh
            Physicians, Pittsburgh, PA

99-00073-34 Survey of B. Braun Medical, Inc.'s Public Law 102-                               $41,993
1/20/00     585, Section 603 Policies and Procedures

00-00970-38 Final Report – Review of J. T. Posey Company's                                    $1,780
2/3/00      Voluntary Disclosures Under Federal Supply
            Schedule Contract Numbers V797P-3953j and
            V797P-3563k

00-00795-40 Review of Alternate Federal Supply Schedule Pricing      $1,006,434
2/8/00      Proposal (Solicitation Number M6-Q5-98) Circon
            Acmi, Stamford, CT

97-00111-22 Report of Postaward Review of Federal Supply                                    $495,550
2/9/00      Schedule Contract V797P-3668j, Awarded to Stryker
            Corporation

99-00058-35 Final Report Review of Riverside National Cemetery's
2/10/00     Contracting Practices Relating to Grave Liners and
            Grave Markers




                                                    81
Report                                                             Funds Recommended
 Number/                                                              for Better Use    Questioned
Issue Date                     Report Title                          OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
00-00267-45 Review of Federal Supply Schedule Proposal                $779,335
3/2/00      (Solicitation Number 797-652F-99-0004) Crown
            Therapeutics Inc., Belleville, IL

98-00086-49 Review of Voluntary Disclosure and Refund Offer on                              $221,749
3/21/00     Federal Supply Schedule Contract No. V797P-5636n
            Submitted by NABI, Rockville, MD

00-01052-51 Review of Scarce Medical Specialists' Proposal for
3/27/00     Surgical Services (Solicitation Number RFP 509-16-
            99) Submitted by Medical College of Georgia,
            Augusta, GA

ADMINISTRATIVE INVESTIGATIONS
99-01779-21 Administrative Investigation, Misconduct and Other
12/9/99     Issues, VA Heartland Network, Kansas City, MO

99-01785-14 Administrative Investigation, Conduct, Attendance,                               $20,285
12/21/99    and Travel Issues, Veterans Benefits Administration
            Regional Office Portland, OR

00-00778-26 Administrative Investigation, Misuse of a Government
12/29/99    Vehicle, Central Alabama Veterans Health Care
            System

97-00957-29 Administrative Investigation, Use of Government                                   $1,035
1/19/00     Resources and Other Issues, Great Lakes Healthcare
            System, Hines, IL

99-01789-28 Administrative Investigation, Personnel Practices,                                 $672
1/25/00     Central Texas Veterans Health Care System

99-01781-32 Administrative Investigation, Use of Frequent Flyer                               $5,767
2/25/00     Mileage Points and Other Travel Issues, VAMC Long
            Beach, CA

99-01783-43 Administrative Investigation, Use of Government                                   $1,857
2/29/00     Resources, Conduct, and Travel Issues, Connecticut
            Health Care System and Central Plains Veterans
            Integrated Service Network

99-01792-31 Administrative Investigation, Vocational
3/23/00     Rehabilitation Work Therapy Programs Issues,
            VAMC Northport, NY




                                                      82
Report                                                                Funds Recommended
 Number/                                                                 for Better Use    Questioned
Issue Date                     Report Title                             OIG     Management   Costs

HEALTHCARE INSPECTIONS
97-00680-6    Alleged Research Improprieties and Informed
10/7/99       Consent Issues, Jerry L. Pettis Memorial Veterans
              Hospital, Loma Linda, CA

99-00764-4    Evaluation of the Department of Veterans Affairs
10/15/99      Veterans Health Administration Hepatitis C Initiative

98-00501-7    Inspection of Alleged Substandard Patient Care,
10/28/99      Department of Veterans Affairs Medical Center
              Miami, FL

98-00600-10 Inspection of Alleged Inadequate Trauma Treatment,
11/4/99     James A. Haley Veterans Hospital Tampa, FL

99-00623-19 Inspection of Allegedly Unexpected Patient Deaths
1/20/00     and Review of Domiciliary Operations, Department of
            Veterans Affairs Medical Center Biloxi, MS

99-00859-36 Inspection of Alleged Inappropriate Plastic Surgery,
2/22/00     Department of Veterans Affairs Medical Center
            Washington, DC

TOTAL:                           50 Reports                           $209,743,103   $188,757,631   $3,836,514




                                                       83
84
                                            APPENDIX B

                            DEPARTMENT OF VETERANS AFFAIRS
                              OFFICE OF INSPECTOR GENERAL
                          CONTRACT REVIEWS BY OTHER AGENCIES

                                                                                     Funds
                                                                                  Recommended
                                                                                   for Better Unsupported
            Report Title (Report Number, Issue Date)                                   Use       Costs


Costs Incurred, Direct and Indirect, Fiscal Year Ended 9/30/96 and 9/30/97,
Mitretek System, Inc., McLean, VA (1998-02760-PE-0133-N03, 10/26/99)

Claim, Contracting No. V101cc-0052, Construction, VAMC Detroit, Centex               $36,947,663
Construction Company, Dallas, TX (1999-03107-PE-0107-N02, 10/26/99)

Proposal, Project No. 693-026, Ambulatory Care Addition, VAMC Wilkes-Barre,
Bell Constructor Inc., Rochester, NY (1998-02710-PE-0010-N02, 10/28/99)

Proposal, RFP No. 600-145-98cw, Urology Services, VAHS Long Beach,                      $697,613
University of California, Irvine, Irvine, CA (1999-00059-PE-0006-N03, 12/13/99)

Proposal, RFP No. 652-159-99, Corridor Remodeling, VAMC Richmond, Metrotec                $9,159
Associates, Inc., Virginia Beach, VA (1999-03293-PE-0113-N03, 12/15/99)

Claim, Project No. 317-007, Construction, VARO St. Petersburg, J. Kokolakis           $2,866,738
Contracting, Inc., Tarpon Springs, FL (1999-03115-PE-0201-N02, 12/22/99)

Claim, Project No. 508-018c, Clinical Addition, VAMC Atlanta, Caddell
Construction Co., Montgomery, AL (1999-03095-PE-0001-N02, 12/29/99)

Proposal, Project No. 920-001 A/E, VANC Fort Sill, Poe & Associates Oklahoma
City, OK (2000-00021-PE-0201-N02, 2/29/00)

Claim, Contract No. V101AC0141, Construction VAMC Mountain Home, TN,                    $149,760
Summit Construction Co., Inc., Cuyahoea Falls, OH (2000-00021-PE-0002-N02,
3/21/00)

TOTALS:                                    9 Reports                                 $42,858,727      $0

The Defense Contract Audit Agency completed all reports issued. This data is also reported in the
Department of Defense OIG's Semiannual Report to Congress.




                                                        85
86
                                             APPENDIX C

               CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
                 OFFICER DECISION HAD NOT BEEN MADE FOR OVER
                         6 MONTHS AS OF MARCH 31, 2000

                                                                Recommended       Reason for Delay
                                                   Questioned     Better Use      and Planned Date
 Report Title, Number, and Issue Date                Costs         of Funds        for a Decision

 Contract Reviews by OIG

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Review of Federal Supply Schedule Proposal                         $5,484,450   Pending receipt of
(Solicitation No. M5-Q50-97), Wyeth-Ayerst                                      Contracting Officer Price
Laboratories, Philadelphia, PA, 7PE-E02-127, 9/4/97                             Negotiation Memorandum
                                                                                (PNM); anticipated award
                                                                                date is May 31, 2000.

Review of Federal Supply Schedule Proposal                         $7,893,240   Pending receipt of
(Solicitation Number M5-Q50-97), Boehringer                                     Contracting Officer PNM;
Ingelheim Pharmaceuticals, Inc., Ridgefield, CT,                                anticipated award date is
8PE-E02-021, 10/16/97                                                           May 31, 2000.

Review of Federal Supply Schedule Proposal                         $2,468,847   Pending receipt of
(Solicitation Number M3-Q4-97), Medrad, Inc,                                    Contracting Officer PNM;
Indianola, PA, 8PE-E02-084, 3/19/98                                             anticipated award date is
                                                                                June 30, 2000.

Audit of Claims and Requests for Equitable                          $394,154    Claim in litigation; no
Adjustments Submitted by Bay Construction Company,                              planned resolution date
Contract Number V662C-1439,                                                     available.
8PE-E10-082, 3/25/98

Audit of Claim for Alleged Damages Under an                         $318,008    Claim in litigation; no
Agreement with a VAMC, 8PE-A12-104, 7/1/98                                      planned decision date
                                                                                available.

Review of Federal Supply Schedule Proposal                          $165,779    Pending receipt of
(Solicitation Number M3-Q4-97), Imation Enterprises                             Contracting Officer PNM;
Corporation Oakdale, MN, 8PE-E02-108, 7/20/98                                   anticipated award date is
                                                                                June 30, 2000.

Review of Federal Supply Schedule Proposal                        $17,989,200   Pending receipt of
(Solicitation Number M3-Q4-97) Eastman Kodak                                    Contracting Officer PNM;
Company, Rochester, NY, 9PE-X04-004, 11/30/98                                   no planned decision date
                                                                                available.

Review of Federal Supply Schedule Proposal                         $2,409,502   Pending receipt of
(Solicitation Number M5-Q50-97) Baxter Healthcare                               Contracting Officer PNM;
Corporation, Deerfield, IL, 9PE-X01-022, 2/4/99                                 anticipated award date is
                                                                                May 31, 2000.


                                                      87
                                                                     Recommended       Reason for Delay
                                                    Questioned         Better Use      and Planned Date
 Report Title, Number, and Issue Date                 Costs             of Funds        for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Cont’d)

Review of Federal Supply Schedule Proposal                               $680,400    Pending receipt of
(Solicitation Number M3-QF-98) Everest & Jennings,                                   Contracting Officer PNM;
Earth City, MO, 9PE-E02-036, 2/23/99                                                 anticipated award date is
                                                                                     May 31, 2000.

Review of Federal Supply Schedule Proposal                              $1,127,908   Pending receipt of
(Solicitation Number M5-Q50-97) Baxter Healthcare                                    Contracting Officer PNM;
Corporation – Hyland Division, Deerfield, IL,                                        no planned decision date
9PE-X01-139, 8/6/99                                                                  available.

Review of Federal Supply Schedule Proposal                               $107,534    Pending receipt of
(Solicitation Number M3-Q2B-98) Phoenix Medical                                      Contracting Officer PNM;
Technology, Inc., Andrews, SC, 9PE-X05-135, 8/20/99                                  no planned decision date
                                                                                     available.

 Contract Reviews by Other Agencies

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Claim, Contract V101DC-0048, Expand/Renovate             $1,469,934                  Claim in litigation; planned
Bldg-1, VAMC Salt Lake, Interwest Construction Salt                                  resolution date not
Lake City, UT, 7PE-N03-114, 9/30/97                                                  available.

Claim, Contract No. V621C-505, Correct Lake                $300,626                  Claim in litigation; no
Drainage, VAMC Mountain Home, TN, Carpenter                                          planned resolution date
Construction, Inc., Robbinsville, NC,                                                available.
9PE-N03-107, 5/12/99

Proposal, Project No. 543-015, Sprinkler & Fire Alarm    $1,109,745                  Claim in litigation; no
Pro., VAMC Columbia, SC, Fire Security System, Inc.,                                 planned resolution date
Bossier City, LA, 9PE-N03-108, 7/27/99                                               available.

Claim, Contract No. V640P-5285, Transportation           $1,463,111                  Claim in appeal; no planned
Services, VA HCS Palo Alto, Bay Trans Company,                                       resolution date available.
Inc., Santa Clara, CA, 9PE-N03-111, 8/18/99

 OFFICE OF FACILITIES MANAGEMENT (VHA)
Adjustment Claim, V101C-1606, Construction               $271,599                    Negotiation not finalized;
Service, VAMC Albany, Bhandari Constructors Inc.,                                    planned resolution by
Syracuse, NY, 5PE-N02-007, 3/31/95                                                   June 30, 2000.

Claim, Contract No. V101C-1651, Environment             $7,370,861                   Negotiation not finalized;
Improvement, VAMC North Chicago, Blount Inc.                                         planned resolution by
4PE-N02-202, 2/7/96                                                                  June 30, 2000.




                                                         88
                                      Recommended                                 Reason for Delay
                                        Better Use Unsupported                    and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs                        for a Decision

 OFFICE OF FACILITIES MANAGEMENT (VHA) (Cont’d)

Claim, Contract V101C-1532, Asbestos Removal           $875,708     $1,898      Negotiation not finalized;
VAMC W. Roxbury, Saturn Construction Co., Inc.,                                 resolution planned for next
Valhalla, NY, 5PE-N02-006, 2/23/96                                              reporting period.

Claim, Project No. 553-808, Replacement Hospital,    $11,952,726                Negotiation not finalized;
VAMC Detroit, MI, Bateson/Dailey, Dallas, TX,                                   planned resolution by
6PE-N02-204, 12/11/96                                                           September 30, 2000.

Proposal, Project No. 549-085, Clinical Addition,    $14,804,392                Negotiation not finalized;
VAMC Dallas, Centex Construction Company, Inc.,                                 planned resolution by
Dallas, TX, 7PE-N02-303, 5/20/97                                                November 1, 2000.

Proposal, Project No. 672-045, Change Order            $284,827                 Negotiation not finalized;
Outpatient Clinic Add., VAMC San Juan, J. A. Jones                              planned resolution by
Construction Co., San Juan, PR,                                                 July 31, 2000.
7PE-N02-007, 12/9/97

Claim, Project Nos. 549-085/031 A/E, VAMC                                       Negotiation not finalized;
Dallas, Dahl Architects, Inc., /F&S Partner, Inc.,                              planned resolution by
Dallas, TX, 8PE-N02-110, 10/27/98                                               June 30, 2000.

Claim, Project No. 580-040, Electrical, VAMC          $3,280,340                Negotiation not finalized;
Houston, TX, Centex Bateson Construction                                        planned resolution by
Company, Inc., Dallas, TX, 5PE-N02-307, 2/18/99                                 September 30, 2000.

Claim, Contract No. V101BC131, Ambulatory Care        $3,787,571                Negotiation not finalized;
Addition, VAMC San Juan, J. A. Jones Construction                               planned resolution date
Co., Charlotte, NC, 9PE-N02-013, 4/6/99                                         July 31, 2000.

Proposal, Project No. 612-101F, A/E, SMP-SHG,           $78,323      $68,334    Negotiation not finalized;
VAOPC Fairfield San Francisco, CA, 9PE-N02-102,                                 planned resolution date
4/21/99                                                                         November 1, 2000.

Proposal, Project No. 600-401, A/E, VAMC Long                      $1,052,746   Negotiation not finalized;
Beach, HMC Group, Ontario, CA, 9PE-N02-104,                                     planned resolution date
5/12/99                                                                         June 15, 2000.

Claim, Project No. 610-090, Construction, VAMC         $122,999                 Negotiation not finalized;
Marion, Caddell Construction Co., Montgomery, AL,                               planned resolution date June
9PE-N02-103, 6/16/99                                                            30, 2000.

Proposal, Project No. 614-011,                        $1,912,868                Negotiation not finalized;
Seismic/Modernization, VAMC Memphis, Caddell                                    planned resolution date
Construction, 9PE-N02-007, 9/15/99                                              October 31, 2000.

Claim, Project No. 685-077, Roofing, VAMC              $442,774                 Negotiation not finalized;
WACO, Young Enterprises, Sherman, TX,                                           planned resolution date July
9PE-N02-108, 9/15/99                                                            15, 2000.




                                                       89
                                      Recommended                  Reason for Delay
                                        Better Use Unsupported     and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs         for a Decision

 OFFICE OF THE GENERAL COUNSEL

Claim, Project No. 632-062, 120 Bed Nursing Home    $1,623,126   General Counsel in
Care Unit, VAMC Northport, J.F. O’Healy                          settlement discussions; no
Construction Corporation, Bayport, NY,                           planned resolution date
3PE-N02-001, 3/26/96                                             available.

Claim, Contract No. V554C-684, Laundry Chute         $450,977    Claim in litigation; planned
VAMC Denver, CO, Hughes-Groesch Construction                     resolution by December 31,
Co., Inc., Denver, CO, 7PE-N03-130, 3/31/97                      2000.

Claim, Project No. 690-035 MFI Addition, VAMC        $724,755    General Counsel in
Brockton, Saturn Construction Co., Inc., Valhalla                settlement discussions; no
NY, 6PE-N02-001, 5/19/97                                         planned resolution date
                                                                 available.

Proposal, Project No. 543-015, Sprinkler & Fire      $503,356    Claim in litigation; planned
Alarm Pro, VAMC Columbia Fire Security Systems,                  resolution by January 31,
Inc., Bossier City, LA, 8PE-N03-110, 3/19/98                     2001.

 OFFICE OF GERIATRICS AND EXTENDED CARE (VHA)

A-128, Fiscal Year Ended 6/30/96, State Approving                Negotiation not finalized;
Agency Contract, State Veterans Home, State of                   planned completion date
Tennessee, Nashville, TN, 8PE-G06-047, 1/9/98                    could not be provided.




                                                     90
                                          APPENDIX D

                 FOLLOWUP/RESOLUTION OF OIG RECOMMENDATIONS

The Inspector General Act Amendments of 1988 require identification of all significant management
decisions with which the Inspector General is in disagreement and all significant and other
recommendations unresolved for over 6 months (management decisions not made). We had no Inspector
General disagreements on significant management decisions and there were no internal audit
recommendations unresolved for over 6 months as of the end of this reporting period. Contract report
recommendations unresolved for over 6 months are included in Appendix C.

Following are tables which provide a summary of the number of OIG reports with potential monetary
benefits that were unresolved at the beginning of the period, the number of reports issued and resolved
during the period with potential monetary benefits, and the number of reports that remained unresolved at
the end of the period.

                SUMMARY OF UNRESOLVED AND RESOLVED OIG AUDITS

As required by the IG Act Amendments, Tables 1 and 3 provide statistical summaries of unresolved and
resolved reports for this reporting period. The dollar figures used throughout this report are based on the
definitions included in the IG Act Amendments of 1988. The figures may reflect changes from the data
in the individual reports due to OIG validation to ensure compliance with the IG Act Amendments
definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved reports and the length of time they have been unresolved.


                  MONTHS               TYPE AUDIT                NUMBER          TOTAL
                    Over               Internal Audit               0
                                                                                    34
                  6 Months            Contract Review                34
                  Less Than            Internal Audit                0
                                                                                    9
                   6 Months           Contract Review                9
                                                         TOTAL                      43

Tables 2 and 3 show a total of 40 reports that were unresolved as of March 31, 2000. This number
differs from the 43 reports shown above because tables 2 and 3 include only reports with monetary
benefits as required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during
the period with the OIG estimates of disallowed costs and funds to be put to better use, including those in
which management agreed to implement OIG recommendations and those in which management did not
agree to implement OIG recommendations. The Assistant Secretary for Financial Management maintains
data on the agreed upon reports and Management estimates of disallowed costs and funds to be put to
better use in order to comply with the reporting requirements for the Secretary's Management Report to
Congress, required by the IG Act Amendments.


                                                    91
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.


                                                                    NUMBER           QUESTIONED
                    RESOLUTION STATUS                                 OF                 COSTS
                                                                    REPORTS           (In Millions)
    No management decision by 9/30/99                                     0                 $0
    Issued during reporting period                                      16                  $3.8
             Total Inventory This Period                                16                  $3.8
    Management decision during reporting period
       Disallowed costs (agreed to by management)                       16                  $3.8
       Allowed costs (not agreed to by management)                       0                  $0
            Total Management Decisions This Period                      16                  $3.8
            Total Carried Over to Next Period                             0                 $0


Definitions:

•   Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or benefits provided to
ineligible recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.
         For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by
the contracting officer, grant official, or other management official. Costs normally result from a finding
that expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or
other agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

• Disallowed Costs are costs: that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery; or on
which management has agreed that VA should bill for property, services, benefits provided, monies
erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual amount
of money that will be recovered by the Government due to unsuccessful collection actions, appeal
decisions, or other similar actions.

• Allowed Costs are amounts on which contracting officers, grant officials, or management officials
have determined that VA will not pursue recovery of funds.




                                                    92
TABLE 3 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the
dollar value of recommendations that were agreed to and not agreed to by management.


                                                                            NUMBER               RECOMMENDED
                     RESOLUTION STATUS                                        OF                FUNDS TO BE PUT
                                                                            REPORTS            TO BETTER USE (In
                                                                                                        Millions)

    No management decision by 9/30/99                                             43                     $116.2
    Issued during reporting period                                                14                     $252.6
           Total Inventory This Period                                            57                     $368.8
    Management decisions during reporting period
      Agreed to by management                                                     10                     $198.0
      Not agreed to by management                                                   7                       $5.7
           Total Management Decisions This Period                                 17                     $203.7
           Total Carried Over to Next Period                                      40                    $156.01

1
  The opening balance ($116.2), plus the reports issued during the period ($252.6), minus the management decisions this period
($203.7), does not equal the closing balance ($156.0) due to a decrease in BUOF during the period amounting to $9.1 million.

Definitions:

•    Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not
incurred by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a
failure to comply with regulations or contract requirements, mathematical errors, duplication of costs,
proposal of excessive rates, or differences in accounting methodology. Unsupported costs result from a
finding that inadequate documentation exists to enable the auditor to make a determination concerning
allowability of costs proposed.

• Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management's agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were
not awarded as a result of audits.

• Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.



                                                             93
94
                                            APPENDIX E

                REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements to the specific pages where they are
prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended by the Inspector
General Act Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated Appropriations
Act of 1997 (Public Law 104-208).

 IG Act
References                               Reporting Requirement                                          Page
Section 4 (a) (2)    Review of legislation and regulations                                                66

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                      1-75

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and                   1-75
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been            91
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and            i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                   78

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned         79-85
                     costs and recommendations that funds be put to better use                       (App. A & B)

Section 5 (a) (7)    Summary of each particularly significant report                                     i to v

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned          92
                     costs for unresolved, issued, and resolved reports                                (Table 2)

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                     93
                     recommendations that funds be put to better use for unresolved, issued, and       (Table 3)
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no      87 to 90
                     management decision was made by end of reporting period                           (App. C)

Section 5 (a) (11)   Significant revised management decisions                                            None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in             None
                     disagreement

Section 5 (a) (13)   Information described under section 05(b) of the Federal Financial                   43
                     Management Improvement Act of 1996 (Public Law 104-208)




                                                        95
96
                                              APPENDIX F
                                    OIG OPERATIONS PHONE LIST

Investigations


Central Office Investigations Washington, DC.......................................................(202) 565-7702
Northeast Field Office (51NY) New York, NY ........................................................(212) 807-3444
Boston Resident Agency (51BN) Bedford, MA ............................................................(781) 687-3138
Newark Resident Agency (51NJ) Newark, NJ ..............................................................(973) 645-3590
Pittsburgh Resident Agency (51PB) Pittsburgh, PA......................................................(412) 784-3818
Washington Resident Agency (51WA) Washington, DC .............................................(202) 691-3338
Southeast Field Office (51SP) Bay Pines, FL.............................................................(727) 398-9559
Atlanta Resident Agency (51AT) Atlanta, GA ..............................................................(404) 929-5950
Columbia Resident Agency (51CS) Columbia, SC .......................................................(803) 695-6707
Nashville Resident Agency (51NV) Nashville, TN.......................................................(615) 736-7200
New Orleans Resident Agency (51NO) New Orleans, LA ...........................................(504) 619-4340
West Palm Beach Resident Agency (51WP) West Palm Beach, FL.............................(561) 882-7720
Central Field Office (51CH) Chicago, IL...................................................................(708) 202-2676
Dallas Resident Agency (51DA) Dallas, TX .................................................................(214) 655-6022
Denver Resident Agency (51DV) Denver, CO..............................................................(303) 331-7673
Houston Resident Agency (51HU) Houston, TX ..........................................................(713) 794-3652
Kansas City Resident Agency (51KC) Kansas City, KS ...............................................(913) 551-1439
Western Field Office (51LA) Los Angeles, CA .........................................................(310) 268-4268
Phoenix Resident Agency (51PX) Phoenix, AZ............................................................(602) 640-4684
San Francisco Resident Agency (51SF) Oakland, CA ..................................................(510) 637-1074


Healthcare Inspections


Central Office Operations Washington, DC............................................................(202) 565-8305
Healthcare Regional Office Atlanta (54AT) Atlanta, GA......................................(404) 929-5961
Healthcare Regional Office Chicago (54CH) Chicago, IL.....................................(708) 202-2672
Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA......................(310) 268-3005




                                                          97
                              OIG OPERATIONS PHONE LIST (CONT’D)


Audit


Central Office Operations Division (52CO) Washington, DC ................................(202) 565-4433
Contract Review and Evaluation Division (52C) Washington, DC........................(202) 565-4818
Financial Management Audit Division (52CF) Washington, DC ...........................(202) 565-7913
Austin Residence (52AU) Austin, TX ...........................................................................(512) 326-6216
Operations Division Atlanta (52AT) Atlanta, GA ....................................................(404) 929-5921
Operations Division Boston (52BN) Bedford, MA ...................................................(781) 687-3120
Philadelphia Residence (52PH) Philadelphia, PA .........................................................(215) 381-3052
Operations Division Chicago (52CH) Chicago, IL ...................................................(708) 202-2667
Operations Division Kansas City (52KC) Kansas City, MO...................................(816) 426-7100
Dallas Residence (52DA) Dallas, TX ............................................................................(214) 655-6000
Operations Division Seattle (52SE) Seattle, WA.......................................................(206) 220-6654
Los Angeles Residence (52LA) Los Angeles, CA.........................................................(310) 268-4336




                                                            98
                           APPENDIX G
                               GLOSSARY
A&MM    Acquisition and Materiel Management
AFPDS   Advanced Food Processing and Delivery Systems
AIG     Assistant Inspector General
BVA     Board of Veterans Appeals
CAP     Combined Assessment Program
C&P     Compensation & Pension
CFS     Consolidated Financial Statements
DCIS    Defense Criminal Investigative Service
DDC     Denver Distribution Center
DEA     Drug Enforcement Administration
DIC     Dependency and Indemnity Compensation
DOL     Department of Labor
FBI     Federal Bureau of Investigation
FBS     Fiduciary Beneficiary System
FDA     Food and Drug Administration
FFMIA   Federal Financial Management Improvement Act
FOIA    Freedom of Information Act
FTE     Full Time Equivalent
FY      Fiscal Year
GPF     General Post Fund
GPRA    Government Performance and Results Act
HCA     Housing Credit Assistance
HCV     Hepatitis C Virus
HHS     Department of Health and Human Services
HUD     Department of Housing and Urban Development
IDCU    Integrated Data Communications Utility
IRS     Internal Revenue Service
IG      Inspector General
IPA     Intergovernmental Personnel Act
LGS     Loan Guaranty Service
MCI     Master Case Index
NCA     National Cemetery Administration
OA&MM   Office of Acquisition and Materiel Management
OCA     Office of Congressional Affairs
OHI     Office of Healthcare Inspections
OIG     Office of Inspector General
OMB     Office of Management and Budget
PCIE    President’s Council on Integrity and Efficiency
PDAS    Principal Deputy Assistant Secretary
QPA     Quality Program Assistance [Review]
SSA     Social Security Administration
USSS    United States Secret Service
VA      Department of Veterans Affairs
VAMC    Veterans Affairs Medical Center
VARO    VA Regional Office
VBA     Veterans Benefits Administration
VHA     Veterans Health Administration
VISN    Veterans Integrated Service Network
WCP     Workers’ Compensation Program
Y2K     Year 2000




                                     99
Copies of this report are available to the public. Written requests should be sent to:

       Office of the Inspector General (53B)
       Department of Veterans Affairs
       810 Vermont Avenue, NW
       Washington, DC 20420


The report is also available on our Web Site:

       http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620




 Cover photo of
 The Lone Sailor,
 U.S. Navy Memorial,
 Washington, DC by
 Joseph M. Vallowe, Esq.
 VA OIG, Washington, DC




                                          100
